No. 20-440
IN THE

Supreme Court of the United States
___________

MINERVA SURGICAL, INC.,
v.

Petitioner,

HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Respondents.
___________

On Writ of Certiorari to the United States
Court of Appeals for the Federal Circuit
___________

JOINT APPENDIX – VOLUME I
___________

ROBERT N. HOCHMAN*
CAROLINE A. WONG
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

MATTHEW M. WOLF*
MARC A. COHN
JENNIFER A. SKLENAR
R. STANTON JONES
WILLIAM C. PERDUE
SEAN A. MIRSKI
ARNOLD & PORTER
KAYE SCHOLER LLP
JILLIAN SHERIDAN
601
Massachusetts Ave., N.W.
STONECIPHER
Washington, D.C. 20001
SIDLEY AUSTIN LLP
(202) 942-5000
1501 K Street, N.W.
Washington, D.C. 20005 matthew.wolf@arnoldporter.com
(202) 736-8000
Counsel for Petitioner
Counsel for Respondents
*Counsels of Record
[Additional counsel listed on inside cover.]
PETITION FOR CERTIORARI FILED SEPT. 30, 2020
CERTIORARI GRANTED JAN. 8, 2021

VERA M. ELSON
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
EDWARD G. POPLAWSKI
OLIVIA M. KIM
WILSON SONSINI GOODRICH
& ROSATI, P.C.
633 West Fifth Street
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
Counsel for Petitioner

TABLE OF CONTENTS

Page

Volume One
Relevant Docket Entries, Hologic, Inc. v. Minerva
Surgical, Inc., No. 1:15-cv-01031-JFB-SRF
(D. Del.) .........................................................

1

Docket Entries, Hologic, Inc. v. Minerva Surgical,
Inc., No. 19-2081 (Fed. Cir.) .........................

25

Declaration of Dr. Edward Evantash in Support
of Hologic, Inc.’s Motion for a Preliminary
Injunction, Hologic, Inc. v. Minerva Surgical,
Inc., No. 1:15-cv-01031-SLR (D. Del. Dec.
16, 2015), ECF No. 29 ...................................

43

Defendant Minerva Surgical, Inc.’s Answer to
Hologic, Inc.’s and Cytyc Surgical Products,
LLC’s Second Amended Complaint for
Infringement and Counterclaims, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031SLR (D. Del. Mar. 11, 2016), ECF No. 85 ....

51

Excerpts from Declaration of Dr. Evgueni
Skalnyi M.D. in Support of Defendant
Minerva Surgical, Inc.’s Opposition to
Plaintiffs’ Motion for a Preliminary
Injunction, Hologic, Inc. v. Minerva
Surgical, Inc., No. 15-1031-SLR (D. Del.
Mar. 11, 2016), ECF No. 89 ..........................

91

Memorandum Order Denying Motion for
Preliminary Injunction, Hologic, Inc. v.
Minerva Surgical, Inc., Civ. No. 15-1031SLR (D. Del. June 2, 2016), ECF No. 127 .... 104

ii
Memorandum Order Regarding Claim Construction, Hologic, Inc. v. Minerva Surgical, Inc.,
Civ. No. 15-1031-SLR (D. Del. Apr. 24,
2017), ECF No. 227....................................... 128
Excerpts from June 30, 2017 Declaration of
Csaba Truckai [attached as Exhibit 42 to
Declaration of Olivia M. Kim in Support of
Defendant Minerva’s Motion to Dismiss,
Motion for Partial Summary Judgment,
and Daubert Motion, Hologic, Inc. v.
Minerva Surgical, Inc., No. 15-1031-SLRSRF (D. Del. Jan. 5, 2018), ECF No. 281-8,
Ex. 42] ........................................................... 136
Excerpts from June 30, 2017 Expert Report of
Dr. Robert Tucker, M.D., Ph.D. Regarding
Invalidity of U.S. Patent Nos. 6,872,183,
9,095,348 and 9,247,989 [attached as
Exhibit 43 to Declaration of Olivia M. Kim
in Support of Defendant Minerva’s Motion
to Dismiss, Motion for Partial Summary
Judgment, and Daubert Motion, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031SLR-SRF (D. Del. Jan. 5, 2018), ECF No.
281-8, Ex. 43] ................................................ 165
Excerpts from October 25, 2017 Deposition of
Csaba Truckai [Attached as Exhibit 4 to
Declaration of Marc A. Cohn, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Jan. 5, 2018), ECF No. 292-1,
Ex. 4] ............................................................. 227

iii
Excerpt from January 26–30, 2011 Email
Thread [Attached as Exhibit 83 to
Declaration of Marc A. Cohn, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Jan. 5, 2018), ECF No. 293-4,
Ex. 83] ........................................................... 296
Email from Dave Clapper to Erik Glaser “Re:
Confidential ‘DRAFT’ - Minerva Pivotal
Study One Year Report,” dated November
10, 2015 [Attached as Exhibit 179 to
Delaration of Marc A. Cohn, Hologic, Inc. v.
Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Feb. 14, 2018), ECF No. 3254, Ex. 179] ..................................................... 301
Joint Statement of Uncontested Facts, Hologic,
Inc. v. Minerva Surgical, Inc., No. 15-1031JFB-SRF (D. Del. June 7, 2018), ECF No.
367-1, Ex. 1 [Attached as Exhibit 1 to Joint
Proposed Pretrial Order] .............................. 310
Order Regarding Summary Judgment, Hologic,
Inc. v. Minerva Surgical, Inc., No.
1:15CV1031 (D. Del. June 28, 2018), ECF
No. 408 .......................................................... 315
Jury Verdict, Hologic, Inc. v. Minerva Surgical,
Inc., No. 1:15CV1031 (D. Del. July 27,
2018), ECF No. 499....................................... 317
Volume Two
Excerpts from official transcript of jury trial
held on July 17, 2018 .................................... 321
Excerpts from official transcript of jury trial
held on July 18, 2018 .................................... 329
Excerpts from official transcript of jury trial
held on July 19, 2018 .................................... 331

iv
Excerpts from official transcript of jury trial
held on July 20, 2018 .................................... 347
Excerpts from official transcript of jury trial
held on July 23, 2018 .................................... 487
Excerpts from official transcript of jury trial
held on July 24, 2018 .................................... 498
Excerpts from official transcript of jury trial
held on July 26, 2018 .................................... 507
Judgment Following Jury Verdict, Hologic, Inc.
v. Minerva Surgical, Inc., No. 15-1031-JFBSRF (D. Del. Aug. 13, 2018), ECF No. 520 ... 508
Decision Denying Institution of Inter Partes
Review, Case No. IPR2016-00680, Paper 8,
dated September 12, 2016 [Attached as
Exhibit 1 to Declaration of Marc A. Cohn in
Support of Plaintiffs’ Post-Trial Motions,
Hologic, Inc. v. Minerva Surgical, Inc., No.
15-1031-JFB-SRF (D. Del. Sept. 17, 2018),
ECF No. 545, Ex. 1] ...................................... 510
Decision Denying Institution of Inter Partes
Review, Case No. IPR2016-00685, Paper 8,
dated September 12, 2016 [Attached as
Exhibit 2 to Declaration of Marc A. Cohn in
Support of Plaintiffs’ Post-Trial Motions,
Hologic, Inc. v. Minerva Surgical, Inc., No.
15-1031-JFB-SRF (D. Del. Sept. 17, 2018),
ECF No. 545, Ex. 2] ...................................... 545
Memorandum and Order Regarding Judgment
as a Matter of Law, Hologic, Inc. v. Minerva
Surgical, Inc., No. 1:15-cv-1031 (D. Del. May
2, 2019), ECF No. 616 ................................... 578

v
Final Judgment, Hologic, Inc. v. Minerva
Surgical, Inc., Civ. No. 15-1031-JFB (D.
Del. June 3, 2019), ECF No. 621 .................. 603
Plaintiffs’ Trial Exhibit 12: Press Release, Cytyc
Corp., Cytyc to Acquire Novacept in $325
Million Cash Transaction; Expands Women’s
Health Franchise (Mar. 1, 2004) .................. 605
Plaintiffs’ Trial Exhibit 14: Agreement and Plan
of Merger between Cytyc Corporation and
Novacept (Mar. 1, 2004) ............................... 611
Excerpt from Plaintiff’s’ Trial Exhibit 41: Email
thread dated July 12–18, 2010 between
Colin Pollard, U.S. Food & Drug Admin.,
and Mary Edwards, Minerva Surgical, Inc.,
regarding “Questions for budget purposes
regarding endometrial ablation trials” ........ 732
Plaintiffs’ Trial Exhibit 55: Email thread dated
August 12–15, 2015 regarding “JMIG article
about Minerva endometrial ablation” .......... 735
Plaintiffs’ Trial Exhibit 106: Email thread dated
December 2–19, 2014 between Mandy
Callahan, IP Paralegal, Hologic, Inc., and
Csaba
Truckai
regarding
“Patent
declaration” ................................................... 737
Plaintiffs’ Trial Exhibit 128: Minerva Statement
on Training ................................................... 739
Defendant’s Trial Exhibit 424: Email thread
dated August 12–18, 2015 regarding
“Minerva Hiring” .......................................... 741
Defendant’s Trial Exhibit 425: Email thread
dated September 30–October 2, 2015
regarding Minerva “defense program”......... 746

vi
Defendant’s Trial Exhibit 622: “Strategy
Planning Meeting Key Themes and Take
Aways” attachment to email thread
regarding Minerva “defense program”......... 748
Excerpt from Joint Trial Exhibit 5: U.S. Patent
No. 9,095,348 File History, U.S. Application
No. 13/962,178 (08/08/2013) .......................... 753
Excerpt from Joint Trial Exhibit 24: PMA
P140013: FDA Summary of Safety and
Effectiveness Data (SSED) – Thermal
(Radiofrequency Ionized Argon Gas)
Endometrial Ablation Device – Minerva™
Endometrial Ablation System ...................... 755
Excerpts from Joint Trial Exhibit 32: PMA
P010013: Summary of Safety and
Effectiveness Data – Thermal (RadioFrequency) Endometrial Ablation Device –
NovaSure™
Impedance
Controlled
Endometrial Ablation System ...................... 759
Supplemental Appendix
Plaintiffs’ Trial Exhibit 114: Letter and attachment from Mandy Callahan, IP Paralegal,
Hologic, Inc., to Csaba Truckai “Re:
Request for Signature – Hologic Inventor
Declaration for 13.003011 US CON 7” ........ 763
Excerpts from Defendant’s Trial Exhibit 16:
U.S. Patent No. 6,813,520 ............................ 795
Joint Trial Exhibit 2: U.S. Patent No. 9,095,348 .... 802
Excerpts from Joint Trial Exhibit 15: U.S.
Patent No. 6,813,520 File History, U.S.
Application No. 09/103,072 (06/23/1998) ....... 834
Joint Trial Exhibit 18: U.S. Patent No. 5,443,470 ... 977

vii
NOTICE
The following documents have been omitted from the
printing of this Joint Appendix. They may be found
in the Appendix to the Petition for a Writ of
Certiorari at the following pages:
Opinion, Hologic, Inc. v. Minerva Surgical, Inc.,
957 F.3d 1256 (Fed. Cir. 2020) .....................

1a

Memorandum Opinion, Hologic, Inc. v.
Minerva Surgical, Inc., 325 F. Supp. 3d
507 (D. Del. 2018), aff’d, 957 F.3d 1256
(Fed. Cir. 2020) ............................................ 33a
Order Denying Petitions for Panel Rehearing
and Rehearing En Banc, Hologic, Inc. v.
Minerva Surgical, Inc., Nos. 2019-2054,
2019-2081 (Fed. Cir. July 22, 2020), ECF
No. 72 ............................................................ 79a

1
U.S. DISTRICT COURT
DISTRICT OF DELAWARE (WILMINGTON)
————
Civil Docket For Case #: 1:15-cv-01031-JFB-SRF
————
HOLOGIC, INC. ET AL
v.
MINERVA SURGICAL, INC.
————
RELEVANT DOCKET ENTRIES
DATE

NO.

DOCKET TEXT

11/06/2015 1 COMPLAINT filed with Jury Demand
against Minerva Surgical, Inc. Magistrate Consent Notice to Pltf.
( Filing fee $ 400, receipt number
1823358.) - filed by Hologic, Inc.,
Cytyc
Surgical
Products,
LLC.
(Attachments: # 1 Exhibit A, # 2
Exhibit B, # 3 Exhibit C)(cna)
(Additional attachment(s) added on
11/10/2015: # 4 Exhibit D) (sar).
(Entered: 11/06/2015)
***
02/05/2016 70 SECOND AMENDED COMPLAINT
against Minerva Surgical, Inc.- filed
by Hologic, Inc., Cytyc Surgical
Products, LLC. (Attachments: # 1 part
2, # 2 part 3, # 3 part 4)(fms)
(Entered: 02/05/2016)
***

2
DATE

NO.

DOCKET TEXT

03/11/2016 85 REDACTED VERSION of 83 Answer
to Amended Complaint,, Counterclaim,
by Minerva Surgical, Inc.. (Schladweiler,
Benjamin) (Entered: 03/11/2016)
***
06/02/2016 127 MEMORANDUM ORDER denying 9
MOTION for Preliminary Injunction
filed by Cytyc Surgical Products, LLC,
Hologic, Inc. Signed by Judge Sue L.
Robinson
on
6/2/2016.
(nmfn)
(Entered: 06/02/2016)
***
04/24/2017 227 MEMORANDUM ORDER re: claim
construction. Signed by Judge Sue L.
Robinson
on
4/24/2017.
(nmfn)
(Entered: 04/24/2017)
***
01/05/2018 277 MOTION for Partial Summary
Judgment - filed by Minerva Surgical,
Inc.. (Attachments: # 1 Text of
Proposed
Order)(Schladweiler,
Benjamin) Modified on 1/8/2018 (lih).
(Entered: 01/05/2018)
01/05/2018 278 [SEALED] OPENING BRIEF in
Support re 277 MOTION for Partial
Summary Judgment filed by Minerva
Surgical, Inc..Answering Brief/Response
due date per Local Rules is 1/19/2018.
(Attachments:
#
1
Appendix)
(Schladweiler, Benjamin) Modified on
1/8/2018 (lih). (Entered: 01/05/2018)
***

3
DATE

NO.

DOCKET TEXT

01/05/2018 281 [SEALED] DECLARATION Volume I
of V of Olivia M. Kim re 277 MOTION
for Partial Summary Judgment, 279
MOTION to Preclude, 275 MOTION
to Dismiss by Minerva Surgical, Inc..
(Attachments: # 1 Exhibit 1, # 2
Exhibit 2, # 3 Exhibits 3-5, # 4
Exhibits 6-8, # 5 Exhibits 9-14, # 6
Exhibits 15-34, # 7 Exhibits 35-40, # 8
Exhibits
41-43)(Schladweiler,
Benjamin) Modified on 1/8/2018 (lih).
(Entered: 01/05/2018)
01/05/2018 282 [SEALED] DECLARATION Volume II
of V re 281 Declaration by Minerva
Surgical, Inc.. (Attachments: # 1
Exhibits
46-54)(Schladweiler,
Benjamin) Modified on 1/8/2018 (lih).
(Entered: 01/05/2018)
01/05/2018 283 [SEALED] Exhibit Volume III of V re
281 Declaration by Minerva Surgical,
Inc.. (Attachments: # 1 Exhibits 5760, # 2 Exhibit 61, # 3 Exhibits 62-73,
# 4 Exhibits 74-88)(Schladweiler,
Benjamin) Modified on 1/8/2018 (lih).
(Entered: 01/05/2018)
01/05/2018 284 [SEALED] EXHIBIT Volume IV of V
re 281 Declaration by Minerva
Surgical, Inc.. (Attachments: # 1
Exhibit 100, # 2 Exhibit 101 - Parts 110, # 3 Exhibits 101 - Part 11 and
Exhibit 112, # 4 Exhibits 113-120, # 5
Exhibits 121-126, # 6 Exhibits 127137)(Schladweiler, Benjamin) Modified

4
DATE

NO.

DOCKET TEXT
on 1/8/2018 (lih). (Entered: 01/05/2018)
01/05/2018 285 [SEALED] EXHIBIT Volume V of V re
281 Declaration by Minerva Surgical,
Inc.. (Attachments: # 1 Exhibit 142, #
2 Exhibit 143 - Parts 1-5, # 3 Exhibits
144-145, # 4 Exhibits 146-147, # 5
Exhibits 148-150, # 6 Exhibits 151153, # 7 Exhibit 154, # 8 Exhibit 155,
# 9 Exhibits 156-161)(Schladweiler,
Benjamin) Modified on 1/8/2018 (lih).
(Entered: 01/05/2018)
01/05/2018 286 NOTICE of filing the following NonPaper material(s) in multi media
format: CD containing Exhibits 17,
18, 20, 21, 23, 25, 27, 29, 31, 32, 33,
156, 157, and 158 to the Declaration
of Olivia M. Kim in Support of
Defendant Minerva’s Motion to
Dismiss, Motion for Partial Summary
Judgment and Daubert Motion.
Original Non-paper material(s) to be
filed with the Clerk’s Office. Notice
filed by Benjamin J. Schladweiler on
behalf of Minerva Surgical, Inc.
(Schladweiler, Benjamin) (Entered:
01/05/2018)
01/05/2018 287 MOTION for Summary Judgment of
No Invalidity - filed by Cytyc Surgical
Products,
LLC,
Hologic,
Inc..
(Attachments: # 1 Text of Proposed
Order)(Pascale, Karen) Modified on
1/8/2018 (lih). (Entered: 01/05/2018)

5
DATE

NO.

DOCKET TEXT

01/05/2018 288 MOTION for Summary Judgment of
Infringement - filed by Cytyc Surgical
Products,
LLC,
Hologic,
Inc..
(Attachments: # 1 Text of Proposed
Order)(Pascale, Karen) Modified on
1/8/2018 (lih). (Entered: 01/05/2018)
01/05/2018 289 MOTION for Summary Judgment of
Assignor Estoppel - filed by Cytyc
Surgical Products, LLC, Hologic, Inc..
(Attachments: # 1 Text of Proposed
Order)(Pascale, Karen) Modified on
1/8/2018 (lih). (Entered: 01/05/2018)
***
01/05/2018 291 [SEALED] OPENING BRIEF in
Support re 290 MOTION to Preclude,
289
MOTION
for
Summary
Judgment,
287
MOTION
for
Summary Judgment, 288 MOTION
for Summary Judgment filed by Cytyc
Surgical Products, LLC, Hologic,
Inc..Answering Brief/Response due
date per Local Rules is 1/19/2018.
(Pascale, Karen) Modified on 1/8/2018
(lih). (Entered: 01/05/2018)
01/05/2018 292 [SEALED] DECLARATION of Marc
A. Cohn (Volume 1 of 2) re 290
MOTION to Preclude, 289 MOTION
for
Summary
Judgment,
287
MOTION for Summary Judgment,
288 MOTION for Summary Judgment
by Cytyc Surgical Products, LLC,
Hologic, Inc.. (Attachments: # 1
Exhibit 1 - 20, # 2 Exhibit 21 -

6
DATE

01/05/2018

01/05/2018

01/05/2018

01/08/2018

NO.

DOCKET TEXT
45)(Pascale, Karen) Modified on
1/8/2018 (lih). (Entered: 01/05/2018)
293 [SEALED] DECLARATION (Volume
2 of 2) re 290 MOTION to Preclude,
287
MOTION
for
Summary
Judgment,
289
MOTION
for
Summary Judgment, 288 MOTION
for Summary Judgment by Cytyc
Surgical Products, LLC, Hologic, Inc..
(Attachments: # 1 Exhibit 46 - 61, # 2
Exhibit 62 - 65, # 3 Exhibit 66 - 73, #
4 Exhibit 74 - 90, # 5 Exhibit 91 122)(Pascale, Karen) Modified on
1/8/2018 (lih). (Entered: 01/05/2018)
294 [SEALED] DECLARATION of Karl R.
Leinsing, MSME, PE re 290 MOTION
to Preclude, 289 MOTION for Summary
Judgment, 287 MOTION for Summary
Judgment, 288 MOTION for Summary
Judgment by Cytyc Surgical Products,
LLC, Hologic, Inc.. (Pascale, Karen)
Modified on 1/8/2018 (lih). (Entered:
01/05/2018)
295 NOTICE of of Filing of Multimedia
Format by Cytyc Surgical Products,
LLC, Hologic, Inc. re 293 Declaration,,
(Pascale, Karen) (Entered: 01/05/2018)
296 MULTI MEDIA DOCUMENT filed by
Cytyc
Surgical
Products,
LLC,
Hologic, Inc. in the form of a CD Rom.
(Media on file in Clerk’s Office). (crb)
(Entered: 01/08/2018)

7
DATE

NO.

DOCKET TEXT

01/09/2018 297 MULTI MEDIA DOCUMENT filed by
Minerva Surgical, Inc. in the form of a
CD ROM (Exhibits 17, 18, 20, 21, 23,
25, 27, 29, 31, 32, 33, 156, 157, 158).
(Media on file in Clerk’s Office). (crb)
(Entered: 01/09/2018)
***
VERSION
of
278
01/16/2018 300 REDACTED
Opening Brief in Support, by Minerva
Surgical, Inc.. (Attachments: # 1
Appendix)(Schladweiler,
Benjamin)
(Entered: 01/16/2018)
***
VERSION
of
281
01/16/2018 302 REDACTED
Declaration by Minerva Surgical, Inc..
(Attachments: # 1 Exhibit 1, # 2
Exhibit 2, # 3 Exhibits 3-5, # 4
Exhibits 6-8, # 5 Exhibits 9-14, # 6
Exhibits 15-34, # 7 Exhibits 35-40, # 8
Exhibits 41-43)(Schladweiler, Benjamin)
Modified on 1/17/2018 (lih). (Entered:
01/16/2018)
VERSION
of
282
01/16/2018 303 REDACTED
Declaration by Minerva Surgical, Inc..
(Attachments: # 1 Exhibits 46-54)
(Schladweiler, Benjamin) Modified on
1/17/2018 (lih). (Entered: 01/16/2018)
01/16/2018 305 REDACTED VERSION of 284 Exhibit
to a Document by Minerva Surgical,
Inc.. (Attachments: # 1 Exhibit 100, #
2 Exhibit 101 - Parts 1-10, # 3
Exhibits 101 - Part 11 and Exhibit
112, # 4 Exhibits 113-120, # 5

8
DATE

01/16/2018

01/16/2018

01/16/2018

01/16/2018

01/16/2018

NO.

DOCKET TEXT
Exhibits 121-126, # 6 Exhibits 127137)(Schladweiler, Benjamin) Modified
on 1/17/2018 (lih). (Entered: 01/16/2018)
VERSION
of
291
306 REDACTED
Opening Brief in Support by Cytyc
Surgical Products, LLC, Hologic, Inc..
(Pascale,
Karen)
Modified
on
1/17/2018 (lih). (Entered: 01/16/2018)
VERSION
of
292
307 REDACTED
Declaration by Cytyc Surgical Products,
LLC, Hologic, Inc.. (Attachments: # 1
Exhibit s 1 through 45)(Pascale,
Karen) Modified on 1/17/2018 (lih).
(Entered: 01/16/2018)
VERSION
of
293
308 REDACTED
Declaration by Cytyc Surgical Products,
LLC, Hologic, Inc.. (Attachments: # 1
Exhibit s 46 through 122)(Pascale,
Karen) Modified on 1/17/2018 (lih).
(Entered: 01/16/2018)
VERSION
of
294
309 REDACTED
Declaration
by
Cytyc
Surgical
Products, LLC, Hologic, Inc.. (Pascale,
Karen) Modified on 1/17/2018 (lih).
(Entered: 01/16/2018)
310 REDACTED VERSION of 285 Exhibit
to a Document by Minerva Surgical,
Inc.. (Attachments: # 1 Exhibit 142, #
2 Exhibit 143 - Parts 1-5, # 3 Exhibits
144-145, # 4 Exhibits 146-147, # 5
Exhibits 148-150, # 6 Exhibits 151153, # 7 Exhibit 154, # 8 Exhibit 155,
# 9 Exhibits 156-161)(Schladweiler,

9
DATE

NO.

DOCKET TEXT
Benjamin) Modified on 1/17/2018 (lih).
(Entered: 01/16/2018)
***
01/17/2018 311 REDACTED VERSION of 283 Exhibit
to a Document by Minerva Surgical,
Inc.. (Attachments: # 1 Exhibits 5760, # 2 Exhibit 61, # 3 Exhibits 62-73,
# 4 Exhibits 74-88)(Schladweiler,
Benjamin) Modified on 1/17/2018 (lih).
(Entered: 01/17/2018)
***
02/14/2018 320 [SEALED] ANSWERING BRIEF in
Opposition re 290 MOTION to
Preclude, 287 MOTION for Summary
Judgment,
289
MOTION
for
Summary Judgment, 288 MOTION
for Summary Judgment filed by
Minerva Surgical, Inc..Reply Brief due
date per Local Rules is 2/21/2018.
(Attachments: # 1 Supplemental
Appendix A, # 2 Exhibit 1, # 3 Exhibit
2)(Schladweiler, Benjamin) Modified
on 2/16/2018 (lih). (Main Document
320 replaced on 4/16/2018) (lih).
(Entered: 02/14/2018)
02/14/2018 321 [SEALED] DECLARATION of Olivia
M. Kim re 320 Answering Brief in
Opposition by Minerva Surgical, Inc..
(Attachments: # 1 Vol. I of II (Exs.
162-197), # 2 Vol. II of II (Exs. 198204))(Schladweiler, Benjamin) Modified
on 2/16/2018 (lih). (Entered: 02/14/2018)

10
DATE

NO.

DOCKET TEXT

02/14/2018 322 NOTICE of filing the following NonPaper material(s) in multi media
format: (CD containing Exhibits 181,
182, 183, and 184 to Declaration of
Olivia M. Kim in Support of
Defendant Minerva’s Opposition to
Plaintiffs’ Motions for Summary
Judgment of Infringement, Assignor
Estoppel, and No Invalidity and
Motion to Exclude Expert Testimony).
Original Non-paper material(s) to be
filed with the Clerk’s Office. Notice
filed by Benjamin J. Schladweiler on
behalf of Minerva Surgical, Inc.
(Schladweiler, Benjamin) (Entered:
02/14/2018)
***
02/14/2018 324 [SEALED] ANSWERING BRIEF in
Opposition re 277 MOTION for
Partial Summary Judgment, 279
MOTION to Preclude filed by Cytyc
Surgical Products, LLC, Hologic,
Inc..Reply Brief due date per Local
Rules is 2/21/2018. (Pascale, Karen)
Modified on 2/16/2018 (lih). (Entered:
02/14/2018)
02/14/2018 325 [SEALED] DECLARATION of Marc
A. Cohn re 324 Answering Brief in
Opposition,, 323 Answering Brief in
Opposition
by
Cytyc
Surgical
Products,
LLC,
Hologic,
Inc..
(Attachments: # 1 Exhibit 123-150, #
2 Exhibit 151 - 160, # 3 Exhibit 161 -

11
DATE

02/14/2018

02/21/2018

02/21/2018

02/21/2018

02/21/2018

NO.

DOCKET TEXT
170, # 4 Exhibit 171 - 180, # 5 Exhibit
181 - 190, # 6 Exhibit 191 202)(Pascale, Karen) Modified on
2/16/2018 (lih). (Entered: 02/14/2018)
326 MULTI MEDIA DOCUMENT filed by
Minerva Surgical, Inc. in the form of a
CD Rom. Filing related to 322 Notice
of Filing Multi Media Materials.
(Media on file in Clerk’s Office). (lih)
(Entered: 02/16/2018)
***
VERSION
of
324
329 REDACTED
Answering Brief in Opposition by Cytyc
Surgical Products, LLC, Hologic, Inc..
(Pascale,
Karen)
Modified
on
2/22/2018 (lih). (Entered: 02/21/2018)
VERSION
of
325
330 REDACTED
Declaration by Cytyc Surgical Products,
LLC, Hologic, Inc.. (Attachments: # 1
Exhibit 123 - 202)(Pascale, Karen)
Modified on 2/22/2018 (lih). (Entered:
02/21/2018)
VERSION
of
320
331 REDACTED
Answering Brief in Opposition, by
Minerva Surgical, Inc.. (Attachments:
# 1 Supplemental Appendix A, # 2
Exhibit 1, # 3 Exhibit 2)(Schladweiler,
Benjamin) (Entered: 02/21/2018)
VERSION
of
321
332 REDACTED
Declaration by Minerva Surgical, Inc..
(Attachments: # 1 Vol. I of II (Exs.
162-197), # 2 Vol. II of II (Exs. 198-

12
DATE

03/28/2018

03/28/2018

03/28/2018

03/28/2018

NO.

DOCKET TEXT
204))(Schladweiler, Benjamin) Modified
on 2/22/2018 (lih). (Entered: 02/21/2018)
***
341 [SEALED] REPLY BRIEF re 277
MOTION for Partial Summary
Judgment filed by Minerva Surgical,
Inc.. (Attachments: # 1 Second
Supplemental
Appendix
A)
(Schladweiler, Benjamin) Modified on
3/29/2018 (lih). (Entered: 03/28/2018)
***
343 [SEALED] DECLARATION of Olivia
M. Kim re 342 Reply Brief, 340 Reply
Brief, 341 Reply Brief by Minerva
Surgical, Inc.. (Attachments: # 1
Exhibits
205-209)(Schladweiler,
Benjamin) Modified on 3/29/2018 (lih).
(Entered: 03/28/2018)
344 [SEALED] REPLY BRIEF re 290
MOTION to Preclude , 289 MOTION
for Summary Judgment , 287
MOTION for Summary Judgment,
288 MOTION for Summary Judgment
filed by Cytyc Surgical Products, LLC,
Hologic, Inc.. (Pascale, Karen) Modified
on 3/29/2018 (lih). (Entered: 03/28/2018)
345 [SEALED] DECLARATION of Marc
A. Cohn re 344 Reply Brief, by Cytyc
Surgical Products, LLC, Hologic, Inc..
(Attachments: # 1 Exhibit 203 210)(Pascale, Karen) Modified on
3/29/2018 (lih). (Entered: 03/28/2018)

13
DATE
04/04/2018

04/04/2018

04/04/2018

04/04/2018

04/04/2018

04/04/2018

NO.

DOCKET TEXT

***
351 REDACTED VERSION of 344 Reply
Brief, by Cytyc Surgical Products,
LLC, Hologic, Inc.. (Pascale, Karen)
(Entered: 04/04/2018)
VERSION
of
345
352 REDACTED
Declaration
by
Cytyc
Surgical
Products,
LLC,
Hologic,
Inc..
(Attachments: # 1 Exhibit 203 210)(Pascale, Karen) Modified on
4/5/2018 (lih). (Entered: 04/04/2018)
***
354 REQUEST for Oral Argument by
Minerva Surgical, Inc. re 277
MOTION for Partial Summary
Judgment, 279 MOTION to Preclude,
275
MOTION
to
Dismiss
.
(Schladweiler, Benjamin) Modified on
4/5/2018 (lih). (Entered: 04/04/2018)
355 REDACTED VERSION of 340 Reply
Brief by Minerva Surgical, Inc..
(Schladweiler, Benjamin) Modified on
4/5/2018 (lih). (Entered: 04/04/2018)
356 REDACTED VERSION of 341 Reply
Brief by Minerva Surgical, Inc..
(Schladweiler, Benjamin) Modified on
4/5/2018 (lih). (Entered: 04/04/2018)
***
VERSION
of
343
358 REDACTED
Declaration by Minerva Surgical, Inc..
(Schladweiler, Benjamin) Modified on
4/5/2018 (lih). (Entered: 04/04/2018)

14
DATE

NO.

DOCKET TEXT

04/04/2018 359 REQUEST for Oral Argument by
Cytyc Surgical Products, LLC, Hologic,
Inc. re 290 MOTION to Preclude, 289
MOTION for Summary Judgment, 287
MOTION for Summary Judgment,
288 MOTION for Summary Judgment.
(Pascale, Karen) Modified on 4/5/2018
(lih). (Entered: 04/04/2018)
***
06/28/2018 407 MEMORANDUM OPINION Signed
by Judge Joseph F. Bataillon on
6/28/2018. (nmf) (Entered: 06/28/2018)
06/28/2018 408 ORDER denying 275 Motion to Dismiss
for Lack of Subject Jurisdiction ; denying
277 Motion for Partial Summary
Judgment; denying 279 Motion to
Preclude; granting 287 Motion for
Summary Judgment ; granting 288
Motion for Summary Judgment ;
granting 289 Motion for Summary
Judgment ; denying 290 Motion to
Preclude; denying 317 Motion to
Strike ; denying 346 Motion to Strike ;
denying 374 Motion to Bifurcate. Signed
by Judge Joseph F. Bataillon on
6/28/2018. (nmf) (Entered: 06/28/2018)
***
Minute Entry for proceedings held
07/16/2018
before Judge Joseph F. Bataillon Jury Trial held on 7/16/2018. (Court
Reporter V. Gunning.) (DAY 1) (nmf)
(Entered: 07/17/2018)

15
DATE

NO.

DOCKET TEXT

07/17/2018 485 Initial Jury Instructions read in Open
Court 7/17/2018. (nmf) (Entered:
07/17/2018)
Minute Entry for proceedings held
07/17/2018
before Judge Joseph F. Bataillon Jury Trial held on 7/17/2018. (Court
Reporter V. Gunning.) (DAY 2) (nmf)
(Entered: 07/17/2018)
***
Minute Entry for proceedings held
07/18/2018
before Judge Joseph F. Bataillon Jury Trial held on 7/18/2018. (Court
Reporter V. Gunning.)(DAY 3) (nmf)
(Entered: 07/18/2018)
***
Minute Entry for proceedings held
07/19/2018
before Judge Joseph F. Bataillon Jury Trial held on 7/19/2018. (Court
Reporter V. Gunning.)(DAY 4) (nmf)
(Entered: 07/19/2018)
***
Minute Entry for proceedings held
07/20/2018
before Judge Joseph F. Bataillon Jury Trial held on 7/20/2018. (Court
Reporter V. Gunning.)(DAY 5) (nmf)
(Entered: 07/20/2018)
***
Minute Entry for proceedings held
07/23/2018
before Judge Joseph F. Bataillon Jury Trial held on 7/23/2018. (Court
Reporter V. Gunning.)(DAY 6) (nmf)
(Entered: 07/23/2018)

16
DATE
07/24/2018

07/25/2018

07/26/2018

07/26/2018

07/26/2018

07/27/2018

NO.

DOCKET TEXT

***
Minute Entry for proceedings held
before Judge Joseph F. Bataillon Jury Trial held on 7/24/2018. (Court
Reporter V. Gunning.)(DAY 7) (nmf)
(Entered: 07/24/2018)
Minute Entry for proceedings held
before Judge Joseph F. Bataillon Jury Trial held on 7/25/2018. (Court
Reporter V. Gunning.)(DAY 8) (nmf)
(Entered: 07/25/2018)
***
Minute Entry for proceedings held
before Judge Joseph F. Bataillon Jury Trial held on 7/26/2018. Closing
Arguments, Final Instructions, and
Deliberations (Court Reporter Valerie
Gunning.)(DAY 9) (crb) (Entered:
07/26/2018)
***
496 Revised Initial Jury Instructions read
in Open Court 7/26/2018. (nmf)
(Entered: 07/27/2018)
497 Closing Jury Instructions read in
Open Court 7/26/2018. (nmf) (Entered:
07/27/2018)
Minute Entry for proceedings held
before Magistrate Judge Sherry R.
Fallon - Jury Trial completed on
7/27/2018.
(Court
Reporter
V.
Gunning.)(DAY 10) (Deliberations and
Verdict) (nmf) (Entered: 07/27/2018)

17
DATE

NO.

DOCKET TEXT

07/27/2018 498 [SEALED] JURY VERDICT. (nmf)
(Entered: 07/27/2018)
07/27/2018 499 REDACTED VERSION of 498 Jury
Verdict. (nmf) (Entered: 07/27/2018)
***
08/08/2018 507 Official Transcript of jury trial held on
July 16, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased
through
the
Court
Reporter/Transcriber
before
the
deadline for Release of Transcript
Restriction. After that date it may be
obtained through PACER. Redaction
Request due 8/29/2018. Redacted
Transcript Deadline set for 9/10/2018.
Release of Transcript Restriction set
for 11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 508 Official Transcript of jury trial held on
July 17, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased
through
the
Court
Reporter/Transcriber
before
the
deadline for Release of Transcript
Restriction. After that date it may be
obtained through PACER. Redaction
Request due 8/29/2018. Redacted
Transcript Deadline set for 9/10/2018.

18
DATE

NO.

DOCKET TEXT
Release of Transcript Restriction set
for 11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 509 Official Transcript of jury trial held on
July 19, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 510 Official Transcript of jury trial held on
July 20, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 511 Official Transcript of jury trial held on
July 23, 2018 before Judge Bataillon.

19
DATE

NO.

DOCKET TEXT
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 512 Official Transcript of jury trial held on
July 24, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 513 Official Transcript of jury trial held on
July 18, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or

20
DATE

NO.

DOCKET TEXT
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 514 Official Transcript of jury trial held on
July 25, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 515 Official Transcript of jury trial held on
July 26, 2018 before Judge Bataillon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained

21
DATE

NO.

DOCKET TEXT
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
08/08/2018 516 Official Transcript of jury trial held on
July 27, 2018 before Judge Fallon.
Court Reporter/Transcriber Valerie
Gunning,Telephone number (302)
573-6194. Transcript may be viewed
at the court public terminal or
purchased through the Court Reporter/
Transcriber before the deadline for
Release of Transcript Restriction.
After that date it may be obtained
through PACER. Redaction Request
due 8/29/2018. Redacted Transcript
Deadline set for 9/10/2018. Release of
Transcript
Restriction
set
for
11/6/2018. (vjg) (Entered: 08/08/2018)
***
08/13/2018 520 JUDGMENT FOLLOWING JURY
VERDICT:
IT
IS
HEREBY
ORDERED AND ADJUDGED that
judgment be and is hereby entered on
the July 27, 2018 verdict as set forth
in the attached verdict form and on
the June 28, 2018 Order (D.I. 408 ). IT
IS FURTHER NOTED that this
Judgment Following Jury Verdict is
subject to revision pursuant to any
rulings on post−trial motions. Signed
by Judge Joseph F. Bataillon on

22
DATE

NO.

DOCKET TEXT
8/13/2018. (nmf) (Entered: 08/13/2018)
***
AND
ORDER:
05/02/2019 616 MEMORANDUM
Defendant’s renewed motion for
judgment as a matter of law (D.I. 521
) is DENIED. Defendant’s motion for
a new trial (D.I. 523 ) is DENIED.
Defendant’s motion for an injunction
under the Deceptive Trade Practices
Act (D.I. 525 ) is DENIED. Plaintiffs’
motion for attorney fees (D.I. 528 ) is
DENIED. Plaintiffs’ motion for
enhanced damages (D.I. 530 ) is
DENIED. Plaintiffs’ motion (D.I. 532 )
for a permanent injunction and
accounting is DENIED as moot.
Plaintiffs’ motion for an accounting,
supplemental
damages,
ongoing
royalties, prejudgment interest, and
post−judgment interest (D.I. 534 ) is
GRANTED in part and DENIED in
part as set forth in this order. The
parties shall each submit a proposed
final judgment to the Court within
three weeks of the date of this order
(*see Order for details). Signed by
Judge Joseph F. Bataillon on
5/1/2019. (ceg) (Entered: 05/02/2019)
***
06/03/2019 621 FINAL JUDGMENT: Judgment is
entered in favor of plaintiffs/
counterclaim defendants Hologic, Inc.
and CYTYC Surgical Products, LLC,

23
DATE

NO.

DOCKET TEXT
and against defendant/counterclaimant
Minerva, Inc., on plaintiffs/counterclaim
defendants claim for infringement of
U. S. Patent No. 9,9095,348 in the
amount of $4,787,668.23. Judgment is
entered in favor of plaintiffs/
counterclaim defendants Hologic, Inc.
and CYTYC Surgical Products, LLC,
and against defendant/counterclaimant
Minerva, Inc., on plaintiffs/counterclaim
defendants claim for infringement of
U. S. Patent No. 9,9095,348 in the
amount of $1,629,304.08. Judgment is
entered in favor of plaintiffs/
counterclaim defendants Hologic, Inc.
and CYTYC Surgical Products, LLC,
and against defendant/counterclaimant
Minerva,
Inc.
on
defendant/
counterclaimant Minervas counterclaims.
Defendant/counterclaimant
Minerva’s counterclaims are hereby
dismissed (*see Order for further
details)(*CASE CLOSED). Signed by
Judge Joseph F. Bataillon on
5/31/2019. (ceg) (Entered: 06/03/2019)
***
06/28/2019 625 NOTICE OF CROSS APPEAL to the
Federal Circuit of 621 Judgment,,,,
227 Memorandum and Order, 407
Memorandum Opinion, 520 Judgment,
408 Order on Motion to Dismiss/Lack
of Subject Jurisdiction,, Order on
Motion for Partial Summary Judgment,,
Order on Motion to Preclude,, Order

24
DATE

NO.

DOCKET TEXT
on Motion for Summary Judgment,,,,,,,,
Order on Motion to Strike,,,, Order on
Motion to Bifurcate, 616 Memorandum
and Order,,, . Cross Appeal filed by
Minerva Surgical, Inc.. (Schladweiler,
Benjamin) (Entered: 06/28/2019)
07/02/2019 626 NOTICE of Docketing Record on
Appeal from USCA for the Federal
Circuit re 625 Notice of Cross Appeal
filed by Minerva Surgical, Inc. USCA
Case
Number
19-2081.
(nmg)
(Entered: 07/02/2019)
***
07/22/2020 634 ORDER of USCA. Decision of USCA:
The petitions for panel rehearing are
denied. The petitions for rehearing en
banc are denied. (kmd) (Entered:
07/29/2020)
07/29/2020 635 MANDATE of USCA as to 625 Notice
of Cross Appeal, filed by Minerva
Surgical, Inc., 622 Notice of Appeal
(Federal Circuit), filed by Cytyc Surgical
Products, LLC, Hologic, Inc. USCA
Decision: Affirmed-in-Part, Vacatedin-Part, and Remanded. (Attachments:
# 1 Opinion, # 2 Judgment)(kmd)
(Entered: 07/29/2020)

25
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
————
No. 19-2081
————
HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs - Appellants
v.
MINERVA SURGICAL, INC.,
Defendant - Cross-Appellant
————
DOCKET ENTRIES
DATE

NO.

DOCKET TEXT

06/21/2019 1 Appeal docketed. Received: 06/18/2019.
[615979] Entry of Appearance due
07/05/2019. Certificate of Interest is
due on 07/05/2019. Docketing Statement
due 07/05/2019. Appellant’s brief is
due 08/20/2019. [TAM] [Entered:
06/21/2019 09:48 AM]
06/21/2019 2 Entry of appearance for Matthew M.
Wolf as principal counsel for
Appellants Cytyc Surgical Products,
LLC and Hologic, Inc.. Service:
06/21/2019 by email. [616034] [192054] [Matthew Wolf] [Entered:
06/21/2019 01:00 PM]
06/21/2019 3 Certificate of Interest for Appellants
Hologic, Inc. and Cytyc Surgical
Products, LLC. Service: 06/21/2019 by
email. [616035] [19-2054] [Matthew
Wolf] [Entered: 06/21/2019 01:03 PM]

26
DATE

NO.

DOCKET TEXT

06/21/2019 4 MOTION
of
Appellants
Cytyc
Surgical Products, LLC and Hologic,
Inc. to expedite briefing schedule
[Consent:
opposed].
Service:
06/21/2019 by email. [616037] [192054] [Matthew Wolf] [Entered:
06/21/2019 01:08 PM]
06/21/2019 5 Entry of appearance for Jennifer A.
Sklenar as of counsel for Appellants
Cytyc Surgical Products, LLC and
Hologic, Inc.. Service: 06/21/2019 by
email. [616038] [19-2054] [Jennifer
Sklenar] [Entered: 06/21/2019 01:10
PM]
06/21/2019 6 Entry of appearance for Marc A. Cohn
as of counsel for Appellants Hologic,
Inc. and Cytyc Surgical Products,
LLC. Service: 06/21/2019 by email.
[616039] [19-2054] [Marc Cohn]
[Entered: 06/21/2019 01:13 PM]
06/21/2019 7 ORDER filed. Any opposition to the
motion [4] is due no later than June
28, 2019. Any reply in support of the
motion is due no later than July 1,
2019. Service: 06/21/2019 by clerk.
[616093] [LMS] [Entered: 06/21/2019
03:08 PM]
06/28/2019 8 Entry of appearance for Robert N.
Hochman as principal counsel for
Appellee Minerva Surgical, Inc..
Service: 06/28/2019 by email. [617823]
[19-2054] [Robert Hochman] [Entered:
06/28/2019 02:36 PM]

27
DATE

NO.

DOCKET TEXT

06/28/2019 9 Entry of appearance for Caroline A.
Wong as of counsel for Appellee
Minerva Surgical, Inc.. Service:
06/28/2019 by email. [617824] [192054] [Caroline Wong] [Entered:
06/28/2019 02:39 PM]
06/28/2019 10 Entry of appearance for Jillian
Sheridan Stonecipher as of counsel for
Appellee Minerva Surgical, Inc..
Service: 06/28/2019 by email. [617825]
[19-2054]
[Jillian
Stonecipher]
[Entered: 06/28/2019 02:41 PM]
06/28/2019 11 Entry of appearance for Vera M.
Elson as of counsel for Appellee
Minerva Surgical, Inc.. Service:
06/28/2019 by email. [617852] [192054]
[Vera
Elson]
[Entered:
06/28/2019 03:23 PM]
06/28/2019 12 Entry of appearance for Edward G.
Poplawski as of counsel for Appellee
Minerva Surgical, Inc.. Service:
06/28/2019 by email. [617859] [192054] [Edward Poplawski] [Entered:
06/28/2019 03:36 PM]
06/28/2019 13 Entry of appearance for Olivia M. Kim
as of counsel for Appellee Minerva
Surgical, Inc.. Service: 06/28/2019 by
email. [617861] [19-2054] [Olivia Kim]
[Entered: 06/28/2019 03:41 PM]
06/28/2019 14 Certificate of Interest for Appellee
Minerva Surgical, Inc.. Service:
06/28/2019 by email. [617865] [192054] [Robert Hochman] [Entered:

28
DATE

NO.

DOCKET TEXT
06/28/2019 03:47 PM]

06/28/2019 15 Docketing Statement for the Appellee
Minerva Surgical, Inc.. Service:
06/28/2019 by email. [617868] [192054] [Robert Hochman] [Entered:
06/28/2019 03:48 PM]
06/28/2019 1 RESPONSE of Appellee Minerva
Surgical, Inc. to the motion [4] filed by
Appellants Cytyc Surgical Products,
LLC and Hologic, Inc.. Service:
06/28/2019 by email. [617872] [192054] [Robert Hochman] [Entered:
06/28/2019 03:52 PM]
07/01/2019 17 REPLY of Appellants Hologic, Inc.
and Cytyc Surgical Products, LLC to
response [16]. Service: 07/01/2019 by
email. [618214] [19-2054] [Matthew
Wolf] [Entered: 07/01/2019 02:07 PM]
07/02/2019 18 Note to file: The following cases are
associated:19-2054 (Lead) with 192081
(Cross-Appeal).
FURTHER
ENTRIES WILL BE ADDED TO THE
LEAD APPEAL ONLY. [618504] [192054, 19-2081] [TAM] [Entered:
07/02/2019 10:58 AM]
07/02/2019 19 Official caption revised to reflect
Cross-Appeal. The official caption is
reflected on the electronic docket
under the listing of the parties and
counsel. Service as of thAs date by the
Clerk of Court. [618509] [TAM]
[Entered: 07/02/2019 11:01 AM]

29
DATE

NO.

DOCKET TEXT

07/03/2019 20 Docketing
Statement
for
the
Appellants Cytyc Surgical Products,
LLC and Hologic, Inc.. Service:
07/03/2019 by email. [618906] [192054] [Matthew Wolf] [Entered:
07/03/2019 12:45 PM]
07/03/2019 21 ORDER filed. The motion [4] is
granted to the extent that Hologic’s
opening brief is due no later than July
15, 2019; Minerva’s principal-andresponse brief is due no later than
August 26, 2019; Hologic’s responseand-reply brief is due no later than
September 9, 2019; Minerva’s reply
brief is due no later than September
23, 2019; the joint appendix is due no
later than September 30, 2019; and
the case will be placed on the
December
2019
oral
argument
calendar. Service: 07/03/2019 by clerk.
[618968] [LMS] [Entered: 07/03/2019
02:35 PM]
07/15/2019 22 FILED
from
Appellants
Cytyc
Surgical Products, LLC and Hologic,
Inc..
Title:
CONFIDENTIAL
OPENING
BRIEF.
Service:
07/15/2019 by email. [621120] [192054] This document is noncompliant. See Doc No.[24] [Matthew
Wolf] [Entered: 07/15/2019 05:31 PM]
07/15/2019 23 FILED
from
Appellants
Cytyc
Surgical Products, LLC and Hologic,
Inc.. Title: OPENING BRIEF. Service:

30
DATE

NO.

DOCKET TEXT
07/15/2019 by email. [621121] [192054] This document is noncompliant. See Doc No.[24] [Matthew
Wolf] [Entered: 07/15/2019 05:34 PM]

07/25/2019 24 NOTICE OF NON-COMPLIANCE:
The submissions of Appellants Cytyc
Surgical Products, LLC and Hologic,
Inc.,
Confidential
and
NonConfidential Opening Briefs [22], [23],
are not in compliance with the rules of
this court (see attached). Compliant
documents due on 08/01/2019. Service
as of this date by the Clerk of Court.
[623538] [TAM] [Entered: 07/25/2019
02:44 PM]
07/31/2019 25 MODIFIED ENTRY: CORRECTED
OPENING
BRIEF
FILED
for
Appellants Cytyc Surgical Products,
LLC and Hologic, Inc. Number of
Pages: 71. Service: 07/31/2019 by
email. [625030] --[Edited 08/01/2019
by TAM - compliance review complete]
[Matthew Wolf] [Entered: 07/31/2019
04:53 PM]
07/31/2019 26 MODIFIED ENTRY: CORRECTED
CONFIDENTIAL OPENING BRIEF
FILED for Appellants Cytyc Surgical
Products, LLC and Hologic, Inc.
Number of Pages: 71. Service:
07/31/2019 by email. [625031]-[Edited 08/01/2019 by TAM compliance
review
complete]
[Matthew Wolf] [Entered: 07/31/2019
04:55 PM]

31
DATE

NO.

DOCKET TEXT

08/26/2019 27 MODIFIED ENTRY: RESPONSE
BRIEF FILED for Cross-Appellant
Minerva Surgical, Inc. Number of
Pages: 95. Service: 08/26/2019 by
email. Unless ordered otherwise, any
responsive deadline runs from the
date of service of this brief. See Fed.
Cir. R. 31. [631081] --[Edited
09/04/2019 by TAM - compliance
review complete] [Robert Hochman]
[Entered: 08/26/2019 04:01 PM]
09/09/2019 28 FILED
from
Appellants
Cytyc
Surgical Products, LLC, Hologic, Inc.
and
Cross-Appellant
Minerva
Surgical, Inc.. Title: CONFIDENTIAL
REPLY BRIEF. Service: 09/09/2019
by email. [634161] [19-2054] This
document is non-compliant. See Doc
No.[30] [Matthew Wolf] [Entered:
09/09/2019 07:01 PM]
09/09/2019 29 FILED
from
Appellants
Cytyc
Surgical Products, LLC, Hologic, Inc.
and
Cross-Appellant
Minerva
Surgical, Inc.. Title: REPLY BRIEF.
Service: 09/09/2019 by email. [634163]
[19-2054] This document is noncompliant. See Doc No.[30] [Matthew
Wolf] [Entered: 09/09/2019 07:04 PM]
09/20/2019 30 NOTICE OF NON-COMPLIANCE:
The submissions of Appellants Cytyc
Surgical Products, LLC and Hologic,
Inc.,
Confidential
and
NonConfidential Reply Brief [28], [29], are

32
DATE

NO.

DOCKET TEXT
not in compliance with the rules of
this court (see attached). Compliant
documents due on 09/27/2019. The
deadline for any responsive filing runs
from service of the original version.
Service as of this date by the Clerk of
Court. [636949] [TAM] [Entered:
09/20/2019 09:10 AM]

09/23/2019 31 MODIFIED ENTRY: CORRECTED
REPLY BRIEF FILED for Appellants
Cytyc Surgical Products, LLC and
Hologic, Inc. Number of Pages: 64.
Service: 09/23/2019 by email. [637486]
--[Edited 10/01/2019 by TAM compliance
review
complete]
[Matthew Wolf] [Entered: 09/23/2019
03:04 PM]
09/23/2019 32 MODIFIED ENTRY: CORRECTED
CONFIDENTIAL REPLY BRIEF
FILED for Appellants Cytyc Surgical
Products, LLC and Hologic, Inc.
Number of Pages: 64. Service:
09/23/2019 by email. [637487]-[Edited 10/01/2019 by TAM compliance
review
complete]
[Matthew Wolf] [Entered: 09/23/2019
03:07 PM]
09/23/2019 33 MODIFIED ENTRY: REPLY BRIEF
FILED for Cross-Appellant Minerva
Surgical, Inc. Number of Pages: 39.
Service: 09/23/2019 by email. Unless
ordered otherwise, any responsive
deadline runs from the date of service
of this brief. See Fed. Cir. R. 31.

33
DATE

NO.

DOCKET TEXT
[637577] --[Edited 10/01/2019 by TAM
- compliance review complete] [Robert
Hochman] [Entered: 09/23/2019 04:44
PM]

09/30/2019 34 MODIFIED ENTRY: APPENDIX
FILED for Cytyc Surgical Products,
LLC, Hologic, Inc. and Minerva
Surgical, Inc.. Number of Pages: 1091.
Service: 09/30/2019 by email. [639243]
--[Edited 10/01/2019 by TAM compliance
review
complete]
[Matthew Wolf] [Entered: 09/30/2019
10:06 PM]
09/30/2019 35 MODIFIED ENTRY: CONFIDENTIAL APPENDIX FILED for Cytyc
Surgical Products, LLC, Hologic, Inc.
and Minerva Surgical, Inc.. Number
of Pages: 1523. Service: 09/30/2019 by
email. [639244]--[Edited 10/01/2019
by TAM - compliance review complete]
[Matthew Wolf] [Entered: 09/30/2019
10:10 PM]
09/30/2019 36 Joint Statement of Compliance with
Fed. Cir. R. 33 for Appellants Hologic,
Inc., Cytyc Surgical Products, LLC
and
Cross-Appellant
Minerva
Surgical, Inc.. Service: 09/30/2019 by
email. [639245] [19-2054] [Matthew
Wolf] [Entered: 09/30/2019 10:13 PM]
09/30/2019 37 Certificate of Compliance with Fed.
Cir. R. 11(d) (Trial Court) for
Appellants Hologic, Inc. and Cytyc
Surgical Products, LLC. Service:

34
DATE

NO.

DOCKET TEXT
09/30/2019 by email. [639246] [192054] [Matthew Wolf] [Entered:
09/30/2019 10:14 PM]

09/30/2019 38 Certificate of Compliance with Fed.
Cir. R. 11(d) (Trial Court) for CrossAppellant Minerva Surgical, Inc..
Service: 09/30/2019 by email. [639247]
[19-2054] [Robert Hochman] [Entered:
09/30/2019 10:14 PM]
09/30/2019 39 Notice from Appellants Hologic, Inc.
and Cytyc Surgical Products, LLC
Notice of Intent to File Supplemental
Appendix of Video Recordings on CDROM. Service: 09/30/2019 by email.
[639248] [19-2054] [Matthew Wolf]
[Entered: 09/30/2019 10:20 PM]
09/30/2019 40 Supplementary
Video
Media
Appendix received on CD-ROM from
Cytyc Surgical Products, LLC and
Hologic, Inc. Number of copies: 4.
[639425] [JCP] [Entered: 10/01/2019
03:26 PM]
10/01/2019 41 Outstanding paper copies of all briefs
and appendices must be submitted
within five business days from the
date of issuance of this notice. See
Fed. Cir. R. 25(c)(1). [639455] [TAM]
[Entered: 10/01/2019 04:08 PM]
10/01/2019 42 Notice to Advise of Scheduling
Conflicts. Arguing counsel must
advise of, and show good cause for,
any scheduling conflicts during the
upcoming court session months listed

35
DATE

NO.

DOCKET TEXT
in the attached notice. The Response
to Notice to Advise of Scheduling
Conflicts can be found here. The Oral
Argument Guide can be found here.
[639462] [TAM] [Entered: 10/01/2019
04:14 PM]

10/04/2019 43 6 paper copies of the Corrected
Confidential Opening Brief [26]
received from Appellants Cytyc
Surgical Products, LLC and Hologic,
Inc..
[640315]
[CJF]
[Entered:
10/04/2019 12:54 PM]
10/04/2019 44 6 paper copies of the Corrected
Confidential Reply Brief [32] received
from Appellants Cytyc Surgical
Products, LLC and Hologic, Inc..
[640318] [CJF] [Entered: 10/04/2019
12:55 PM]
10/04/2019 45 6 paper copies of the Confidential
Appendix Brief (Vol. I - IV) [35]
received from Appellants Cytyc
Surgical Products, LLC, Hologic, Inc.
and
Cross-Appellant
Minerva
Surgical,
Inc..
[640319]
[CJF]
[Entered: 10/04/2019 12:55 PM]
10/04/2019 46 Notice from Appellants Hologic, Inc.
and Cytyc Surgical Products, LLC
regarding
conflicts
with
oral
argument. Service: 10/04/2019 by
email. [640326] [19-2054] [Matthew
Wolf] [Entered: 10/04/2019 01:06 PM]
10/04/2019 47 The following conflict dates submitted
by Attorney Matthew Wolf for

36
DATE

NO.

DOCKET TEXT
Appellants Hologic, Inc. and Cytyc
Surgical Products, LLC have been
accepted by the court: 01/08/2020,
01/09/2020, 01/10/2020, 02/03/2020,
02/04/2020, 02/05/2020, 02/06/2020,
02/07/2020, 04/09/2020, 04/10/2020.
[640340] [JAB] [Entered: 10/04/2019
01:28 PM]

10/08/2019 48 Notice from Cross-Appellant Minerva
Surgical, Inc. regarding conflicts with
oral argument. Service: 10/08/2019 by
email. [641158] [19-2054] [Robert
Hochman] [Entered: 10/08/2019 04:41
PM]
10/08/2019 49 6 paper copies of the Reply Brief [33]
received
from
Cross-Appellant
Minerva Surgical, Inc.. [641185] [CJF]
[Entered: 10/09/2019 07:36 AM]
10/08/2019 50 6 paper copies of the Opening
Response Brief [27] received from
Cross-Appellant Minerva Surgical,
Inc..
[641186]
[CJF]
[Entered:
10/09/2019 07:37 AM]
10/09/2019 51 The following conflict dates submitted
by Attorney Robert N. Hochman for
Cross-Appellant Minerva Surgical,
Inc. have been accepted by the court:
12/02/2019,
12/03/2019.
[641206]
[JAB] [Entered: 10/09/2019 08:58 AM]
10/21/2019 52 NOTICE OF ORAL ARGUMENT.
Panel:
1912I.
Case
scheduled
December 4, 2019 10:00 a.m. at the
United States Court of Appeals for the

37
DATE

NO.

DOCKET TEXT
Federal Circuit (Howard T. Markey
National
Courts
Building,
717
Madison Place, NW Washington, DC
20439), Courtroom 203. Response to
Notice of Oral Argument due:
11/15/2019.
Please
review
the
attached Notice. The response to
notice of oral argument form can be
found here. The Oral Argument Guide
can be found here. [643499] [JAB]
[Entered: 10/21/2019 02:19 PM]

11/07/2019 53 Response to notice of oral argument
from the Cross-Appellant Minerva
Surgical, Inc.. [647742] [19-2054]
[Robert
Hochman]
[Entered:
11/07/2019 01:09 PM]
11/15/2019 54 Response to notice of oral argument
from the Appellants Cytyc Surgical
Products, LLC and Hologic, Inc..
[649584] [19-2054] [Matthew Wolf]
[Entered: 11/15/2019 10:05 AM]
12/04/2019 55 Submitted after ORAL ARGUMENT
by Matthew Wolf for Hologic, Inc. and
Cytyc Surgical Products, LLC and
Robert N. Hochman for Minerva
Surgical, Inc. Panel: Judge: Wallach ,
Judge: Clevenger , Judge: Stoll.
[653886] [JCP] [Entered: 12/04/2019
10:25 AM]
04/22/2020 56 OPINION filed for the court by
Wallach, Circuit Judge; Clevenger,
Circuit Judge and Stoll, Circuit
Judge. Precedential Opinion. [689037]

38
DATE

NO.

DOCKET TEXT
[19-2054, 19-2081] [JAB] [Entered:
04/22/2020 10:03 AM]

04/22/2020 57 JUDGMENT. AFFIRMED-IN-PART,
VACATED-IN-PART,
AND
REMANDED. Terminated on the
merits after oral argument. COSTS:
No Costs. Mandate to issue in due
course. For information regarding
costs, petitions for rehearing, and
petitions for writs of certiorari click
here. [689039] [19-2054, 19-2081]
[JAB] [Entered: 04/22/2020 10:04 AM]
05/22/2020 58 Petition for panel rehearing, for en
banc rehearing filed by CrossAppellant Minerva Surgical, Inc..
Service: 05/22/2020 by email. [696559]
[19-2054] [Robert Hochman] [Entered:
05/22/2020 12:52 PM]
05/22/2020 59 Petition for en banc rehearing filed by
Appellants Hologic, Inc. and Cytyc
Surgical Products, LLC. Service:
05/22/2020 by email. [696694] [192054] [Matthew Wolf] [Entered:
05/22/2020 05:17 PM]
05/27/2020 60 18 paper copies of the combined
petition for panel rehearing and
rehearing en banc [58] received from
Minerva Surgical, Inc. [697254] [MJL]
[Entered: 05/27/2020 03:07 PM]
06/04/2020 61 The court invites a response from
Appellants Cytyc Surgical Products,
LLC and Hologic, Inc. to the petition
for panel rehearing, for en banc

39
DATE

NO.

DOCKET TEXT
rehearing filed by Cross-Appellant in
19-2054; and invites a response from
Cross-Appellant Minerva Surgical,
Inc. to the petition for en banc
rehearing filed by Appellants in 192054. The responses are due on or
before 06/18/2020. [699240] [JAB]
[Entered: 06/04/2020 01:22 PM]

06/05/2020 62 Entry of appearance for Mark A.
Lemley as principal counsel for Amici
Curiae 26 Intellectual Property
Professors in Support of Granting the
Petition for En Banc Review. Service:
06/05/2020 by email. [699573] [192054] [Mark Lemley] [Entered:
06/05/2020 01:13 PM]
06/05/2020 63 FILED from Amici Curiae 26
Intellectual Property Professors in
Support of Granting the Petition for
En Banc Review Title: AMICUS
CURIAE BRIEF. Service: 06/05/2020
by email. [699576] [19-2054] This
document is non-compliant. See Doc.
No. [65]. [Mark Lemley] [Entered:
06/05/2020 01:18 PM]
06/05/2020 64 Certificate of Interest for Amici
Curiae 26 Intellectual Property
Professors in Support of Granting the
Petition for En Banc Review. Service:
06/05/2020 by email. [699583] [192054] [Mark Lemley] [Entered:
06/05/2020 01:20 PM]

40
DATE

NO.

DOCKET TEXT

06/08/2020 65 NOTICE OF NON-COMPLIANCE:
The submission of Movant 26
Intellectual
Property
Professors,
Amicus Curiae Brief [63], is not in
compliance with the rules of this court
(see attached). Compliant document
due on 06/15/2020. Service as of this
date by the Clerk of Court. [699801]
[JAB] [Entered: 06/08/2020 12:22 PM]
06/09/2020 66 MOTION of 26 Intellectual Property
Professors in Support of Granting the
Petition for En Banc Review for leave
to file amicus brief in support of
Neither party. The brief is in support
of granting the Petition for En Banc
Review. on petition [59], petition [58],
petition [58] [Consent: unopposed].
Service: 06/09/2020 by email. [700194]
[19-2054] [Mark Lemley] [Entered:
06/09/2020 05:48 PM]
06/10/2020 67 ORDER filed granting motion leave to
file amicus brief on en banc or
rehearing petition [66]. By: Merits
Panel (Per Curiam). Service as of this
date by the Clerk of Court. [700292]
[JAB] [Entered: 06/10/2020 11:46 AM]
06/10/2020 68 CORRECTED
AMICUS
BRIEF
FILED on Petition for 26 Intellectual
Property Professors. Pages: 13.
Service: 06/09/2020 by email. [700293]
[JAB] [Entered: 06/10/2020 11:50 AM]
06/18/2020 69 RESPONSE
of
Cross-Appellant
Minerva Surgical, Inc. to the petition

41
DATE

NO.

DOCKET TEXT
[59] filed by Appellants Hologic, Inc.
and Cytyc Surgical Products, LLC.
Service: 06/18/2020 by email. [702319]
[19-2054] [Robert Hochman] [Entered:
06/18/2020 06:47 PM]

06/18/2020 70 RESPONSE of Appellants Cytyc
Surgical Products, LLC and Hologic,
Inc. to the petition for panel rehearing
[58] filed by Cross-Appellant Minerva
Surgical, Inc., petition for en banc
rehearing [58] filed by CrossAppellant Minerva Surgical, Inc..
Service: 06/18/2020 by email. [702326]
[19-2054] [Matthew Wolf] [Entered:
06/18/2020 09:15 PM]
06/23/2020 71 18 paper copies of the response [69]
received from Minerva Surgical, Inc.
[703102] [MJL] [Entered: 06/23/2020
02:18 PM]
07/22/2020 72 ORDER filed denying [59] petition for
en banc rehearing filed by Hologic,
Inc. and Cytyc Surgical Products,
LLC, denying [58] petition for panel
rehearing, for en banc rehearing filed
by Minerva Surgical, Inc. By: En Banc
(Per Curiam). Service as of this date
by the Clerk of Court. [709185] [JAB]
[Entered: 07/22/2020 11:15 AM]
07/29/2020 73 Mandate issued to the United States
District Court for the District of
Delaware. Service as of this date by
the Clerk of Court. [710906] [19-2054,

42
DATE

NO.

DOCKET TEXT
19-2081] [JAB] [Entered: 07/29/2020
10:01 AM]

10/08/2020 74 Petition for writ of certiorari filed on
09/30/2020, and placed on the docket
10/06/2020, in the U.S. Supreme
Court. No.: 20-440, Minerva Surgical,
Inc. v. Hologic, Inc., et al. [727549]
[JAB] [Entered: 10/08/2020 08:29 AM]
11/13/2020 75 Petition for writ of certiorari filed on
11/05/2020, and placed on the docket
11/10/2020, in the U.S. Supreme
Court. No.: 20-631, Hologic, Inc., et al.
v. Minerva Surgical, Inc. [735330]
[MJL] [Entered: 11/13/2020 10:54 AM]
01/11/2021 76 The petition for writ of certiorari, No.
20-631, filed on 11/05/2020, was
Denied on 01/11/2021. [748430] [JAB]
[Entered: 01/11/2021 02:50 PM]
01/11/2021 77 The petition for writ of certiorari, No.
20-440, filed on 09/30/2020, was
Granted on 01/08/2021. [748441]
[JAB] [Entered: 01/11/2021 03:01 PM]

43
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
Civil Action No.: 1:15-cv-01031-SLR
————
HOLOGIC, INC., a Delaware corporation; and CYTYC
SURGICAL PRODUCTS, LLC, a Delaware corporation,
v.

Plaintiffs,

MINERVA SURGICAL, INC., a Delaware corporation,
Defendant.
————
DECLARATION OF DR. EDWARD EVANTASH
IN SUPPORT OF HOLOGIC, INC.’S
MOTION FOR A PRELIMINARY INJUNCTION
FILED UNDER SEAL
————
I, Edward Evantash, state and declare as follows:
1. I am over the age of 21 and am competent to
make this declaration. I am employed by Hologic, Inc.
and I have worked at Hologic for over six years. My
current title at Hologic is Vice President of Medical
Affairs. I provide this declaration in support of Hologic’s
motion for a preliminary injunction. If called as a
witness, I could and would testify competently to the
information contained herein.
2. My practice and expertise is in Obstetrics and
Gynecology, the medical field for which I did my
medical residency and training in the early 1990s.
Over the past 6 years, I have worked at Hologic,
including as a Medical Director and Vice President of

44
Medical Affairs. Prior to Hologic, I worked at Tufts
University as a Director at the Center for Abnormal
Uterine Bleeding. I worked at Tufts University for 15
years. Over the past two decades, a focus in my
professional work has been clinical research and
practice in addressing abnormal uterine bleeding in
women, a medical condition known as menorrhagia.
3. Physicians have employed a number of techniques to address the problem of abnormal uterine
bleeding in women. For example, many women have
decided to undergo a hysterectomy, a surgery which
removes a woman’s uterus. In the 1990s, however,
endometrial ablation gained in popularity as an
alternative to hysterectomy. Endometrial ablation is a
surgical procedure that destroys the endometrial
lining of the uterus, but otherwise does not remove or
destroy the remainder of the uterus.
4. In the 1990s, physicians performed endometrial
ablation using first generation techniques, including
(1) the burning of endometrial tissue with an electrosurgical metal rollerball; and (2) endometrial resection
with a metal wire loop electrode. Electricity was
conducted from the metal instrument and applied to
the endometrial tissue, which would be cauterized
through heat and thus destroyed.
5. The rollerball technique used energy for heating
the tissue to a temperature between 60 to 90ºC. The
uterine lining is destroyed by contact with the heated
ball that the physician must roll slowly over the
surface of the endometrial lining, burning it away. The
physician must be skilled to roll the small-sized,
heated ball systematically across the various sections
of the uterus to burn the endometrial lining throughout. A physician would perform the rollerball proce-

45
dure under direct visualization with a hysteroscope.
Here is a photograph of a rollerball instrument:

6. Another first generation method was endometrial resection with a metal wire loop. Using the metal
wire loop, the physician would systematically strip off
the lining of the uterus. The physician would resect or
strip away the uterine lining with the wire loop under
direct visualization of a hysteroscope. Similar to the
rollerball, the physician must be skilled to manually
strip away the uterine lining, bit by bit, using a small
wire loop throughout the cavity of the uterus. Here is
a photograph of an instrument using the wire loop:

7. With the introduction of the NovaSure endometrial ablation system (the “NovaSure system”), endometrial ablation came a long way from the first generation techniques that were employed in the 1990s to
address abnormal uterine bleeding without hysterectomy. The NovaSure system became the leading
system in a second generation of devices, known for
global endometrial ablation. With global endometrial
ablation, the NovaSure system treated all areas of the
endometrial cavity simultaneously, with minimal
hand manipulation. With the NovaSure system, the
physician did not need move a small heated ball or a
small wire loop manually in a systemic and tedious

46
procedure that would burn or strip away bit by bit the
endometrial lining of the uterus. The rollerball and
wire loop techniques presented serious risks to the
patient because of the possibility of electrocuting
nearby organs. By contrast, the NovaSure system
employed an elongated device with an expandable
applicator head that conformed to the shape of the
uterus to treat the entire endometrial cavity simultaneously in two minutes or less. On the left is a
photograph of an early NovaSure system using a mesh
applicator head, and on the right, is an illustration of
a NovaSure mesh application treating the entire
cavity at once.

8. With first generation techniques, physicians
needed to distend the uterus with a non-conducting
fluid under pressure. This distention required careful
control of the fluid pressure to avoid forcing the potentially toxic fluid into the bloodstream via the vessels
in the uterine wall (known as intravasation) or into
the abdominal cavity via the fallopian tubes. Using the
NovaSure system eliminates the need for a nonconducting fluid inside the uterus, thus avoiding the
risk of intravasation.
9. Further, the NovaSure system has provided a
computerized and sensor-based integrity test to monitor for any perforations (i.e., holes) of the uterus before

47
administering treatment. Prior to the NovaSure
system, a physician had to rely on a manual, visual
inspection to identify any perforations in the uterus
before the ablation treatment because these perforations could allow steam or hot fluids to escape the
uterus and cause serious organ injury to the patient.
Physicians would inspect for perforations visually
using a tool called a hysteroscope which, when
inserted transcervically, allowed a physician to view
the inside of the uterus. But, the physician sometimes
could not see small perforations with this procedure
because the view from a hysteroscope could be limited
and/or the uterus had irregularities. In short, spotting
perforations with the prior techniques required a highlevel of physician skill, and had to be performed in the
controlled setting of an operating room.
10. In addition, the NovaSure uses feedback from
the tissue itself to customize each ablation. This is
because the total amount of energy delivered depends
on the impedance (i.e., electrical resistance) of the
tissue in contact with the applicator head. In other
words, the energy delivery occurs where it is needed
most, i.e., deeper tissues receive more energy, and this
helps to control the amount of energy delivery during
treatment.
11. During the ablation procedure, the energy
delivery causes steam and hot moisture to develop
inside the uterine cavity. To avoid this moisture from
building up inside the cavity, NovaSure provides
“moisture transport” functionality that removes the
moisture from the cavity.
12. With the above technical advances, including
the treatment of all areas of the endometrial cavity
simultaneously, the NovaSure system revolutionized
the procedure of endometrial ablation as a safer

48
alternative to first generation techniques for treating
abnormal uterine bleeding. Further, as a practical
matter, the NovaSure procedure could be performed in
a physician’s office in five minutes. The first generation techniques required the use of an operating
room at a surgery center, where the surgeon would
take about 30 to 50 minutes to burn or strip away
the portions of the endometrial lining. Because the
NovaSure procedure could be performed in a physician’s office, such procedures could be less expensive,
less intimidating, and substantially more convenient
and comfortable for the patient.
13. The NovaSure system continues to provide a
sensor-based, computerized integrity test of the uterus
before any treatment can occur. The purpose of the
integrity test is to assess whether any perforations
(i.e., holes) of the uterus are present. Serious injury
can occur if perforations are present in the uterus
during treatment because hot steam or fluids generated during treatment can escape through the small
perforations to damage nearby organs. The NovaSure
system originally implemented its computerized integrity test because the clinical data made clear that
endometrial ablation should not be performed if the
uterus had any perforation, even a small one. Thus,
perforation detection has been critically important.
Therefore, if a perforation is present in the uterus, the
NovaSure system will not start the treatment.
NovaSure tests for perforations by sealing the uterus
and supplying carbon dioxide gas into the uterus, and
then measuring whether there is any flow of gas out of
the uterus indicating the presence of a hole. This
sensor-based, computerized monitoring for perforations is substantially more accurate than the prior
technique of a physician conducting a manual, visual
inspection with a hysteroscope. Hologic maintains a

49
post-market quality assurance tracking of all reportable complications through its representatives and by
direct communication with health care providers.
Based on this information, Hologic estimates the rate
of bowel injury with NovaSure endometrial ablation is
less than 1 in 10,000 procedures. These safety rates
can be attributed to the NovaSure system pioneering
the implementation of its uterine integrity test before
endometrial ablation treatment can proceed.
14. Because of all the above features, the
NovaSure system has become the leading endometrial
ablation product in the world, having treated over two
million patients over the past decade. Over the past
decade, patients have used three generations of the
NovaSure endometrial ablation system, including the
current handpiece, photographed here:

Given the long track record of the NovaSure system,
there have been many prospective, statistical studies
that track groups of patients over periods of 12
months, 36 months, and 60 months, for example. Ex.
281 (“Ten-year literature review of global endometrial
ablation with the NovaSure device”). These studies
confirm the efficacy and safety of the NovaSure system. For example, in arguable the most comprehensive, prospective study, the long-term efficacy of the
1

Exhibit 28 refers to Exhibit 28 of the Declaration of Marc
Cohn in support of Holgic’s Motion for a Preliminary Injunction.

50
NovaSure procedure was reported over a 60-month
follow-up period. Id. at 3 of exhibit (i.e., page 271 of
publication). By 60 months post-procedure, this study
reported that 75% of patients had amenorrhea ( a lack
of any bleeding) and only 2% of patients had menorrhagia. Id. Given this track record, the NovaSure
system has a decades-long, proven record in safety and
efficacy for the treatment of menorrhagia.
I declare under the penalty of perjury under
the laws of the United States of America that the
foregoing is true and correct to the best of my personal
knowledge.
Executed this 14 day of Dec, 2015 at Marlborough,
Mass.
/s/ Edward Evantash
Dr. Edward Evantash

51
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 15-1031-SLR
————
HOLOGIC, INC. and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
JURY TRIAL DEMANDED
REDACTED PUBLIC VERSION
————
DEFENDANT MINERVA SURGICAL, INC.’S
ANSWER TO HOLOGIC, INC.’S AND CYTYC
SURGICAL PRODUCTS, LLC’S SECOND
AMENDED COMPLAINT FOR INFRINGEMENT
AND COUNTERCLAIMS
————
Defendant Minerva Surgical, Inc. (“Minerva”), by
and through its undersigned attorneys, respectively
submits this Answer to the Second Amended
Complaint for Patent Infringement (“SAC”) (D.I. 70)
filed by Plaintiffs Hologic, Inc. (“Hologic”) and Cytyc
Surgical Products, LLC (“Cytyc”) (collectively,
“Plaintiffs”) and Counterclaims against Plaintiffs, as
follows:
NATURE OF THE ACTION
1. Minerva admits that this action involves
Plaintiffs’ allegations that Minerva infringes U.S.
Patent Nos. 6,872,183 (“the ’183 patent”), 8,998,898
(“the ’898 patent”), 9,095,348 (“the ’348 patent), and

52
9,247,989 (“the ’989 patent”) (collectively “the Patentsin-Suit”).
THE PARTIES
2. Minerva admits only that, upon information
and belief, Hologic is a corporation organized and
existing under the laws of the State of Delaware with
a principal place of business at 250 Campus Drive,
Marlborough, Massachusetts, 01752. Minerva is
without knowledge or information sufficient to form a
belief as to the truth of the remaining allegations of
paragraph 2 of the SAC, and accordingly denies the
same.
3. Minerva admits only that, upon information
and belief, Cytyc is a limited liability company
organized and existing under the laws of the
Commonwealth of Massachusetts with a principal
place of business at 250 Campus Drive, Marlborough,
Massachusetts, 01752. Minerva is without knowledge
or information sufficient to form a belief as to the truth
of the remaining allegations of paragraph 3 of the
SAC, and accordingly denies the same.
4. Minerva is without knowledge or information
sufficient to form a belief as to the truth of the
allegations of paragraph 4 of the SAC, and accordingly
denies the same.
5. Minerva admits that it is a corporation
organized and existing under the laws of the State of
Delaware with a principal place of business at 101
Saginaw Drive, Redwood City, CA, 94063.
JURISDICTION AND VENUE
6. Minerva admits that the SAC purports to set
forth a claim for patent infringement arising under the
Patent Laws of the United States, Title 35 of the
United States Code. Minerva further admits that the

53
SAC purports to set forth claims for unfair competition
arising under the Lanham Act, 15 U.S.C. § 1051 et
seq., and the law of the State of Delaware. Except as
expressly admitted, Minerva denies any and all
remaining allegations in paragraph 6 of the SAC.
7. Minerva admits that this Court has subject
matter jurisdiction pursuant to 28 U.S.C. §§ 1331 and
1338, and 15 U.S.C. §§ 1121(a) and 1125(a). Minerva
also admits that this Court has jurisdiction over the
state law claims asserted in the SAC pursuant to 28
U.S.C. § 1367, as the state law claims arise from the
same common nucleus of operative facts as the federal
claims.
8. Minerva admits that this Court has personal
jurisdiction over Minerva as a Delaware corporation.
Except as expressly admitted, Minerva denies any and
all remaining allegations in paragraph 8 of the SAC.
9. Minerva admits that venue is proper in this
District under §§ 1391 and 1400(b) because Minerva is
a Delaware corporation, but denies that this is an
appropriate or convenient forum for this dispute.
Except as expressly admitted, Minerva denies any and
all remaining allegations in paragraph 9 of the SAC.
BACKGROUND
10. Minerva is without knowledge or information
sufficient to for a belief as to the truth of the
allegations of paragraph 10 of the SAC, and
accordingly denies the same.
11. Minerva is without knowledge or information
sufficient to for a belief as to the truth of the
allegations of paragraph 11 of the SAC, and
accordingly denies the same.
12. Minerva is without knowledge or information
sufficient to for a belief as to the truth of the

54
allegations of paragraph 12 of the SAC, and
accordingly denies the same.
13. Minerva is without knowledge or information
sufficient to for a belief as to the truth of the
allegations of paragraph 13 of the SAC, and
accordingly denies the same.
14. Minerva admits that Exhibit A of the SAC
purports to be a copy of the Minerva Endometrial
Ablation System Operator’s manual. Except as
expressly admitted, Minerva denies any and all
remaining allegations in paragraph 14 of the SAC.
15. Minerva is without knowledge or information
sufficient to for a belief as to the truth of the
allegations of paragraph 15 of the SAC, and
accordingly denies the same.
16. Minerva denies all allegations in paragraph 16
of the SAC.
17. Minerva denies all allegations in paragraph 17
of the SAC.
18. Minerva denies all allegations in paragraph 18
of the SAC.
19. Minerva denies all allegations in paragraph 19
of the SAC.
20. Minerva admits that Dr. James Mirabile has a
talk radio show on KCMO, 710 AM and 103.7 FM in
the Kansas City area and on September 19, 2015
Minerva’s
Vice
President,
Eugene
Skalnyi,
participated in the show to discuss Minerva’s
Endometrial Ablation System. Except as expressly
admitted, Minerva denies any and all remaining
allegations in paragraph 20 of the SAC.
21. Minerva admits that a podcast of the radio show
is shared with physicians. Except as expressly

55
admitted, Minerva denies any and all remaining
allegations in paragraph 21 of the SAC.
22. Minerva denies all allegations in paragraph 22
of the SAC.
23. Minerva denies all allegations in paragraph 23
of the SAC.
24. Minerva denies all allegations in paragraph 24
of the SAC.
25. Minerva admits that it provides an Operator’s
Manual for the Endometrial Ablation System to its
physician customers and at the beginning of the
Operator’s
Manual
it
states
“READ
ALL
INSTRUCTIONS, CAUTIONS AND WARNINGS
PRIOR TO USE. FAILURE TO FOLLOW ANY
INSTRUCTIONS OR TO HEED ANY WARNINGS OR
PRECAUTIONS COULD RESULT IN SERIOUS
PATIENT INJURY.” Except as expressly admitted,
Minerva denies any and all remaining allegations in
paragraph 25 of the SAC.
COUNT I
(Alleged Infringement of the ’183 Patent)
26. Minerva incorporates by reference the above
paragraphs of this Answer.
27. Minerva admits that on its face the ’183 patent
entitled “System and Method for Detecting
Perforations in a Body Cavity,” was issued on March
29, 2005 to Russel M. Sampson, Mike O’Hara, Csaba
Truckai, and Dean T. Miller. Minerva admits that
Exhibit B of the SAC purports to be a true and correct
copy of the ’183 patent. Minerva denies any and all
remaining allegations in paragraph 27 of the SAC.
28. Minerva admits only that, upon information
and belief, Cytyc claims to have assigned the ’183

56
patent to Hologic on January 15, 2016. Minerva lacks
knowledge or information sufficient to form a belief as
to the truth of the remaining allegations in paragraph
28 of the SAC, and on that basis, denies them.
29. Minerva lacks knowledge or information
sufficient to form a belief as to the truth of the
allegations in paragraph 29 of the SAC, and on that
basis, denies them.
30. Minerva admits that it had knowledge of the
’183 patent prior to the filing of the original Complaint.
Except as expressly admitted, Minerva denies any and
all remaining allegations in paragraph 30 of the SAC.
31. Minerva admits that it had knowledge of the
NovaSure® system. Except as expressly admitted,
Minerva denies any and all remaining allegations in
paragraph 31 of the SAC.
32. Minerva denies all allegations in paragraph 32
of the SAC.
33. Minerva denies all allegations in paragraph 33
of the SAC.
34. Minerva denies all allegations in paragraph 34
of the SAC.
35. Minerva denies all allegations in paragraph 35
of the SAC.
36. Minerva denies all allegations in paragraph 36
of the SAC.
COUNT II
(Alleged Infringement of the ’898 Patent)
37. Minerva incorporates by reference the above
paragraphs of this Answer.
38. Minerva admits that Plaintiffs purport that the
’898 patent entitled “Moisture Transport System for

57
Contact Electrocoagulation,” was issued on April 7,
2005 to Csaba Truckai, Russel M. Sampson, Stephanie
Squarcia, Alfonso L. Ramirez, Estela Hilario, and
David C. Auth. Minerva admits that Exhibit C of the
SAC purports to be a true and correct copy of the ’898
patent. Minerva denies any and all remaining
allegations in paragraph 38 of the SAC.
39. Minerva admits only that, upon information
and belief, Cytyc claims it assigned the ’898 patent to
Hologic on January 15, 2016. Minerva lacks
knowledge or information sufficient to form a belief as
to the truth of the remaining allegations in paragraph
39 of the SAC, and on that basis, denies them.
40. Minerva lacks knowledge or information
sufficient to form a belief as to the truth of the
allegations in paragraph 40 of the SAC, and on that
basis, denies them.
41. Minerva admits that it had knowledge of the
’898 patent prior to the filing of the original Complaint.
Except as expressly admitted, Minerva denies any and
all remaining allegations in paragraph 41 of the SAC.
42. Minerva admits that it had knowledge of the
NovaSure® system. Except as expressly admitted,
Minerva denies any and all remaining allegations in
paragraph 42 of the SAC.
43. Minerva denies all allegations in paragraph 43
of the SAC.
44. Minerva denies all allegations in paragraph 44
of the SAC.
45. Minerva denies all allegations in paragraph 45
of the SAC.
46. Minerva denies all allegations in paragraph 46
of the SAC.

58
47. Minerva denies all allegations in paragraph 47
of the SAC.
COUNT III
(Alleged Infringement of the ’348 Patent)
48. Minerva incorporates by reference the above
paragraphs of this Answer.
49. Minerva admits that Plaintiffs purport that the
’348 patent entitled “Moisture Transport System for
Contact Electrocoagulation,” was issued on August 5,
2015 to Csaba Truckai, Russel M. Sampson, Stephanie
Squarcia, Alfonso L. Ramirez, and Estela Hilario.
Minerva admits that Exhibit D of the SAC purports to
be a true and correct copy of the ’348 patent. Minerva
denies any and all remaining allegations in paragraph
49 of the SAC.
50. Minerva admits only that, upon information
and belief, Cytyc claims to have assigned the ’348
patent to Hologic on January 15, 2016. Minerva lacks
knowledge or information sufficient to form a belief as
to the truth of the remaining allegations in paragraph
50 of the SAC, and on that basis, denies them.
51. Minerva lacks knowledge or information
sufficient to form a belief as to the truth of the
allegations in paragraph 51 of the SAC, and on that
basis, denies them.
52. Minerva admits that it had knowledge of the
’348 patent prior to the filing of the original Complaint.
Except as expressly admitted, Minerva denies any and
all remaining allegations in paragraph 52 of the SAC.
53. Minerva admits that it had knowledge of the
NovaSure® system. Except as expressly admitted,
Minerva denies any and all remaining allegations in
paragraph 53 of the SAC.

59
54. Minerva denies all allegations in paragraph 54
of the SAC.
55. Minerva denies all allegations in paragraph 55
of the SAC.
56. Minerva denies all allegations in paragraph 56
of the SAC.
57. Minerva denies all allegations in paragraph 57
of the SAC.
58. Minerva denies all allegations in paragraph 58
of the SAC.
COUNT IV
(Alleged Unfair Competition Under
15 U.S.C. § 1125(a))
59. Minerva incorporates by reference the above
paragraphs of this Answer.
60. Minerva denies all allegations in paragraph 60
of the SAC.
61. Minerva admits that Minerva markets and/or
sells its Endometrial Ablation System in the United
States and travels in interstate commerce. Except as
expressly admitted, Minerva denies any and all
remaining allegations in paragraph 61 of the SAC.
62. Minerva denies all allegations in paragraph 62
of the SAC.
63. Minerva denies all allegations in paragraph 63
of the SAC.
64. Minerva denies all allegations in paragraph 64
of the SAC.
65. Minerva denies all allegations in paragraph 65
of the SAC.

60
66. Minerva denies all allegations in paragraph 66
of the SAC.
67. Minerva denies all allegations in paragraph 67
of the SAC.
COUNT V
(Alleged Deceptive Trade Practice Under
6 Del. C. § 2532)
68. Minerva incorporates by reference the above
paragraphs of this Answer.
69. Minerva denies all allegations in paragraph 69
of the SAC.
70. Minerva denies all allegations in paragraph 70
of the SAC.
71. Minerva denies all allegations in paragraph 71
of the SAC.
72. Minerva denies all allegations in paragraph 72
of the SAC.
73. Minerva denies all allegations in paragraph 73
of the SAC.
74. Minerva denies all allegations in paragraph 74
of the SAC.
75. Minerva denies all allegations in paragraph 75
of the SAC.
76. Minerva denies all allegations in paragraph 76
of the SAC.
77. Minerva denies all allegations in paragraph 77
of the SAC.
COUNT VI
(Alleged Unfair Competition–Delaware Common Law)
78. Minerva incorporates by reference the above
paragraphs of this Answer.

61
79. Minerva denies all allegations in paragraph 79
of the SAC.
80. Minerva denies all allegations in paragraph 80
of the SAC.
81. Minerva denies all allegations in paragraph 81
of the SAC.
82. Minerva denies all allegations in paragraph 82
of the SAC.
83. Minerva denies all allegations in paragraph 83
of the SAC.
84. Minerva denies all allegations in paragraph 84
of the SAC.
85. Minerva denies all allegations in paragraph 85
of the SAC.
86. Minerva denies all allegations in paragraph 86
of the SAC.
87. Minerva denies all allegations in paragraph 87
of the SAC.
COUNT VII
(Alleged Tortious Interference With A Business
Relationship–Delaware Common Law)
88. Minerva incorporates by reference the above
paragraphs of this Answer.
89. Minerva denies all allegations in paragraph 89
of the SAC.
90. Minerva denies all allegations in paragraph 90
of the SAC.
91. Minerva denies all allegations in paragraph 91
of the SAC.
92. Minerva denies all allegations in paragraph 92
of the SAC.

62
93. Minerva denies all allegations in paragraph 93
of the SAC.
94. Minerva denies all allegations in paragraph 94
of the SAC.
95. Minerva denies all allegations in paragraph 95
of the SAC.
96. Minerva denies all allegations in paragraph 96
of the SAC.
97. Minerva denies all allegations in paragraph 97
of the SAC.
COUNT VIII
(Alleged Infringement of the ’989 Patent)
98. Minerva incorporates by reference the above
paragraphs of this Answer.
99. Minerva admits that on its face the ’989 patent
entitled “Moisture Transport System for Contact
Electrocoagulation,” was issued on February 2, 2016 to
Csaba Truckai. Minerva admits that Exhibit H of the
SAC purports to be a true and correct copy of the ’989
patent. Minerva denies any and all remaining
allegations in paragraph 99 of the SAC.
100. Minerva admits that Cytyc purports to be the
assignee and lawful owner of all right, title, and
interest in and to the ’989 patent. Minerva lacks
knowledge or information sufficient to form a belief as
to the truth of the remaining allegations in paragraph
100 of the SAC, and on that basis, denies them.
101. Minerva admits that it had knowledge of the
’989 patent prior to the filing of the SAC. Except as
expressly admitted, Minerva denies any and all
remaining allegations in paragraph 101 of the SAC.
102. Minerva admits that it had knowledge of the
NovaSure® system. Except as expressly admitted,

63
Minerva denies any and all remaining allegations in
paragraph 102 of the SAC.
103. Minerva denies all allegations in paragraph
103 of the SAC.
104. Minerva denies all allegations in paragraph
104 of the SAC.
105. Minerva denies all allegations in paragraph
105 of the SAC.
106. Minerva denies all allegations in paragraph
106s of the SAC.
PRAYER FOR RELIEF
1. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 1.
2. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 2.
3. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 3.
4. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 4.
5. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 5.
6. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 6.
7. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 7.
8. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 8.
9. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 9.

64
10. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 10.
11. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 11.
12. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 12.
13. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 13.
14. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 14.
15. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 15.
16. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 16.
17. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 17.
18. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 18.
19. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 19.
20. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 20.
21. Minerva denies that Plaintiffs are entitled to
the relief request in paragraph 21.
AFFIRMATIVE DEFENSES
In addition to the affirmative defenses described
below, subject to its responses above, Minerva
specifically reserves all rights to allege additional
affirmative defenses that become known through the
course of discovery.

65
FIRST AFFIRMATIVE DEFENSE
(Failure to State Claim)
107. The SAC fails to state a claim for which relief
can be granted.
SECOND AFFIRMATIVE DEFENSE
(Noninfringement)
108. Minerva is not infringing and has not
infringed, directly, by inducement, contributorily or in
any other way, any claim of the ’183, ’898, ’348, and
’989 patents.
THIRD AFFIRMATIVE DEFENSE
(Invalidity)
109. One or more asserted claims of the ’183, ’898,
’348, and ’989 patents are invalid for failing to meet
the conditions for patentability in Title 35 of the
United States Code, including but not limited to
§§ 101, 102, 103, and/or 112.
FOURTH AFFIRMATIVE DEFENSE
(Estoppel)
110. The claims of ’183, ’898, ’348, and ’989 patents
are and were limited by amendment, the prior art,
and/or by the statements made during their
prosecution before the U.S. Patent and Trademark
Office (“USPTO”) such that Plaintiffs are now
estopped
and/or
otherwise
precluded
from
maintaining that such claims of the ’183, ’898, ’348,
and ’989 patents are of sufficient scope to cover the
accused products either literally or under the doctrine
of equivalents.
FIFTH AFFIRMATIVE DEFENSE
(Failure to Mark and Limitation on Damages)
111. Plaintiffs’ claim for damages is barred in whole
or in part by failure to provide adequate notice under

66
35 U.S.C. § 287. Any claim for damages for patent
infringement is limited to only those damages
occurring after the notice of infringement and, in any
event, by 35 U.S.C. § 286.
SIXTH AFFIRMATIVE DEFENSE
(No Right to Injunctive Relief)
112. Plaintiffs are not entitled to injunctive relief
because any injury to Plaintiffs is not immediate or
irreparable, and Plaintiffs have an adequate money
remedy for any claim that they can prove.
SEVENTH AFFIRMATIVE DEFENSE
(Safe Harbor)
113. There is no infringement—directly, by
inducement, contributorily or in any other way—of
any valid claim of the ’183, ’898, ’348, and ’989 patents
by Minerva for any allegedly infringing activities
falling within the safe harbor under 35 U.S.C. § 271(e).
EIGHTH AFFIRMATIVE DEFENSE
(Laches)
114. Plaintiffs’ claims against Minerva regarding
the ’183, ’898, ’348, and ’989 patents are barred, in
whole or in part, by 35 U.S.C. § 286 and/or the doctrine
of laches.
NINTH AFFIRMATIVE DEFENSE
(Obviousness-Type Double Patenting)
115. The asserted claims of the ’348 and ’989
patents are subject to the doctrine of obviousness-type
double patenting. In order to issue, the asserted claims
of the ’348 and ’989 patents should have been subject
to a terminal disclaimer setting their respective
expiration date as April 12, 2016.

67
TENTH AFFIRMATIVE DEFENSE
(Unclean Hands)
116. Plaintiffs’ claims are barred by the doctrine of
unclean hands, the facts and circumstances of which
are generally described in Minerva’s counterclaims
below, including Plaintiffs filing this lawsuit in bad
faith and making false and misleading statements
related to Minerva and Minerva’s products.
ELEVENTH AFFIRMATIVE DEFENSE
(Lack of Standing)
117. Plaintiff Hologic lacks standing to assert any
claims relating to the ’183, ’898, ’348 and ’989 patents
because it did not have sufficient rights in the asserted
patents at the time the suit was filed.
COUNTERCLAIMS
PARTIES
118. Minerva hereby pleads
counterclaims against Plaintiffs.

the

following

119. Minerva is a corporation organized under the
laws of Delaware, having its principal place of
business at 101 Saginaw Drive, Redwood City, CA,
94063.
120. On information and belief, based on Plaintiffs’
allegations, Hologic is a corporation organized and
existing under the laws of Delaware with a principal
place of business at 250 Campus Drive, Marlborough,
Massachusetts, 01752 and Cytyc is a limited liability
company organized and exiting under the laws of the
Commonwealth of Massachusetts with a principal
place of business at 250 Campus Drive, Marlborough,
Massachusetts, 01752.

68
JURISDICTION AND VENUE
121. This Court has subject matter jurisdiction over
this action pursuant to 28 U.S.C. §§ 1331, 1338(a),
2201, and 2202.
122. Plaintiffs are subject to personal jurisdiction
in this judicial district because Plaintiffs availed
themselves of the jurisdiction of this Court and
engaged in acts giving rise to this controversy in this
district.
123. Venue is appropriate in this judicial district
under 28 U.S.C. §§ 1391 and 1400(b).
BACKGROUND
124. Since the company’s formation in 2008,
Minerva has been dedicated to developing and
bringing to market new technology that would
significantly advance the treatment of abnormal
uterine bleeding (“AUB”). To date, Minerva has raised
tens of millions from private investors to fund this
singular purpose and, having received FDA clearance
in July 27, 2015, Minerva is at a critical inflection
point for its survival as it begins to commercialize the
technology that has been under development for years.
125. Hologic has been well-aware of Minerva’s
technology and its work since 2009 and has spent
years preparing for Minerva’s launch. In anticipation
of the entrance of new endometrial ablation
technology—the first in 15 years—Hologic prepared
and is now executing an anti-competitive, no-holdsbarred campaign against Minerva that is designed to
stamp-out any competition and to prevent Minerva
from gaining any traction in the market whatsoever.
In doing so, Hologic has gone too far in employing a
host of unfair business practices, including the
dissemination of false and misleading statements in

69
the marketplace to customers and prospective
customers that were carefully designed to
permanently and irreparably harm and malign
Minerva, its technology, and its employees.
126. Hologic does so not to protect patients or the
physicians that treat them, or to fairly engage on the
merits competing products, but to protect its marketshare at all costs—NovaSure® generates XXXXXXXX
XXXXXXX XXXXXXXXXX for Hologic.
127. As Hologic is well-aware, the FDA-approved
clinical studies demonstrate that Minerva is a safe,
effective
product.
Indeed,
clinical
studies
demonstrated the following efficacy rates in
comparison to the Objective Performance Criteria
(“OPC”) (i.e., combined rates of other endometrial
ablation devices approved by FDA) of 66%, which
include NovaSure®:
“Succes
s” (Less
Advers
Amenor
Averag
than
e
Recomrhea
e
normal
Events mend
(Zero
Proced
bleedin
(>2
to a
bleedin
ure
gWeeks– Friend
g)
Time
PBLAC
1 Year)
< 75)
Minerv
91.8%
a

66.4%

0%

99%

3.9
minutes

NovaSu
77.7%
re®

36%

12%

95%

5
minutes

128. Minerva achieved these significant results by
developing new endometrial ablation technology using
scientific advancement and innovation as well as by
drawing on the years of experience that its founders

70
and executives have in this field—several of whom
were the original inventors and developers of the
NovaSure® technology. Knowing that Minerva’s
technology was a significant advancement and that its
business and scientific team were well-respected
innovators, Hologic took note of this rising threat more
than six years before a single Minerva unit was sold in
the market.
129. XXXX XXXX XXXX XXXX XXXXX XXX XXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXX XXXX XXX XXXX XXX XXXX XXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXXXX XXXX X
130. XXXX XXXX XXXX XXXX XXXXX XXX XXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXX XXXX XXX XXXX XXX XXXX XXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX X

71
131. In addition, Hologic has employed a number of
business practices designed to unfairly inhibit
Minerva’s ability to compete in the marketplace,
including the dissemination of false and/or misleading
statements to customers and prospective customers of
Minerva. These unfair business practices began in
anticipation of Minerva’s entry to the market, and
have continued since then.
132. Even before Minerva’s system was launched,
Hologic began disseminating false and deceptive
messages about the safety and technological attributes
of Minerva’s system. Since then, Hologic has
approached and continues to approach physicians and
hospital administrators who have used, expressed
interest in and/or are potential customers of Minerva’s
system, with a false and deceptive message that
physicians should not use Minerva’s system because
the device is unsafe for patients.
a.
X XXXX XXXX XXXX XXXXX XXX XXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXX XXXX XXX XXXX XXX XXXX XXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX X
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX

72
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
b.
X XXXX XXXX XXXX XXXXX XXX XXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXX XXXX XXX XXXX XXX XXXX XXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
X XXXX XXXX XXXX X
c.
X XXXX XXXX XXXX XXXXX XXX XXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXX
d.
XXXXX XXXX XXXX XXXXX XXX XXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXX XXXX XXX XXXX XXX XXXX XXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX X

73
e.
On February 15, 2015, Minerva formally
demanded that Hologic cease and desist from
continuing its misleading campaign and to provide a
corrective disclosure to those physicians who had
exposed to Hologic’s false and misleading statements
about Minerva and its system. On February 25, 2016,
Hologic denied knowledge of any such false or
misleading conduct and did not agree to correct its
prior statements.
133. On information and belief, Hologic has made
and continues to make false and misleading
statements about other aspects of Minerva’s system,
including that the system (i) is associated with a high
number of adverse events (contrary to the findings in
Minerva’s FDA-approved clinical studies); (ii) is
associated with a high number of injuries to patients
“all over the country”; and (iii) cannot be used in
ablation procedures where the patient must first
undergo certain other treatments (e.g., removal of
polyps or fibroids).
134. Hologic also presents physicians with
misleading information about the efficacy of Hologic’s
NovaSure® device, including on its product label, in
articles/advertising sponsored by Hologic, and in
direct communications. Since learning the results of
Minerva’s clinical trials, including efficacy and
amenorrhea rates of 91.8% and 66.4% respectively,
Hologic continues to depart from the FDA approved
results of the NovaSure® clinical study utilized for
FDA approval, by advertising on the NovaSure®
website that, “The NovaSure® procedure is effective:
For 90% of women, menstrual bleeding is dramatically
reduced or stopped.” The FDA-approved results state
efficacy rates of 77.7% (Success rate) and 36%
(Amenorrhea or zero bleeding rate). Hologic also
advertises that the hysterectomy rate over the five

74
years following the NovaSure® treatment is less than
3%, when the FDA-approved hysterectomy rate over
just three years is 6.3%. Minerva is informed and
believes that Hologic has not submitted any
supplemental study to the FDA for approval of the
improved claims. At the same time, Hologic without
basis, mischaracterizes and disparages the results of
Minerva’s clinical study. In doing so, Hologic is in not
only in violation of FDA labeling laws, but is also
engaged in deceptive advertising under state law,
including the law of Delaware.
FIRST COUNTERCLAIM
(Declaratory Judgment of Noninfringement
of the ’183 Patent)
135. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

136. Plaintiffs allege in the SAC that Hologic is the
owner of all rights, title, and interest in the ’183
patent.
137. Plaintiffs have charged in the SAC that one or
more claims of the ’183 patent have been infringed by
Minerva.
138. Minerva denies that Minerva has been or is
infringing, directly, or indirectly, any of the claims of
the ’183 patent or otherwise engaging in any
wrongdoing with respect to such patent. Minerva
further avers that it has not infringed and is not
presently infringing, directly or indirectly, any valid or
enforceable claims contained in the ’183 patent and it
is not liable for damages, injunctive or other relief
arising from such alleged infringement.
139. There exists an actual and justifiable
controversy between Minerva and Plaintiffs as to
whether Minerva infringes any claims of the ’183

75
patent. This controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.
140. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that it
does not infringe any claims of the ’183 patent.
SECOND COUNTERCLAIM
(Declaratory Judgment of Noninfringement
of the ’898 Patent)
141. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

142. Plaintiffs allege in the SAC that Hologic is the
owner of all rights, title, and interest in the ’898
patent.
143. Plaintiffs have charged in the SAC that one or
more claims of the ’898 patent have been infringed by
Minerva.
144. Minerva denies that Minerva has been or is
infringing, directly, or indirectly, any of the claims of
the ’898 patent or otherwise engaging in any
wrongdoing with respect to such patent. Minerva
further avers that it has not infringed and is not
presently infringing, directly or indirectly, any valid or
enforceable claims contained in the ’898 patent and it
is not liable for damages, injunctive or other relief
arising from such alleged infringement.
145. There exists an actual and justifiable
controversy between Minerva and Plaintiffs as to
whether Minerva infringes any claims of the ’898
patent. This controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.

76
146. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that it
does not infringe any claims of the ’898 patent.
THIRD COUNTERCLAIM
(Declaratory Judgment of Noninfringement
of the ’348 Patent)
147. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

148. Plaintiffs allege in the SAC that Hologic is the
owner of all rights, title, and interest in the ’348
patent.
149. Plaintiffs have charged in the SAC that one or
more claims of the ’348 patent have been infringed by
Minerva.
150. Minerva denies that Minerva has been or is
infringing, directly, or indirectly, any of the claims of
the ’348 patent or otherwise engaging in any
wrongdoing with respect to such patent. Minerva
further avers that it has not infringed and is not
presently infringing, directly or indirectly, any valid or
enforceable claims contained in the ’348 patent and it
is not liable for damages, injunctive or other relief
arising from such alleged infringement.
151. There exists an actual and justifiable
controversy between Minerva and Plaintiffs as to
whether Minerva infringes any claims of the ’348
patent. This controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.
152. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that it
does not infringe any claims of the ’348 patent.

77
FOURTH COUNTERCLAIM
(Declaratory Judgment of Noninfringement
of the ’989 Patent)
153. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

154. Plaintiffs allege in the SAC that Cytyc is the
owner of all rights, title, and interest in the ’989
patent.
155. Plaintiffs have charged in the SAC that one or
more claims of the ’989 patent have been infringed by
Minerva.
156. Minerva denies that Minerva has been or is
infringing, directly, or indirectly, any of the claims of
the ’989 patent or otherwise engaging in any
wrongdoing with respect to such patent. Minerva
further avers that it has not infringed and is not
presently infringing, directly or indirectly, any valid or
enforceable claims contained in the ’989 patent and it
is not liable for damages, injunctive or other relief
arising from such alleged infringement.
157. There exists an actual and justifiable
controversy between Minerva and Plaintiffs as to
whether Minerva infringes any claims of the ’989
patent. This controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.
158. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that it
does not infringe any claims of the ’989 patent.

78
FIFTH COUNTERCLAIM
(Declaratory Judgment of Invalidity
of the ’183 Patent)
159. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

160. Plaintiffs allege in the SAC that Hologic is the
owner of all rights, title, and interest in the ’183
patent.
161. Each and every claim of the ’183 patent is
invalid for failing to meet and conditions for
patentability in Title 35 of the United States Codes,
including but not limited to §§ 101, 102, 103, and/or
112.
162. There exists an actual and justiciable
controversy between Minerva and Plaintiffs as to
whether one or more claims of the ’183 patent is
invalid. The controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.
163. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that one
or more claims of the ’183 patent are invalid.
SIXTH COUNTERCLAIM
(Declaratory Judgment of Invalidity
of the ’898 Patent)
164. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

165. Plaintiffs allege in the SAC that Hologic is the
owner of all rights, title, and interest in the ’898
patent.
166. Each and every claim of the ’183 patent is
invalid for failing to meet and conditions for
patentability in Title 35 of the United States Codes,

79
including but not limited to §§ 101, 102, 103, and/or
112.
167. There exists an actual and justiciable
controversy between Minerva and Plaintiffs as to
whether one or more claims of the ’898 patent is
invalid. The controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.
168. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that one
or more claims of the ’898 patent are invalid.
SEVENTH COUNTERCLAIM
(Declaratory Judgment of Invalidity
of the ’348 Patent)
169. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

170. Plaintiffs allege in the SAC that Hologic is the
owner of all rights, title, and interest in the ’348
patent.
171. Each and every claim of the ’348 patent is
invalid for failing to meet and conditions for
patentability in Title 35 of the United States Codes,
including but not limited to §§ 101, 102, 103, and/or
112.
172. There exists an actual and justiciable
controversy between Minerva and Plaintiffs as to
whether one or more claims of the ’348 patent is
invalid. The controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.
173. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that one
or more claims of the ’348 patent are invalid.

80
EIGHTH COUNTERCLAIM
(Declaratory Judgment of Invalidity
of the ’989 Patent)
174. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

175. Plaintiffs allege in the SAC that Cytyc is the
owner of all rights, title, and interest in the ’989
patent.
176. Each and every claim of the ’989 patent is
invalid for failing to meet and conditions for
patentability in Title 35 of the United States Codes,
including but not limited to §§ 101, 102, 103, and/or
112.
177. There exists an actual and justiciable
controversy between Minerva and Plaintiffs as to
whether one or more claims of the ’989 patent is
invalid. The controversy is of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment.
178. Pursuant to 28 U.S.C. §§ 2201 and 2202,
Minerva is entitled to a declaratory judgment that one
or more claims of the ’989 patent are invalid.
NINTH COUNTERCLAIM
(Unfair Competition Under 15 U.S.C. § 1125(a) & (c))
179. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

180. Hologic has used a false or misleading
description of facts in connection with its marketing
and sale of the NovaSure® device.
181. Hologic markets and/or sells the NovaSure®
device throughout the United States and travels in
interstate commerce.

81
182. Hologic’s conduct has caused and continues to
cause confusion or mistake, or has deceived and
continues to deceive existing and potential Minerva
customers about the relative characteristics of the
NovaSure® and Minerva devices.
183. Hologic’s conduct has caused further harm to
Minerva in the form of tarnishment of Minerva, its
device and its mark.
184. Hologic’s
conduct
constitutes
unfair
competition in violation of 15 U.S.C. § 1125(a) and (c).
185. As a result of Hologic’s false description of
facts, Minerva has suffered and continues to suffer
damages, including loss of sales.
186. Hologic’s false and misleading description of
facts is willful, making this an exceptional case
entitling Minerva to recover Hologic’s profits of sales
of NovaSure®, actual and enhanced damages, and
costs Minerva incurred in prosecuting its claims,
pursuant to 15 U.S.C. § 1117(a) and (c).
187. Hologic’s false and misleading description has
caused and will continue to cause irreparable harm to
Minerva for which there is no adequate remedy at law,
unless the Court enjoins Hologic’s false and
misleading statements pursuant to 15 U.S.C.
§ 1116(c).
TENTH COUNTERCLAIM
(Deceptive Trade Practices Under 6 Del. C. § 2532)
188. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

189. Hologic in the course of its business, has
engaged and continues to engage in conduct that
disparages the Minerva system, including without

82
limitation, but and through its false and misleading
representation that the Minerva system is unsafe XzX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX
190. Hologic in the course of its business, has
engaged and continues to engage in conduct that
causes a likelihood of confusion or misunderstanding
about the Minerva system, including without
limitation, but and through its false and misleading
representation that the Minerva system is unsafe XzX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX X
191. Hologic in the course of its business, by and
through its false and misleading representations of
fact, has engaged and continues to engage in deceptive
trade practices in violation of 6 Del. C. § 2532,
including without limitation, but and through its false
and misleading representation that the Minerva
system is unsafe Xzx xxx xxx xxx xxx xxx xxx xxx xxxx
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX X
192. As a result of Hologic’s conduct, Minerva has
suffered and continues to suffer damages, including
loss of sales.
193. Equity favors enjoining Hologic’s conduct
pursuant to 6 Del. C. § 2533(a).
194. Hologic’s conduct has been and is willful such
that Minerva is entitled to its attorneys’ fees and costs.
195. Minerva is entitled to damages under
Delaware common law thereby entitling Minerva to
treble damages under 6 Del. C. § 2533(c).

83
ELEVENTH COUNTERCLAIM
(Unfair Competition–Delaware Common Law)
196. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

197. Minerva had a reasonable expectancy of
entering and continuing valid business relationships
with existing and potential customers.
198. Hologic has wrongfully interfered with
Minerva’s
existing
and
potential
business
relationships by approaching customers that were
using, interested in and/or potential customers of
Minerva’s system and XzX xxx xxx xxx xxx xxx xxx xx
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX X (ii) making false
and misleading statements of fact regarding the
contraindications
of
Minerva’s
system;
(iii)
disparaging Minerva’s system, Minerva, and its
employees; (iv) making false and misleading
statements about the efficacy of Hologic’s NovaSure®
device; and XXXX XXXX XXXX XXXX XXXX XXXXx x
XXXX XXXXX XXXX XXXX XXXX XXXX XXXX X xxxx
XXXX XXXXX XXXX XXXX XXXX XXXX XXXX Xx
199. Hologic has used and continues to use false
and/or misleading descriptions of facts in connection
with its marketing and/or sale of the NovaSure®
system.
200. Hologic’s conduct has caused and continues to
cause confusion or mistake, or has deceived and
continues to deceive existing and potential customers
of Minerva about the relative characteristics of the
NovaSure® and Minerva devices.
201. Hologic’s conduct has caused and continues to
be undertaken with the purpose of deceiving

84
customers and appropriating Minerva’s business
relationships, goodwill, and competitive advantages.
202. Hologic’s
conduct
constitutes
unfair
competition under the common law, including without
limitation by its activities in Delaware.
203. As a result of Hologic’s misconduct, Minerva
has suffered and continues to suffer economic harm,
including loss of sales. As a result of Hologic’s
misconduct, Hologic has caused and will continue to
cause customer confusion or misunderstanding and
has caused and will continue to cause damage to
Minerva’s goodwill with customers and potential
customers.
204. Hologic’s misconduct has caused and will
continue to cause irreparable harm to Minerva for
which there is no adequate remedy at law, unless its
conduct is enjoined.
TWELFTH COUNTERCLAIM
(Interference with Contract/Business Advantage)
205. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

206. Minerva had a reasonable expectancy of
entering and continuing valid business relationships
with existing and prospective customers as well as
others, including clinical investigators under contract
with Minerva.
207. On information and belief, Hologic had
knowledge of Minerva’s business relationships and
prospective customers as Hologic has been tracking
Minerva’s activity, including the whereabouts of its
sales staff, since before Minerva’s system was
commercially available and all times since.

85
208. Hologic has intentionally interfered with
Minerva’s
existing
and
potential
business
relationships by approaching customers that were
using, interested in and/or potential customers of
Minerva’s system and (i) making false and misleading
statements of fact regarding the safety of Minerva’s
system, XzX xxx xxx xxx xxx xxx xxx xx xxx xxx xxx x
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX XXXX XXXX XXXXX
XXXX XXXX XXXX XXXX XXXX X (ii) making false
and misleading statements of fact regarding the
contraindications
of
Minerva’s
system;
(iii)
disparaging Minerva’s system, Minerva, and its
employees; (iv) making false and misleading
statements about the efficacy of Hologic’s NovaSure®
device; and (v) XXXX XXXX XXXX XXXX XXXX XXXX
XXXX XXXXX XXXX XXXX XXXX XXXX XXXX X xxxx
XXXX XXXXX XXXX XXXX XXXX XXXX XXXX X
209. Hologic, by and through its false and
misleading statements and conduct, has engaged and
in and continues to engage in wrongful conduct in
violation of federal and state law, including 15 U.S.C.
§ 1125 and 6 Del. C. § 2532.
210. Hologic’s
conduct
constituted
tortious
interference with a business relationship under the
common law, including without limitation its activities
in Delaware.
211. As a result of Hologic’s intentional
interference, Minerva has suffered and continues to
suffer economic harm, including loss of sales.
212. Hologic’s actions and conduct are willful and
undertaken with the purpose of deceiving customers.
213. Hologic’s intentional interference has caused
and will cause irreparable harm to Minerva for which

86
there is no adequate remedy at law, unless the conduct
is enjoined.
THIRTEENTH COUNTERCLAIM
(Breach of Contract)
214. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

215. XXX XXX XXX XXX XXX XXX XXX XXXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX
216. XXX XXX XXX XXX XXX XXX XXX XXXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXXX
217. XXX XXX XXX XXX XXX XXX XXX XXXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XX
218. XXX XXX XXX XXX XXX XXX XXX XXXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX
219. XXX XXX XXX XXX XXX XXX XXX XXXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX
220. XXX XXX XXX XXX XXX XXX XXX XXXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX XX
XXX XXX XXX XXX XXX XXX XXX XXX XXX XXX

87
FOURTEENTH COUNTERCLAIM
(Trade Libel)
221. Minerva realleges and incorporates
reference the foregoing paragraphs.

by

222. Through systematic communications and
misrepresentation made by Plaintiffs, Plaintiffs have
intentionally published and perpetuated false and
malicious statements about Minerva.
223. Plaintiffs’ statements are false and were
known by Plaintiffs to be false when made.
224. Plaintiffs have made statements about
Minerva willfully, with intent to disparage Minerva,
and the products offered for sale by Minerva.
225. Plaintiffs’ statements were made with the
intent and knowledge that individuals and entities
with whom Minerva dealt would cease its business
dealings with Minerva.
226. Plaintiffs’ conduct has caused, and if allowed
to continue will continue to cause, Minerva to suffer
substantial irreparable injury, for which there is no
adequate remedy at law.
227. Minerva has suffered damages as a result of
Plaintiffs’ actions, including but not limited to a loss of
revenue, profits, goodwill, and future earnings.
JURY DEMAND
Minerva demands a trial by jury on all issues so
triable.
REQUEST FOR RELIEF
WHEREFORE, Minerva respectfully requests that
the Court enter judgment as follows:
A. A judgment in favor of Minerva on all of its
Counterclaims;

88
B. Dismissal of all of Plaintiffs’ claims in their
entirety with prejudice;
C. A judgment that Plaintiffs take nothing by their
Second Amended Complaint;
D. A declaration that Minerva does not infringe,
directly or indirectly, literally or by the doctrine of
equivalents, any valid enforceable claims of the ’183,
’898, ’348, and ’989 patents;
E. A declaration that each and every claim of the
’183, ’898, ’348, and ’989 patents is invalid;
F. Awarding damages to Minerva for tortuously
interfering with Minerva’s business relationships and
for unfairly competing with Minerva under both
Federal and Delaware law;
G. Awarding damages to Minerva for breach of
contract;
H. An order preliminarily and permanently
enjoining Plaintiffs, their affiliates and subsidiaries,
and each of their officers, agents, servants and
employees and those acting in privity of concert with
them, from:
i.
Threatening to assert or otherwise attempt to
enforce the ’183, ’898, ’348, and ’989 patents against
Minerva, its customers, suppliers, or anyone in
privity with Minerva;
ii. Distributing or using any advertising,
promotional material, sales material, solicitations,
or mailing (electronic or otherwise), or making any
statement to its customers, potential customers or
suppliers, which contains an express or implied
claim that Minerva has infringed or is infringing the
’183, ’898, ’348, and ’989 patents unless and until

89
there is such a judgment of infringement against
Minerva;
iii. Using this action or any other lawsuit
between any of the parties to this action to solicit
business for Plaintiffs;
iv. Soliciting or accepting orders from a customer
using the false and or misleading advertising or
unfair competitive statements discussed herein, or
any other advertising or statements containing
similar false or misleading claims;
v. Using false and/or misleading representations
or descriptions in commerce that are likely to cause
confusion regarding the characteristics of Minerva’s
accused system;
vi. Using false and/or misleading representations
or descriptions in commerce that interfere with or
are likely to injure Minerva’s business relations;
vii. Unfairly competing with Minerva; and
viii. Committing any acts which are likely to
injure Minerva’s business reputation.
I. A judgment that this is an “exceptional case”
and an award of Minerva’s reasonable attorneys’ fees,
expenses, and costs in this action under 35 U.S.C.
§ 285; and
J. An award of such other relief as the Court may
deem appropriate and just under the circumstances.

90
Respectfully submitted,
ROSS ARONSTAM & MORITZ
LLP
Of Counsel:

/s/ Benjamin J. Schladweiler
Benjamin J. Schladweiler
(#4601)
100 S. West Street, Suite 400
Wilmington, DE 19801
(302) 576-1600
bschladweiler@ramllp.com

Vera M. Elson
Dale R. Bish
Christopher D. Mays
Sara L. Rose
WILSON SONSINI
GOODRICH & ROSATI, P.C.
650 Page Mill Road
Counsel for Defendant
Palo Alto, CA 94304
Minerva Surgical, Inc.
Tel: (650) 849-3495
Fax: (650) 493-6811
velson@wsgr.com
dbish@wsgr.com
cmays@wsgr.com
srose@wsgr.com
Olivia M. Kim
WILSON SONSINI
GOODRICH & ROSATI, P.C.
633 West Fifth Street,
Suite 1550
Los Angeles, CA 90071
Tel: (323) 210-2904
Fax: (866) 974-7329
okim@wsgr.com

Dated: March 4, 2016

91
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 15-1031-SLR
————
HOLOGIC, INC. and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
JURY TRIAL DEMANDED
FILED UNDER SEAL
————
DECLARATION OF DR. EVGUENI SKALNYI M.D.
IN SUPPORT OF DEFENDANT MINERVA
SURIGICAL, INC.’S OPPOSITION TO
PLAINTIFFS’ MOTION FOR A
PRELIMINARY INJUNCTION
————
Of Counsel:
Vera M. Elson
Dale R. Bish
Christopher D. Mays
Sara L. Rose
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300
velson@wsgr.com
dbish@wsgr.com
cmays@wsgr.com
srose@wsgr.com

ROSS ARONSTAM
& MORITZ LLP
Benjamin J.
Schladweiler (#4601)
100 S. West Street,
Suite 400
Wilmington, DE 19801
(302) 576-1600
bschladweiler@ramllp.com
Counsel for Defendant
Minerva Surgical, Inc.

92
Olivia M. Kim
Gina H. Cremona
WILSON SONSINI GOODRICH
& ROSATI, P.C.
633 West Fifth Street,
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
okim@wsgr.com
gcremona@wsgr.com
Dated: March 11, 2016

93
I, Evgueni Skalnyi, M.D., the undersigned, state and
declare as follows:
A. Qualifications
1. I am employed by Minerva Surgical, Inc.
(“Minerva”). I have worked at Minerva for over 5 years.
My current title is Vice President Medical Affairs.
2. I am a trained Gynecologist. I am over twentyone years of age, and unless otherwise stated, I have
personal knowledge of the facts set out in this
declaration, and if called upon to testify, I could and
would testify competently regarding these facts.
3. I earned my Medical Degree from State University of Medicine and Pharmacy Nicolae Testemitanu
in 1988. I worked as a practicing Obstetrician/
Gynecologist, served as an Associate Professor at
Department of Obstetrics and Gynecology at State
University of Medicine and Pharmacy Nicolae
Testemitanu. After my immigration to the United
States I worked as a Clinical Instructor at the
Stanford University Endoscopy Center, followed by a
number of positions in a variety of medical device
companies. During all these years I became intimately
familiar with endometrial ablation. I personally
performed, taught and supported thousands of
endometrial ablation procedures in USA, Canada, UK,
Germany, The Netherlands, Norway, Hungary,
Mexico, Australia, New Zealand, and many other
countries. I made numerous scientific presentations
on this subject at a variety of national and international specialty meetings and congresses. For over a
decade I serve as an AdHoc reviewer at the Journal of
Minimally Invasive Gynecology. In 2011 I became and
currently serve as a Member of the Editorial Advisory
Board for the same Journal. I was the architect of a

94
significant number of clinical research efforts, including studies performed under the FDA’s Investigational
Device Exemption (IDE) regulations. Outcomes of
these research efforts were published in many reputable specialty peer-reviewed Journals. I have personal
experience using both the NovaSure system and
Minerva’s Endometrial Ablation System (“EAS”) on
live patients, and have used earlier technology –
including the roller ball, when the NovaSure and
Minerva Systems were not available.
4. In 1998 I joined Novacept and was a key participant in the group that designed, developed and
commercialized the NovaSure system. After acquisition of Novacept by Cytyc in 2004, I joined Cytyc and
served in the capacity of Vice President of Medical
Affairs at Cytyc Surgical Products until the transfer of
the company to Hologic in 2007. I was never employed
by Hologic in any capacity.
5. I am very familiar with the clinical testing
conducted to support FDA approval of both the
NovaSure and Minerva endometrial ablation devices,
as well as the true clinical value of such data. I am also
well aware of the differences between the clinical
research needed to support FDA approval of endometrial ablation devices and other post-approval research
efforts. I am generally very familiar with most of the
intricacies of the NovaSure technology, steps of the
procedure, etc. I have educated thousands of doctors
in the NovaSure procedure, as well as prepared many
to serve as educators, speakers, and trainers for
NovaSure. I am also very familiar with most of the
intricacies of the Minerva EAS technology, steps of the
procedure, etc. I have also educated doctors in the use
of the Minerva EAS.

95
B. The Condition
6. About 10 million American women suffer from
menorrhagia (excessive and often painful menstrual
bleeding) each year. Many women begin to experience
heavy and/or irregular bleeding in their 30s and 40s,
as they begin to get closer to menopause. Heavy
periods are more than just an annoyance—they can
take a physical, social, and emotional toll as well.
Menorrhagia can be a debilitating condition that can
negatively impact a woman’s quality of life. Between
15-20% of healthy women experience debilitating
menorrhagia that interferes with their normal activities. In the absence of a better and less invasive
alternative, in the 1990s the most common treatment
available to such women was a hysterectomy (removal
of the uterus).
7. Uterine ablation, also referred to as endometrial
ablation, is an in-office procedure performed by a
trained physician to lighten or stop heavy periods in
woman with menorrhagia. It is performed by ablating
(destroying) the endometrial lining of the uterine
cavity using a variety of techniques (Radio frequency,
or RF, energy, thermal energy including heat or cold).
Endometrial ablation techniques are divided into two
broad categories: First and Second Generation. First
Generation technologies, Nd:YAG laser (Goldrath
1981) and the rollerball technique (Vancaillie 1996
ablation), were developed starting in the 1980’s.
Although efficacious, these technologies are associated
with a significant learning curve and have a higher
incidence of intra-operative adverse events: uterine
perforation, hemorrhage, fluid intra-vasation, hyponatremia, encephalopathy, death (Hulka 1993).
8. Due to the significant complexity of First
Generation endometrial ablation systems, Second

96
Generation endometrial ablation technologies were
developed. There are currently six endometrial ablation systems approved by the FDA (ThermaChoice
UBT®, HydroThermablator® (HTA)–Her Option®,
NovaSure®, MEA, and Minerva’s EAS) and five are
commercially available in the U.S. (ThermaChoice
UBT®, HydroThermablator® (HTA)–Her Option®,
NovaSure®, and Minerva’s EAS). These new technologies are generally faster, less complex and, in most
cases, allow for a significant reduction in the incidence
of complications associated with endometrial ablation
when compared to the First Generation “Gold Standard,” namely, rollerball ablation. These Second Generation technologies allow the average gynecologist to
offer a less invasive treatment option for his or her
patients with menorrhagia. These Second Generation
technologies include the use of heated liquid, either
contained within a balloon inflated in the uterus
(ThermaChoice) or instilled directly into the uterus
(HTA). Others employ the use of super-low temperatures (Her Option). Yet others employ RF energy
(NovaSure) or microwave energy (MEA) to achieve
endometrial tissue destruction. There is a significant
body of scientific evidence demonstrating the safety
and effectiveness of all of these systems relative to the
First Generation systems.
C. The NovaSure System
9. The founder of Minerva, Mr. Csaba Truckai,
also founded Novacept Corporation in 1996. The
Novacept design team, which included Mr. Truckai,
and with whom I worked: (i) conceived of the original
NovaSure design; (ii) filed the Pre-Market Approval
(“PMA”) with the FDA for the NovaSure system; (iii)
performed the necessary R&D, including clinical
trials; (iv) filed the first patent applications relating to

97
the NovaSure design; (v) obtained FDA approval for
the NovaSure in 2001; (vi) established the market for
NovaSure; and (vii) significantly expanded the endometrial ablation market with approximate annual
revenues in 2002 of $18M, 2003 of $36M, and revenues
in 2004 of $78M, the year Novacept was acquired by
Cytyc Corporation. D.I. 13-1 (2004 Merger Agreement).
10. The NovaSure system’s Success Rate, based on
the Summary of Safety and Effectiveness Data (SSED)
issued by the FDA upon approval of the device, is
77.7%. Ex. 5 at MSI00017058. Also, the NovaSure
system’s Amenorrhea Rate according to the same
SSED is 36.0%. Id.
11. Although back in 2001 the NovaSure system
provided benefits that practitioners favored over the
existing alternatives at the time, such as the rollerball, like any technology, the NovaSure had its
drawbacks as well. Minerva’s design team includes not
only Mr. Truckai, but
* * *

98
Any visual similarity to the devices, i.e., an elongated
“Y”, is a consequence of the anatomical shape and
position of the uterus within the human body.
19. Hologic states that I “suggested” in a podcast
that Minerva’s system provides the “same benefits” as
the NovaSure system. Mot. 7. I did not say or suggest
that Minerva’s system provides the same benefits, nor
does Hologic say at what point in the roughly hourlong program I said anything about the “same
benefits.” I strongly disagree with Hologic’ statement.
What I discussed is how the Minerva EAS provides
superior results and advantages above and beyond
other treatment alternatives. I reviewed the podcast
and, if anything, in the podcast I state that the current
Minerva team is and was aware of the detriments and
weaknesses of the NovaSure and other systems. The
discussion is about positives and negatives of all
currently available endometrial ablation systems and
how the Minerva EAS was designed to be better by
addressing the drawbacks of existing (older) designs.
D.I. 24 (podcast at approx. 23 minutes).
E.

Clinical Studies Required For FDA Approval

20. Two measurements used by the FDA when
evaluating the efficacy of endometrial ablations systems are (i) Success Rate (i.e., reducing menstrual
bleeding to a level that is normal or below normal) and
(ii) Amenorrhea Rate (i.e., reducing excessive menstrual bleeding to zero). Minerva conducted two
separate clinical studies that were submitted to the
FDA, and are the basis for FDA approval.
21. The first study begun in June 2011 was the
“Minerva Single Arm Study.” The Single Arm Study
compared Minerva’s efficacy to an Objective Performance Criteria (OPC) control group comprised of

99
the combined Success Rates of all previously
FDA approved endometrial ablation products
(ThermaChoice, Her Option, HTA, NovaSure, MEA).
E.g., Ex. 10 at MSI00004515.

Minerva’s Success Rate based on its FDA issued
Summary of Safety and Effectiveness Data (SSED) is
91.8%, which is statistically significantly superior to
the OPC results. Ex. 6 at MSI00017115. The Minerva
Single Arm Study Amenorrhea Rate (zero bleeding)
according to the same SSED was 66.4%. Id. In the
chart below, I contrast Minerva’s FDA-reported Success and Amenorrhea Rates reported in the Minerva
Single Arm Study with the FDA-reported Success and
Amenorrhea Rates for the NovaSure system:
FDA- Reported
Rates

NovaSure
System1

Minerva EA2S

Success Rate

77.7%

91.8%

Amenorrhea Rate

36.0%

66.4%

22. The second study, the Minerva “Randomized
Study,” began in March 2012. The Randomized Study
compared effectiveness results (Success Rate and
1

Ex. 5 at MSI00017058.

2

Ex. 6 at MSI00017115.

100
Amenorrhea Rate) of Minerva patients with a control
group that were treated with Rollerball ablation,
which was the same control group assigned by the
FDA to all previous FDA clinical studies of endometrial ablation devices, including NovaSure. Minerva’s
Success Rate of 93.1% in this second study was
statistically significantly superior to the Rollerball
Success Rate of 80.4%. In addition, the Minerva
Amenorrhea Rate (zero bleeding) was 71.6% when
compared to the Rollerball Amenorrhea Rate of 49%.
Importantly, Minerva is the first product in history to
be statistically significantly superior to the “Gold
Standard” Rollerball ablation in FDA approved
clinical studies. In both of the above studies, Minerva’s
system achieved the highest efficacy rates in the
endometrial ablation field in FDA clinical trial history.
F. Benefits of the Minerva EAS
23. Unlike the NovaSure handpiece, Minerva’s
EAS design uses a Plasma Forming Array (PFA) and
fluid-tight sealed silicone membrane to accomplish the
ablation, among many other distinct features.
Minerva’s PFA glows a bright blue during operation.
Exs. 7 (PFA in operation), 19 (PFA in saline), 15 (PFA
in egg white). Minerva’s use of its PFA technology has
numerous benefits over other existing designs, including the NovaSure System. Some of these benefits are
described in Minerva documentation. E.g., Ex. 10 at
MSI00004516-17.
24. For example, Minerva’s PFA uses a thermallyconductive sealed silicone membrane to heat the
uterine tissue more gently than older devices including the NovaSure system. The smooth silicon membrane results in easier insertion and removal.
Minerva’s design also results in easier deployment
with a reduced requirement for perfect positioning

101
within the uterus; better ablation of cavities with
irregularities; and the ablation is performed using a
significantly lower power level (approximately a
quarter of the power required to perform an ablation
with the NovaSure). It is desirable to deliver less
power (i.e., voltage times current) into the patient’s
body, rather than more power. Minerva’s lower power
requirement also results in a more comfortable procedure for the patient, which translates to generally less
anesthesia having to be used, which in itself is a
benefit to the patient. Minerva’s lower power requirement also results in a (anecdotally reported) more
comfortable procedure for the patient, which translates to generally less anesthesia having to be used,
which in itself is a potential benefit to the patient.
G. Hologic’s Awareness of Minerva
25. I am aware that on January 6, 2010, Hologic
and Minerva entered into a Non-Disclosure Agreement (NDA) that reflected Minerva’s interest at the
time of “evaluating a potential business collaboration.”
Ex. 3. The NDA was signed by Mr. Rohan Hastie,
Hologic’s Senior Director of Business Development. As
a start-up, Minerva was naturally interested in a
meaningful investment or acquisition.
26. On April 15, 2011, Mr. Russell Layton,
Hologic’s Senior Director of Strategy & Emerging
Technologies – GYN Surgical, reached out to our CEO,
Dave Clapper, introduced himself and asked to meet
at “the upcoming ACOG meeting.” Ex. 17.
27. On or about May 13, 2011, Mr. Layton paid a
visit to Minerva. Ex. 20 (redacted Minerva visitors
register showing R. Layton entry).
* * *

102
35. Minerva’s EAS (originally code named Aurora)
operates in a completely different way than the
NovaSure. Id. at MSI00001661. It uses a fluid-tight
sealed silicone membrane and a patented Plasma
Formation Array technology to thermally heat the
tissue gently and effectively. Id. at MSI00001662,
MSI0001669-1672. During our presentation to Ms.
Petrovic we showed her a video of our Minerva PFA
operating to heat egg white. Ex. 15 (PFA in eggwhite)
at MSI00001673. Different from the NovaSure, the
Minerva EAS relies on, and benefits from, the accumulation of a moisture layer during ablation at the
tissue/membrane interface. Minerva’s external sealed
silicone membrane heats this liquid layer, which
effectively gets into the nooks and crannies of the
uterine tissue, and so facilitates a more complete and
gentle ablation.
36. Here I refer to recent side-by-side video of the
Minerva device (left) and NovaSure (right) operating
in a beaker of egg white for demonstration purposes.
The video shows how because the NovaSure delivers
significantly more RF power to the applicator head, it
consequently also generates significantly more steam
(see significantly more bubbling for the NovaSure)
than Minerva’s lower power device. Ex. 25.
37. As an added benefit, Minerva’s external sealed
silicone membrane is smooth. This smooth surface, in
conjunction with the moisture layer, make it much
easier to pull the Minerva’s PFA away from the tissue
(i.e., retract it) following the procedure, since the
smooth membrane generally does not stick to the
tissue. In contrast, the NovaSure uses RF energy to
electrically heat the external metallic mesh. The
NovaSure transports moisture away from the tissue as
I described, and so during the ablation, the hot metal-

103
lic mesh is drawn into direct contact with the tissue.
As a consequence, when the ablation is done, tissue
will often stick to the surface of the mesh, complicating
its retraction and withdrawal of the device from the
patient. Ex. 16; Ex. 10 at MSI00004480 (“Device
Removal is Difficult”).
* * *
I declare under penalty of perjury of the laws of the
State of California and the United States that each of
the above statements is true and correct. Executed on
March 7, 2016, in Redwood City, California.
/s/ Evgueni Skalnyi
Evgueni Skalnyi, M.D.

104
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
Civ. No. 15-1031-SLR
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
MEMORANDUM ORDER
————
At Wilmington this 2nd day of June, 2016, having
reviewed the papers filed in connection with
plaintiffs’ motion for preliminary injunction, and
having heard oral argument on same;
IT IS ORDERED that plaintiffs’ motion (D.I. 9) is
denied, for the reasons that follow:
1. Procedural background. On November 6,
2015, plaintiffs Hologic, Inc. and Cytyc Surgical
Products, LLC (“Cytyc”) (collectively plaintiffs or
“Hologic”) filed a complaint alleging infringement of
U.S. Patent Nos. 6,872, 183 (“the ’183 patent”),1
8,998,898 (“the ’898 patent”),2 and 9,095,348 (“the

1

Titled “System and Method for Detecting Perforations in a
Body Cavity,” filed May 24, 2004 and issued March 29, 2005.
2

Titled
“Moisture
Transport
System
for
Contact
Electrocoagulation,” filed May 15, 2014 and issued April 7, 2015.

105
’348 patent”),3 against defendant Minerva Surgical
Inc. (“Minerva”).4 (D.I. 1) On February 5, 2016,
Hologic filed a second amended complaint pursuant
to a stipulation, adding allegations relating to U.S.
Patent No. 9,247,989 (“the ’989 patent”).5, 6 (D.I. 69,
70) On February 29, 2016, the court denied Minerva’s
motion to transfer and strike Hologic’s preliminary
injunction motion.7 (D.I. 82) On March 4, 2016,
Minerva
answered
the
complaint
and
counterclaimed. (D.I. 83) On March 28, 2016, Hologic
answered the counterclaims. (D.I. 106)
2. Hologic, Inc. is a corporation organized and
existing under the laws of the State of Delaware with
a principal place of business in Marlborough,
Massachusetts. It provides women’s health care
services including diagnostics, screening, and
imaging, as well as medical intervention and
treatment. Cytyc is a limited liability company
organized and existing under the laws of the
Commonwealth of Massachusetts with a principal
place of business in Marlborough, Massachusetts.
3

Titled
“Moisture
Transport
System
for
Contact
Electrocoagulation,” filed August 8, 2013 and issued August 4,
2015.
4
On January 6, 2016, Minerva filed a motion to dismiss,
which was subsequently withdrawn. (D.I. 43, 62) On January
25, 2016, Hologic filed an amended complaint. (D.I. 59)
5

Titled
“Moisture
Transport
System
for
Contact
Electrocoagulation,” filed March 2, 2015 and issued February 2,
2016.
6

For purposes of the preliminary injunction motion practice,
the parties agreed not to rely on the ’898 patent. (D.I. 42 at 2)
Neither party refers to the ’989 patent. (D.I. 11, 86)
7

The court has jurisdiction pursuant to 28 U.S.C. §§ 1331 and
1338(a).

106
Cytyc is engaged in designing, developing, and selling
medical devices for the treatment of excessive or
abnormal endometrial bleeding. Cytyc is a whollyowned subsidiary of Hologic, Inc. (D.I. 70 at ¶¶ 2-4)
Minerva is a corporation formed in 2008. It is
organized and existing under the laws of the State of
Delaware with a principal place of business in
Redwood City, California. Minerva has developed and
brought to market a new technology for the
treatment of abnormal uterine bleeding. (D.I. 83 at
¶¶ 119, 124)
3. Factual background. “Menorrhagia” is
abnormally heavy menstrual bleeding in amount or
duration. One treatment for this condition is an
“endometrial ablation,” wherein lining of the uterus
is destroyed. In the early 1990s, physicians had to
visually inspect the uterus for perforations using a
hysteroscope, as such perforations can allow steam or
hot fluids generated during ablation to escape the
uterus and cause serious injury to nearby organs.
Furthermore, small perforations were hard to detect.
To perform the ablation, physicians used instruments
such as an electrified metal ball or wire loop to burn
tissue away inside the uterus. The procedures were
lengthy and carried serious risks. (D.I. 11 at 2-3)
4. NovaCept Corporation (“NovaCept”) under the
direction of Csaba Truckai (“Truckai”) and his design
team developed the NovaSure system (“NovaSure”) in
the late-1990s. The U.S. Food and Drug
Administration (“FDA”) approved NovaSure in 2001.
(D.I. 70 at ¶ 10; D.I. 86 at 2) In May 2004, Cytyc
Corporation, a leading provider of diagnostic and
therapeutic treatments for women, acquired
NovaCept for $325 million. In 2007, Hologic, Inc.
acquired Cytyc Corporation. (D.I. 11 at 5; D.I. 86 at 2)

107
5. Prior to an ablation procedure, NovaSure uses
computerized monitoring to detect perforations in the
uterus, by applying CO2 gas to the uterus and
measuring whether there is any flow of gas out of the
uterus. NovaSure employs an application head with a
triangular shape designed to conform to the shape of
the uterus, which ablates the endometrial lining
throughout the cavity in two minutes or less. The
procedure is considerably shorter, less expensive, and
more convenient for the patient. NovaSure also
provides a “moisture transport” function with a
vacuum used to remove steam and moisture from the
cavity during energy delivery. (D.I. 11 at 3-5)
6. In July 2015, Minerva obtained FDA approval
for a new device for the treatment of menorrhagia
(“Minerva EAS”), developed by Truckai and his
design team. Minerva has hired and trained a sales
force to begin selling Minerva EAS to physicians.
(D.I. 86 at 4)
7. Standard. “The decision to grant or deny . . .
injunctive relief is an act of equitable discretion by
the district court.” eBay, Inc. v. MercExchange, LLC,
547 U.S. 388, 391 (2006); Abbott Labs. v. Andrx
Pharm., Inc., 452 F.3d 1331, 1334 (Fed. Cir. 2006).
The grant of such relief is considered an
“extraordinary remedy” that should be granted only
in “limited circumstances.” See Kos Pharma., Inc. v.
Andrx Corp., 369 F.3d 700, 708 (3d Cir. 2004)
(citation omitted). A party seeking preliminary
injunction relief must demonstrate: (1) a reasonable
likelihood of success on the merits; (2) the prospect of
irreparable harm in the absence of an injunction; (3)
that this harm would exceed harm to the opposing
party; and (4) the public interest favors such relief.
See, e.g., Sciele Pharma Inc. v. Lupin Ltd., 684 F.3d

108
1253, 1259 (Fed. Cir. 2012); Abbott Labs v. Sandoz,
Inc., 544 F.3d 1341, 1344 (Fed. Cir. 2008). “If either
or both of the fundamental requirements—likelihood
of success on the merits and probability of irreparable
harm if relief is not granted—are absent, an
injunction cannot issue.” Antares Pharma., Inc. v.
Medac Pharma., Inc., 55 F. Supp. 3d 526, 529 (D. Del.
2014) (citing McKeesport Hosp. v. Accreditation
Council for Graduate Med. Educ., 24 F.3d 519, 523
(3d Cir. 1994)).
8. At the preliminary injunction stage of a case,
the movant “‘must demonstrate that . . . at least one
of [the] allegedly infringed claims will . . . likely
withstand the validity challenges presented by the
accused infringer.’” Abbott Labs., 452 F.3d at 1335
(citation omitted).
As to the burden regarding invalidity
allegations,
“[v]alidity
challenges
during
preliminary injunction proceedings can be
successful, that is, they may raise substantial
questions of invalidity, on evidence that would
not suffice to support a judgment of invalidity at
trial.” . . . In resisting a preliminary injunction,
however, one need not make out a case of actual
invalidity. Vulnerability is the issue at the
preliminary injunction stage, while validity is
the issue at trial. The showing of a substantial
question as to invalidity thus requires less proof
than the clear and convincing showing necessary
to establish invalidity at trial.
Id. (citation omitted).
9. Even if a movant demonstrates a likelihood of
success on the merits, there is no presumption of
irreparable harm. See, e.g., eBay, 547 U.S. at 393. To

109
establish irreparable harm, the movant must “clearly
establish[ ] that monetary damages could not suffice.”
Id. at 1348. Moreover, Federal Circuit precedent
requires a showing of some causal nexus between the
alleged infringement and the alleged harm. See
Apple, Inc. v. Samsung Elecs. Co., 678 F.3d 1314,
1324 (Fed. Cir. 2012) (“Sales lost to an infringing
product cannot irreparably harm a patentee if
consumers buy that product for reasons other than
the patented feature.”).
10. The ’348 patent. The ’348 patent is directed
to “an apparatus and method of ablating and/or
coagulating tissue, such as that of the uterus or other
organ.” It uses “an electrode array,” which “includes a
fluid permeable elastic member preferably formed of
a metallized fabric having insulating regions and
conductive regions thereon.” To use the apparatus,
“the electrode array is positioned in contact with
tissue to be ablated, ablation energy is delivered
through the array to the tissue to cause the tissue to
dehydrate,
and
moisture
generated
during
dehydration is actively or passively drawn into the
array and away from the tissue.” (’348 patent, 2:3445) The specification describes two exemplary
embodiments. The first embodiment describes an
ablation device comprised generally of three major
components – RF applicator head, main body, and
handle. (Id. at 4:55-58) The applicator head includes
an array of electrodes formed on the surface of an
electrode carrying means. (Id. at 4:58-61) “The second
embodiment differs from the first embodiment
primarily in its electrode pattern and in the
mechanism used to deploy the electrode applicator
head or array.” Aspects of the two “exemplary
embodiments and their methods of operation may be

110
combined without departing from the scope of the
present invention.” (Id. at 11:50-58) Claim 1 recites:
A device for treating a uterus comprising:
an elongate member having a proximal portion
and a distal portion, the elongate member
comprising an outer sleeve and an inner sleeve
slidably and coaxially disposed within the outer
sleeve;
an applicator head coupled to the distal
portion, the applicator head defining an interior
volume and having a contracted state and an
expanded state, the contracted state being
configured for transcervical insertion and the
expanded state being configured to conform to
the shape of the uterus, the applicator head
including one or more electrodes for ablating
endometrial lining tissue of the uterus;
a handle coupled to the proximal portion of the
elongate member, wherein the handle comprises
a frame, a proximal grip and a distal grip
pivotally attached to one another at a pivot point
and operably coupled to the applicator head so
that when the proximal grip and the distal grip
are moved closer together, the applicator head
transitions from the contracted state to the
expanded state;
a deflecting mechanism including flexures
disposed within the applicator head, the flexures
including first and second internal flexures and
first and second external flexures, the first and
second external flexures being coupled to the
outer sleeve and the first and second internal
flexures being coupled to the inner sleeve,
wherein the deflecting mechanism is configured

111
so that translating the inner sleeve relative to
the frame causes the applicator head to
transition from the contracted state to the
expanded state; and
an indicator mechanism operably coupled to
the inner sleeve, the indicator mechanism
configured to indicate a dimension of the uterus.
(Id. at 19:9-42) (emphasis added)
11. Likelihood of success on the merits –
infringement. As to claim 1, Minerva argues that
Minerva EAS lacks the claimed “deflecting
mechanism,” “applicator head,” and “indicator
mechanism.” (D.I. 86 at 14, 16, 18) For each of these
limitations, Hologic asserts that the claim language
is clear and readily understood, therefore, expert
testimony or extrinsic evidence is unnecessary for
claim construction. (D.I. 11 at 9) Minerva offers
specific constructions for the disputed limitations,
which the court discusses below.
12. “Deflecting mechanism.” In the description
of the second embodiment, the ’348 specification
explains that the “[a]pplicator head 102 includes an
external electrode array 102a and an internal
deflecting mechanism 102b used to expand and
tension the array for positioning into contact with the
tissue.” (’348 patent, 12:5-8) The “[d]eflecting
mechanism 102b and its deployment structure is
enclosed within electrode array 102a.” (Id. at 13:8-9)
The deflecting mechanism is preferably configured
such that the distal tips of the flexures 124 are
sufficiently flexible to prevent tissue puncture during
deployment and/or use.” (Id. at 14:1-3) “The
deflecting mechanism formed by the flexures 124,
136, and [transverse] ribbon 138 forms the array into

112
the substantially triangular shape shown in [figure]
23, which is particularly adaptable to most uterine
shapes.” (Id. at 14:21-24) The specification further
explains that “[e]ach internal flexure 136 is
connected at its distal end to one of the flexures 124
and a transverse ribbon 138 extends between the
distal portions of the internal flexures 136.” The
transverse ribbon “is preferably pre-shaped such that
when in the relaxed condition the ribbon assumes the
corrugated configuration shown in [figure] 23 and
such that when in a compressed condition it is folded
along the plurality of creases 140 that extend along
its length.” (Id. at 13:60-54) Dependent claim 2
recites “[t]he device of claim 1 further comprising a
transverse ribbon coupled to a distal end of the first
and second external flexures, wherein the transverse
ribbon is in a relaxed condition when the applicator
head is in the expanded state.” (Id. at 19:43-46)
13. Hologic identifies the flexures in the applicator
head of Minerva EAS as satisfying the “deflecting
mechanism” limitation. (D.I. 11 at 11) Minerva’s
proposed construction8 is repetitive in the context of
the actual claim language, which recites and
describes “flexures.” Minerva’s non-infringement
argument relies on this construction, i.e., that
Minerva EAS does not use or need a transverse
ribbon to conform to the shape of the uterus. (D.I. 86
at 16) Neither claim 1 nor the specification requires
that the transverse ribbon be part of the “deflecting
mechanism.” Given the language of the specification

8

“A deployment structure enclosed within the electrode array
of the applicator head that consists of outer flexures, inner
flexures and a transverse ribbon that extends between the
flexures.” (D.I. 86 at 14)

113
and claims, Hologic has made a prima facia showing
that Minerva EAS satisfies this limitation.
14. “Applicator head.” The summary of the
invention explains that the “electrode array includes
a fluid permeable elastic member preferably formed
of a metallized fabric having insulating regions and
conductive regions thereon . . . and moisture
generated during dehydration is actively or passively
drawn into the array and away from the tissue.” (’348
patent, 2:37-45) In the first embodiment, the
applicator head “includes an electrode carrying
means 12 mounted to the distal end of the shaft 10
and an array of electrodes 14 formed on the surface of
the electrode carrying means 12.” (Id. at 4:58-61) The
electrode carrying means is “preferably a sack formed
of a material which is non-conductive, which is
permeable to moisture and/or which has a tendency
to absorb moisture . . . . Alternatively, the electrode
carrying means may be formed of a metallized
fabric.” (Id. at 5:52-61) The main body of the ablation
device includes a shaft with a “suction/insufflation
tube” extending through it. (Id. at 4:57, 5:3-4) The
suction/insufflation tube is “coupled to the flow
pathway so that gas fluid may be introduced into, or
withdrawn from the suction/insufflation tube 17 via
the suction/insufflation port 38. For example, suction
may be applied to the fluid port 38 using a
suction/insufflation unit 40.” (Id. at 8:20-25) The
water vapor from the uterine cavity passes “thorough
the permeable electrode carrying means 12, into the
suction/insufflation tube 17 via holes 17a, through
the tube 17, and through the suction/insufflation unit
40 via the port 38.” (Id. at 8:27-29) The specification
also describes the operation of the ablation device,
including that “[m]oisture removal from the ablation
site may be further facilitated by the application of

114
suction to the shaft 10 using the suction/insufflation
unit 40.” (Id. at 10:65-67) The specification explains
that “liquid build-up at the ablation site is
detrimental” and that moisture is shunted away from
the ablation site, which prevents liquid build-up. (Id.
at 11:1-13) Suction may also be used to help draw the
organ tissue towards the electrode carrying means
and into better contact with the electrodes. (Id. at
9:1-6) The specification provides that “additional
components inside” the electrode carrying means may
“add structural integrity to [it] when it is deployed
within the body.” For example, “a pair of inflatable
balloons may be arranged inside the electrode
carrying means,” which balloons can then be inflated
after insertion of the apparatus into the organ. (Id. at
8:47-67)
15. In the second embodiment, the applicator head
“includes an external electrode array 102a and an
internal deflecting mechanism 102b used to expand
and tension the array for positioning into contact
with the tissue.” (Id. at 12:5-8) The array “is formed
of a stretchable metallized fabric mesh which is
preferably knitted from a nylon and spandex knit
plated with gold or other conductive material.”(Id. at
12:10-12) The embodiment describes using a vacuum
source, which causes “application of suction” to help
“draw uterine tissue into contact with the array.” (Id.
at 18:40-43) The embodiment describes a “plurality of
longitudinally spaced apertures” formed in each
flexure that allow moisture to pass through the
flexures and be drawn into a hypotube 120 using a
vacuum source. (Id. at 13:13-18) In describing the
operation of the second embodiment, the specification
explains that as moisture is released from the tissue,
the vacuum source helps to draw moisture from the
uterine cavity into the hypotube. (Id. at 18:44-52)

115
16. Hologic identifies Minerva EAS’ applicator
head as meeting this limitation. Minerva argues that
Minerva EAS “uses a fluid-tight, sealed silicone outer
membrane, which is not permeable to moisture;”
instead, the formation of a moisture layer is
beneficial to the operation of Minerva EAS. (D.I. 86
at 17) Minerva’s proposed construction9 seeks to
narrow the claim language to the second embodiment
and adds limitations which are not required by the
specification or claim language. Specifically, the use
of suction to draw in moisture is not required. As to
permeability, the specification contemplates that the
electrode array be made of a material that is
permeable to moisture. Hologic’s reference to the
balloon example in the first embodiment is not
helpful, as the context of that example is to provide
stability to the electrode carrying means.10 Minerva
9

“A working end having a permeable external electrode array
into which moisture is drawn using suction.” (D.I. 86 at 16)
10

The specification describes the shortcomings of the prior art
methods including that “water drawn from the tissue creates a
path of conductivity through which current traveling through
the electrodes will flow” and “the heated liquid around the
electrodes causes thermal ablation to continue well beyond the
desired ablation depths.” (’348 patent, 2:9-19) The specification
also states that “liquid build-up at the ablation site is
detrimental.” (Id. at 11:1-13) The court concludes that such
disclosures do not rise to the level of disclaimer, sufficient to
narrow the disputed claim limitation as desired by Minerva. Cf.
Pacing Techs., LLC v. Garmin Int’l, Inc., 778 F.3d 1021, 1025
(Fed. Cir. 2015) (citing Inpro II Licensing, S.A.R.L. v. T-Mobile
USA Inc., 450 F.3d 1350, 1354-55 (Fed. Cir. 2006)) (“Likewise,
we have used disclaimer to limit a claim element to a feature of
the preferred embodiment when the specification described that
feature as a 'very important feature . . . in an aspect of the
present invention,’ and disparaged alternatives to that
feature.”).

116
has raised a substantial question regarding whether
Minerva EAS satisfies this limitation.
17. “Indicator mechanism.” In the second
exemplary embodiment, the specification describes a
“measurement device,” “for easily measuring the
uterine width and for displaying the measured width
on a gauge.” A dial face “includes calibration
markings corresponding to an appropriate range of
uterine widths.” The uterine width is
preferably input into an RF generator system
and used by the system to calculate an
appropriate ablation power . . . . Alternately, the
width as measured by the apparatus of the
invention . . . may be used by the user to
calculate the power to be supplied to the array to
achieve the desired ablation depth.
(’348 patent, 14:32-67)
18. Hologic identifies Minerva EAS’ red and green
areas and the lines of 3, 4, and 5 dots as meeting the
“indicator mechanism” limitation. (D.I. 11 at 11)
Minerva EAS’ manufacturing specification refers to
the indicator on the handpiece as a “width indicator.”
(D.I. 115, ex. 10 at 6.2.12, 6.3.13) The dot scale on the
width indicator shows widths of about 3, 4, and 5 cm,
respectively, via the rows of 3, 4, and 5 dots. (D.I.
115, ex. 8 at 42412; ex.10 at 6.3.13) Minerva’s
medical director testified that Minerva’s clinical data
excludes women with uteri that are smaller than 2.5
cm and the width indicator on Minerva EAS’
handpiece indicates when a patient’s uterus is
smaller than 2.5 cm. (D.I. 115, ex. 7 at 164:22-165:5)
Minerva’s proposed construction limiting “indicator
mechanism” to “a mechanism configured to indicate a
measurement of width in units” is incorrect. (D.I. 86

117
at 18-19) Hologic has made a prima facia showing
that Minerva EAS satisfies this limitation.
19. Likelihood of success on the merits –
invalidity. Minerva argues that there is no enabling
disclosure for a plasma formation array with a nonpermeable and fluid-tight silicone membrane.
Minerva’s expert opines that it would require undue
experimentation for a person of ordinary skill in the
art to arrive at Minerva EAS’ design, particularly as
the specification teaches away from the thermal
techniques used by Minerva EAS. (D.I. 88 at ¶¶ 17576) Hologic argues that Minerva’s claim construction
is incorrect and that the specification describes nonpermeable arrays in figure 20. (D.I. 114 at 8-9) As
discussed above regarding the construction of
“applicator head,” the specification contemplates
membrane permeability. Minerva has raised a
substantial question of invalidity.11
20. The ’183 patent. The ’183 patent is directed
to “a system and method for detecting perforations in
a body cavity.” The system delivers a fluid (either
liquid or gas) “into a body cavity to slightly pressurize
the cavity. A pressure sensing system monitors the
pressure within the cavity for a predetermined test
period. If cavity pressure is not substantially
sustained during the test period, the physician is
alerted.” In the preferred form of the system, the
perforation detection functionality is provided with

11

Minerva points out that it has filed an IPR petition
challenging the validity of the ’348 patent and asserted a
defense based on obviousness-type double-patenting to establish
that the correct expiration date for the ’348 patent is April 12,
2016. (D.I. 86 at 20) Such assertions carry little weight in the
present analysis.

118
an RF ablation system. (’183 patent, 1:49-62) Claim 9
recites:
A method of detecting a perforation in a uterus,
comprising the steps of:
passing an inflation medium into the uterus;
monitoring for the presence of a perforation in
the uterus using a pressure sensor;
if no perforation is detected during the
monitoring step, permitting ablation of the
uterus using an ablation device; and
if a perforation is detected during the monitoring
step, preventing ablation of the uterus.
(Id. at 8:39-48) (emphasis added) Dependent claim 13
limits claim 9 reciting, “wherein the inflation
medium is introduced using the ablation device.” (Id.
at 60-61)
21. “Pressure sensor.” The specification explains
that “a pressure sensing system” is “fluidly coupled to
the medical device via [a] pressure detection/signal
line” and used to monitor the pressure within the
body cavity. Fluid or gas is delivered to the body
cavity and the pressure sensing system detects
“whether elevated pressure can be maintained above
a
predetermined
threshold
level
over
a
predetermined period of time. If it cannot, the user is
alerted that there may be a perforation in the organ.”
(’183 patent, 2:36-44) The pressure sensor “monitors
pressure in the pressure signal line . . . and delivers
the signal to the microprocessor.” (Id. at 5:23-25) The
specification explains that during testing “[w]hen the
pressure at gauge 84 rises and remains above 50
mmHg for 4 seconds, the test has passed.” (Id. at
6:44-46)

119
22. Hologic has identified Minerva EAS’ flow
meter as meeting the “pressure sensor” limitation.
Minerva argues that the flow meter does not measure
pressure (differential or otherwise) to operate and its
output is not a pressure measurement.12 (D.I. 86 at 811) Minerva EAS’ operator manual describes a
“uterine integrity test” aimed at detecting
perforations. (D.I. 12, ex. 11 at 9, 33) Minerva’s
expert, Dr. Tucker, testified, “[a]s the pressure goes
down, the flow rate goes up. As the pressure goes up,
the flow rate goes down.” (D.I. 115, ex. 2 at 64:17-20)
The design documents for Minerva EAS state that “if
the uterine cavity and the system is perforation free,
gas used to insufflate the uterine cavity will stop
flowing once the gas pressure in the uterine cavity
matches the supply pressure.” (D.I. 87, ex. 82 at
2337) The court concludes that the evidence supports
a prima facia showing of infringement.13, 14

12

Minerva criticizes William Churchill’s (“Churchill”) analysis
under the doctrine of equivalents, arguing that Churchill’s chart
is conclusory and only analyzes a hypothetical “standard flow
meter.” Minerva’s expert, Dr. Tucker, testified that Minerva
EAS uses a “standard flow meter.” (D.I. 115, ex. 2 at 33:20-25)
13

Minerva’s argument that Minerva EAS embodies Minerva’s
patent (U.S. Patent No. 8,343,078) and uses a flow meter is
relevant but not dispositive of the issue at bar. National Presto
Indus., Inc. v. West Bend Co., 76 F.3d 1185, 1192 (Fed. Cir.
1996) (“The fact of separate patentability is relevant and
entitled to due weight.”).
14

The court declines to analyze Minerva’s prosecution history
estoppel argument at length. (D.I. 86 at 12-13) During the
prosecution history of a related application, the PTO rejected a
claim with the limitation “monitoring a pressure within the
body cavity for a predetermined amount of time,” because the
prior art disclosed “a system and method for . . . monitoring
pressure within the body cavity for a predetermined amount of

120
23. Likelihood of success on the merits –
invalidity. Dr. Tucker opines that a person of
ordinary skill would need to engage in undue
experimentation to use a flow meter to perform the
claimed “monitoring” function. Therefore, Minerva
argues that the disclosure lacks enablement. (D.I. 88
at ¶¶ 116-19) Hologic disputes this conclusion,
arguing that Dr. Tucker agreed that a person of
ordinary skill could measure flow rate and pressure.
(D.I. 115, ex. 2 at 64:24-66:2; ex. 6) According to
Hologic, known methods may be used to quantify the
relationship between flow and pressure in the uterus.
(D.I. 114 at 5) Based on the evidence presented by
the parties, the court concludes that Minerva has not
raised a substantial question of invalidity in this
regard.
24. Likelihood – conclusion. As to the ’348
patent, Minerva has advanced plausible noninfringement and invalidity arguments with respect
to the “applicator head” limitation. As to the ’183
patent, Hologic has put forth a prima facia showing
of infringement and Minerva has not raised a
substantial question of invalidity with its lack of
time.” The claim was ultimately allowed after amending other
elements of the claim to overcome the rejection. In the
application which issued as the ’183 patent, the patentee
included a claim with the same limitation. Such claim was then
cancelled and a new claim was added reciting “monitoring for
the presence of a perforation in the uterus using a pressure
sensor.” Contrary to Minerva’s argument, the court discerns no
clear and unmistakable surrender of all equivalents to a
“pressure sensor.” Cf. Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., 344 F.3d 1359, 1366 (Fed. Cir. 2003) (A
presumption of prosecution history estoppel is established by
showing that the patentee made a narrowing amendment and
that “the reason for that amendment was a substantial one
relating to patentability.”).

121
enablement argument. For these reasons, Hologic has
met its burden of showing likelihood of success on the
merits with respect to the ’183 patent only.
25. Irreparable harm. Minerva’s correspondence
introducing Minerva EAS to physicians states that it
was designed to address “difficulties with ‘seating’
the array, obtaining accurate width measurement,
obtaining a secure cervical seal, and most
importantly disappointing clinical outcomes.” (D.I.
12, ex. 13) Minerva argues that “physicians are
trying [Minerva EAS] because it is new technology
and [has] new features.” In support, Minerva offers a
physician’s declaration stating that he tried Minerva
EAS because “it might offer . . . patients significant
benefits over and above the NovaSure System.” (D.I.
86 at 24; D.I. 90 at ¶ 12) Despite this argument, the
description of Minerva EAS in Minerva’s
correspondence suffices to show “some causal nexus”
between the infringing product (and certain patented
features) and the alleged harm. See Apple Inc. v.
Samsung Elecs. Co., 809 F.3d 633, 642 (Fed. Cir.
2015) (“[T]he district court should have considered
whether there is “some connection” between the
patented features and the demand for Samsung’s
products. That is, the district court should have
required Apple to show that the patented features
impact consumers’ decisions to purchase the accused
devices.) (citations omitted); Apple, Inc. v. Samsung
Elecs. Co., 678 F.3d 1314, 1324 (Fed. Cir. 2012) (“If
the patented feature does not drive the demand for
the product, sales would be lost even if the offending
feature were absent from the accused product. Thus,
a likelihood of irreparable harm cannot be shown if
sales would be lost regardless of the infringing
conduct.”).

122
26. Reputation and goodwill. Hologic offers the
declarations of its sales territory manager (D.I. 14),
chief operating officer (D.I. 16), and vice president of
surgical sales (D.I. 19), to argue that Minerva is
representing that it “invented the NovaSure system
and now developed [Minerva EAS] as a ‘new
NovaSure’ that addresses the ‘weaknesses’ of the
existing NovaSure.” Hologic alleges that these
representations are confusing customers. (D.I. 11 at
16) The evidence presented in support includes an
email from a Minerva sales representative that reads
“the group who developed [Minerva EAS] is the same
exact group who created and developed the NovaSure
procedure 14 years ago.” (D.I. 12, ex. 13) A template
letter from a sales representative sent to potential
customers reads “Minerva was developed by the same
person that invented NovaSure over 15 years ago. It
is an evolutionary product that addresses many
unmet needs . . . .” (D.I. 116, ex. 37 at 4746; ex. 38 at
34963; ex. 39 at 34896) The same representative tells
customers that Minerva EAS was developed by the
same person who invented NovaSure, as it
establishes credibility and is true. (D.I. 115, ex. 27 at
106:17-107:5)
Minerva
responds
that
such
correspondence is not misleading as it “displays
Minerva’s logos, “Minerva Surgical, Inc.” signature
blocks, @minervasurgical.com email addresses, and
other distinctive features.” (D.I. 15, exs. 13-14)
Minerva offers the declaration of its vice president for
sales and marketing, stating that Minerva’s sales
staff is instructed to compare Minerva EAS to all
endometrial ablation products, not just to NovaSure.
(D.I. 91 at ¶¶ 8-12) According to the record at bar, the
specific representations in the evidence are true, that
is, Truckai and his research group were the original
inventors of NovaSure at NovaCept and have now

123
invented Minerva EAS at Minerva. Hologic has not
offered specific evidence that Minerva is representing
itself as currently affiliated with Hologic or
NovaSure.15 Therefore, this fact weighs in favor of
Minerva.
27. Lost sales and price erosion. Hologic’s
declarant states that several of Hologic’s large
customers have requested price discounts on future
long-term agreements as a result of Minerva’s entry
into the market. (D.I. 11 at 17; D.I. 19 at ¶¶ 11-13)
Minerva’s sales correspondence to physicians
acknowledges such discounts,16 while encouraging
physicians to try Minerva EAS. (D.I. 116, ex. 31 at
19844, ex. 32 at 2669, ex. 33 at 19444, ex. 34 at 5386)
According to Hologic, it will be nearly impossible to
calculate the lost downstream sales to the customers
that Minerva lures away. This is due to the differing
types of sales and contracts that are possible, i.e.,
purchasing the controller and then purchasing the
disposables or receiving the controller for free and
purchasing the disposables at a higher price. Hologic
also asserts that price erosion will be difficult to
calculate as prices are negotiated on a per customer
basis. Hologic concludes that money damages will not
compensate for the damage to its brand and
reputation as the pioneer in endometrial ablation.17
(D.I. 11 at 17-18) Minerva counters that Hologic has
15

Hologic’s declarant agreed at deposition that if Minerva
sales staff “followed their script,” such communications would
not be misleading. (D.I. 87, ex. 35 at 139-40)
16

For example, stating that Hologic is providing free
NovaSure controllers and offering discounts in an effort to
retain its customers and compete with Minerva EAS.
17

Hologic has not offered to license the patents-in-suit to a
third party.

124
discounted NovaSure in recent years to compete with
other treatments and enter into multi-product
agreements, which offer discounts across product
lines, but result in higher volume and increased
revenue. (D.I. 86 at 22-23)
28. Sales of NovaSure were flat in the fiscal year
ending in September 2012 and declined in the fiscal
years ending in September 2013-2015. In its SEC
filings, Hologic attributed the sales decline to lower
cost alternatives and market forces.18 (D.I. 87, exs.
30-33) There was an increase in NovaSure sales in
fiscal year 2016, with Hologic reporting a $3.2 million
revenue increase in NovaSure sales for the first
quarter of fiscal year 2016 (October to December
2015) and NovaSure sales of $55.2 million (an
increase of 8.1%) for the second quarter (January to
March 2016).19 (D.I. 87, ex. 34; D.I. 124, ex. 1) In sum,
Hologic carefully tracks the average price and sales
volume of NovaSure for each of its accounts,
weakening Hologic’s argument that money damages
would not suffice. (D.I. 87, ex. 35 at 13, 164-65) The
court concludes that this factor is neutral.
29. Other factors. Hologic points out that it is in
direct competition with Minerva and Minerva is
focusing its efforts on Hologic’s existing high volume
customers. The record demonstrates that the parties
compete with each other as well as with other
18

Minerva also points to Hologic’s unsuccessful launch of
NovaSure 4.0, which failed in early 2015, as a factor in the
fluctuating price for NovaSure. (D.I. 86 at 22)
19

According to Hologic, the most recent increase was the
result of the unexpected recall and exit from the market of
Johnson & Johnson’s competing “ThermaChoice” product, which
left a sudden, large demand that both Hologic and Minerva have
sought to satisfy. (D.I. 125)

125
endometrial ablation products (e.g., Johnson &
Johnson’s ThermaChoice and Boston Scientific’s
HTA), lower cost treatments and procedures (e.g.,
over-the-counter hormone pills and intrauterine
devices (“IUDs”)), and traditional surgical procedures
(e.g., hysterectomies and dilation/curettage). (D.I. 86
at 21-22; D.I. 87, exs. 30-33) This factor is neutral.
30. Hologic asserts that Minerva’s willful copying
shows irreparable harm. Hologic bases its copying
allegations on the similarity in key product features
of NovaSure and Minerva EAS (D.I. 11 at 9),20 as well
as the allegations of misrepresentation by Minerva
discussed above in relation to reputation and
goodwill. Minerva denies the copying allegations,
representing that it uses a different technology,21 a
single return electrode on the exterior of a plasma
forming array to ablate tissue. The plasma forming
array has a thin silicone membrane allowing thermal
ablation. Minerva’s technology is the result of seven
years of research, with FDA trials and patent
applications. Moreover, visual dissimilarity and
branding dispel confusion. (D.I. 86 at 5-7) This factor
is neutral.
31. Minerva argues that Hologic unreasonably
delayed bringing the lawsuit and present motion,
which should weigh against a finding of irreparable
harm. Hologic had some notice and knowledge of
Minerva EAS as it investigated acquiring Minerva in
2011-12 with information provided pursuant to a

20

At least two physicians noted the similarities in the
technology. (D.I. 115, ex. 8; D.I. 116, ex. 66 at 32624)
21

Minerva represented to the FDA that Minerva EAS was
“almost dead identical to NovaSure except [that it uses] plasma
energy (RF).” (D.I. 116, ex. 67)

126
non-disclosure agreement. Hologic avers that the
FDA approved Minerva EAS in August 2015, Hologic
obtained a device in September 2015 to analyze
whether there was a good faith basis for
infringement, filed the present lawsuit in November
2015, and moved for the present injunction in
December 2015. While Hologic’s initial investigation
may not have been focused on infringement, it does
appear that the timing of its lawsuit and motion
strategically coincides with the launch and starting
sales of Minerva EAS. Hybridtech, Inc. v. Abbott
Labs., 849 F.2d 1446, 1457 (Fed. Cir. 1988) (“A period
of delay is but one circumstance that the district
court must consider in the context of the totality of
the circumstances.”). This factor is neutral.
32. Irreparable harm – conclusion. Based on
the arguments presented above, most of the factors
presented to the court are neutral. Therefore, Hologic
has not demonstrated irreparable harm due to
competition from Minerva.
33. Balance of harms. This factor is largely
neutral. Hologic alleges that it has invested heavily
in making NovaSure the leading treatment in
endometrial ablation through additional clinical work
and research, training and education for physicians,
and training a salesforce. The court has determined
that Hologic may be adequately compensated by
money damages. Although Minerva took a calculated
risk launching its product, an injunction precluding
Minerva from selling its only product would cause it
great harm.
34. Public interest. This factor is largely neutral.
Although the public has an interest in protecting
valid patents, patients have an interest in new
developments in medical technologies. Each party

127
holds up data and argument regarding “safety and
efficacy” for the court to consider in the present
analysis. The FDA has approved Minerva EAS and
any analysis of the safety and efficacy thereof is
outside the purview of the court in the present
context.
35. Conclusion. For the foregoing reasons,
Hologic’s motion for preliminary injunction (D.I. 9) is
denied.
/s/ Sue L. Robinson
Senior United States District Judge

128
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
Civ. No. 15-1031-SLR
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
MEMORANDUM ORDER
————
At Wilmington this 24th day of April, 2017, having
heard argument on, and having reviewed the papers
submitted in connection with, the parties' proposed
claim construction;
IT IS ORDERED that the disputed claim language
of U.S. Patent Nos. 6,872, 183 (“the ’183 patent”),
9,095,348 (“the ’348 patent”), 8,998,898 (“the ’898
patent”), and 9,247,989 (“the ’989 patent”) shall be
construed consistent with the tenets of claim
construction set forth by the United States Court of
Appeals for the Federal Circuit in Phillips v. AWH
Corp., 415 F.3d 1303 (Fed. Cir. 2005), as follows:
1. “Pressure sensor:”1 “A device whose input
detects, directly or indirectly, a force per unit area
and outputs a corresponding electrical signal.”
Plaintiffs had proposed “a device that senses
pressure,” and defendant had proposed “a device
whose input detects a force per unit area and that
outputs a corresponding electrical signal.” (D.I. 155 at
1

Found in ’183 patent, claims 1 and 9.

129
1) At oral argument, the court articulated the above
construction, and the parties agreed with the
exception of the “or indirectly” component. (D.I. 225
at 37:25-38:27) Defendant argued that the pressure
sensor must measure the force per unit area
“directly.” (D.I. 199 at 3) Plaintiffs contended that
indirect forms of measuring pressure are equally
valid. (D.I. 201 at 7; D.I. 202 at ¶ 19) The
specification describes a “pressure sensing system”
that monitors the presence of a perforation in the
uterus:
Pressure sensing system 24 monitors the
pressure within the body cavity BC while
fluid/gas is being (or after it has been) delivered
to the body cavity, and detects whether elevated
pressure
can
be
maintained
above
a
predetermined
threshold
level
over
a
predetermined period of time. If it cannot, the
user is alerted that there may be a perforation in
the organ.
(’183 patent, 2:37-43; see also id., abstract; 1:53-57;
5:18-37) Nothing in the specification requires the
pressure sensor to measure pressure “directly” so
long as the pressure sensor can “detect whether
elevated pressure can be maintained [in the
uterus] . . . over a predetermined period of time.”2
2

Defendant presented extensive extrinsic evidence to support
its argument that a pressure sensor must measure pressure
directly and cannot measure pressure indirectly. Dr. Robert
Tucker (“Dr. Tucker”) opined that a person having ordinary skill
in the art “would know that pressure can be measured in
millimeters of mercury (‘mmHg’) . . . that refers to a size of a
column of elemental mercury that can be supported by the force
exerted by a given amount of pressure.” (D.I. 200 at ¶ 23) The
data sheet for the SenSym amplified SCX series sensor
(identified as an example embodiment in the ’183 patent)

130
2. “Monitoring:”3 “Monitoring.”4
3. “Applicator head:”5 “A distal end portion of
an ablation device that applies energy to the uterine
tissue.”6 Claim 1 of the ’348 patent recites:

measures pressure by its effect on “an integrated circuit sensor
element.” (D.I. 172, ex. P at A-3) In these examples, the
measurement is based upon the effect of pressure on a physical
component (e.g., a column of mercury or a semiconductor) and
known
physical
relationships
(gravity,
temperature,
atmospheric pressure, and so forth). Dr. Gregory T. Martin (“Dr.
Martin”) explained that “[i]n fact, commercially available
pressure sensors almost always measure pressure by some
indirect means.” (D.I. 202 at ¶ 19) Based upon this record,
defendant’s proposed construction (limiting the term to “direct”
measurement) would exclude commercially-available pressure
sensors from the scope of the term “pressure sensor.”
3

Found in ’183 patent, claims 1, 5-7, 9, and 11.

4

The court adopts plaintiffs’ proposal. Defendant proposed
“measuring a condition in a system” but did not identify any
support in the specification for such a construction. (D.I. 199 at
13-14)
5
6

Found in ’348 patent, claims 1, 5, 8, and 12.

The court adopts plaintiffs’ proposal. Defendant proposed
“an applicator having a permeable or absorbent tissue
contacting surface into which moisture is drawn.” (D.I. 155 at 2)
The specification describes the shortcomings of the prior art
methods including that “water drawn from the tissue creates a
path of conductivity through which current traveling through
the electrodes will flow” and “the heated liquid around the
electrodes causes thermal ablation to continue well beyond the
desired ablation depths.” (’348 patent, 2:9-19) The specification
also states that “liquid build-up at the ablation site is
detrimental.” (Id. at 11:1-13) Defendant presented extensive
argument for reading these limitations from the specification
into the claims. (D.I. 199 at 15-24) However, "[t]he court
concludes that such disclosures do not rise to the level of
disclaimer, sufficient to narrow the disputed claim limitation as
desired by [defendant].” (D.I. 127 at 11, n.10)

131
A device for treating a uterus comprising:
....
an applicator head coupled to the distal portion,
the applicator head defining an interior volume
and having a contracted state and an expanded
state, the contracted state being configured for
transcervical insertion and the expanded state
being configured to conform to the shape of the
uterus, the applicator head including one or
more electrodes for ablating endometrial lining
tissue of the uterus; . . .
(’348 patent, 19:9-21) The ’348 patent describes an
embodiment with reference to figures 1 and 2 in
which
an ablation device . . . is comprised generally of
three major components: RF applicator head 2,
main body 4, and handle 6. . . . The RF applicator
head 2 includes an electrode carrying means 12
mounted to the distal end of the shaft 10 and an
array of electrodes 14 formed on the surface of
the electrode carrying means 12.
(’348 patent, 4:55-61; figures 1 & 2, item 2) In
another embodiment,
applicator head 102 extends from the distal end
of a length of tubing 108 which is slidably
disposed within the sheath 104. Applicator head
102 includes an external electrode array 102a
and an internal deflecting mechanism 102b used
to expand and tension the array for positioning
into contact with the tissue.
(’348 patent, 12:3-8; figure 23, item 102)

132
4. “An energy applicator:”7 “An applicator of an
ablation device that delivers energy to the uterine
tissue.” The court adopts plaintiffs’ construction for
the same reasons as “an applicator head,” above.
5. “A working end:”8 “A distal end portion of an
ablation device that applies energy to the uterine
tissue.” Claim 1 of the ’898 patent recites an “ablation
device comprising a tubular member coupled to a
working end, the working end comprising a first
electrode and a second electrode” (’898 patent, 19:3133) The specification describes that “[a]n ablation
device is provided which has an electrode array
carried by an elongate tubular member” and “[d]uring
use, the electrode array is positioned in contact with
tissue to be ablated, ablation energy is delivered
through the array to the tissue.” (’898 patent, 2:3844)
6. “An indicator mechanism:”9 “A mechanism
configured to indicate a dimension.”10 Claim 1 of the
’348 patent recites “an indicator mechanism operably
coupled to the inner sleeve, the indicator mechanism
configured to indicate a dimension of the uterus.”
(’348 patent, 19:40-42) With reference to the second
embodiment of the ’348 patent, the “ablation
device . . . includes a measurement device for easily
measuring the uterine width and for displaying the
measured width on a gauge 146.” (’348 patent, 14:337

Found in ’989 patent, claims 1, 11, 13-15.

8

Found in ’898 patent, claims 1-5, 14, and 22.

9

Found in ’348 patent, claim 1.

10

The court adopts plaintiffs’ proposal. Defendant proposed “a
measuring device used to display a value in units of measure.”
(D.I. 155 at 2) Nothing in the specification suggests that
applicant intended to limit “an indicator mechanism” to devices
that solely display uterine widths in “units of measure.”

133
36; see also id., 15:55-56) Figure 32b shows that “dial
face 158 includes calibration markings corresponding
to an appropriate range of uterine widths.” (Id.,
14:47-49; figure 32b, item 158)
7. “One or more electrodes:”11 “One or more
electrical conductors.” The “applicator head” in claim
1 of the ’348 patent “includ[es] one or more electrodes
for ablating endometrial lining tissue of the
uterus.”12, 13 (’348 patent, 19:19-21) Extrinsic
evidence: a technical dictionary definition of
“electrode” is “[a]n electrical conductor through which
an electric current enters or leaves a medium.” (D.I.
161, ex. 21 at 3)
8. “At least one electrode:”14 “One or more
electrical conductors.”15
9. “First and second electrodes:”16 “First and
second electrical conductors.”17

11

Found in ’348 patent, claim 1.

12

The court adopts plaintiffs’ proposal. Defendant proposed
that “each electrode has a polarity and contacts the tissue
surface during ablation.” (D.I. 155 at 2-3) Nothing in the
specification suggests applicant intended to limit the claim term
to having a polarity or to contacting the tissue surface during
ablation.
13

Claim 1 of the ’348 patent is a system claim. The
construction proposed by defendant constrains the manner in
which the claim limitation (“at least one electrode”) is used (in
contact with the tissue surface). Such a construction would
make the claim indefinite. See IPXL Holdings, L.L.C. v.
Amazon.com, Inc., 430 F.3d 1377, 1384 (Fed. Cir. 2005) (holding
a claim invalid for claiming a system and a method for using
that system).
14

Found in ’989 patent, claim 2.

15

See supra note 12.

16

Found in ’898 patent, claims 1, 8, 14, and 22

134
10. “Sack:”18 “An electrode-carrying member
having a bag-like shape.” Claim 3 recites “[t]he
method of claim 2 wherein the working end includes
a sack comprised of a non-conductive material.” (’898
patent, 19:47-48) With respect to the first
embodiment, the specification states that “[e]lectrode
carrying means 12 is preferably a sack formed of a
material which is non-conductive, which is permeable
to moisture and/or which has a tendency to absorb
moisture, and which may be compressed to a smaller
volume and subsequently released to its natural size
upon elimination of compression.” (’898 patent, 5:5863) Defendant argued that the additional limitations
(i.e., permeability, moisture absorption, and
compression) from this embodiment should be
included in the construction. (D.I. 199 at 21-22; D.I.
155 at 2) Applicant chose to explicitly limit the “sack”
in claim 2 to “non-conductive material,” but nothing
in the intrinsic record suggests that applicant
intended the term to implicitly include the
limitations proposed by defendant.
11. “Balloon:”19 “An inflatable member.” The
specification discloses an embodiment in which “a
pair of inflatable balloons 52 may be arranged inside
the electrode carrying means 12 as shown in figure
20.” (’898 patent, 9:3-5) Defendant proposed “an
inflatable
member
inside
the
energy
17

The court adopts plaintiffs’ proposal. Defendant proposed
that “the first and second electrodes are of opposite polarity and
each contacts the tissue surface during ablation.” (D.I. 155 at 23) Nothing in the specification suggests applicant intended to
limit the claim term to having opposite polarities or to
contacting the tissue surface during ablation.
18
19

Found in ’898 patent, claim 3.

Found in ’898 patent, claims 4, 5; ’989 patent, claims 5, 6,
17, 18.

135
applicator/working end and not in contact with the
tissue.” (D.I. 155 at 2-3) Defendant presented
attorney argument that “[t]he ‘balloon’ itself does not
contact the tissue. Rather, a purpose of balloon 52 is
to be inflated and thereby hold the external
electrodes ‘in contact with the interior surface of the
organ to be ablated.’” (D.I. 199 at 31 (citing ’898
patent, 8:59-60)) While the disclosed embodiment
includes the balloon inside the “electrode carrying
means 12,” which is the “energy applicator” or
“working end” in the relevant patents, nothing in the
specification suggests this is the only possible
embodiment. Moreover, a balloon located inside the
“stretchable metallized fabric mesh” of the “RF
Applicator Head” of the second embodiment may
contact uterine tissue. Therefore, the court adopts
plaintiffs’ proposal.
12. The court has provided a construction in quotes
for the claim limitations at issue. The parties are
expected to present the claim construction
consistently with any explanation or clarification
herein provided by the court, even if such language is
not included within the quotes.
/s/ Sue L. Robinson
Senior United States District Judge

136
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 15-1031-SLR-SRF
————
HOLOGIC, INC. and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
v.
MINERVA SURGICAL, INC.,
Defendant and Counterclaimant.
————
JURY TRIAL DEMANDED
————
DECLARATION OF CSABA TRUCKAI
————

137
TABLE OF CONTENTS
I. THE ’348 AND ’989 (“MOISTURE
TRANSPORT”) PATENTS.............................

1

A. The Moisture Transport Prototypes and
Patents .....................................................

1

B. Minerva’s Accused Plasma Formation
Array (PFA) Technology ..........................

9

C. The Development of Minerva’s Accused
Device .......................................................

12

D. Minerva’s PFA Patents ............................

17

II. THE ’183 PATENT VERSUS MINERVA’S
UTERINE INTEGRITY TEST (UIT) ...........

19

A. The Pressure Sensor Family and
Prototypes................................................

19

B. The ’183 Patent-Related Prototypes.......

20

C. The Development of Minerva’s UIT .......

23

III. SUPPORTING REFERENCES ....................

29

138
I, Csaba Truckai, declare as follows:
1. I am the current President and Chief Executive
Officer of Corinth MedTech, Inc., in Cupertino,
California. I am also a current Director of Minerva
Surgical, Inc. in Redwood City, California – a company
I founded in 2008. I am also a named inventor on over
140 U.S. patents and approximately the same number
of pending patent applications.
2. I have founded and served as an executive in a
number of medical device companies over the past 20
years. One such company was Novacept, Inc., which I
co-founded in 1993 and which was located in Palo Alto,
California, at the time. A copy of my Curriculum Vitae
is at MSI00299668-669 (Ref. 1).1
3. I served as President of Novacept until March
2000. Novacept marketed a product called the
NovaSure endometrial ablation system, which my
team and I designed and developed. The NovaSure
system consists of two primary components: a nondisposable Radio Frequency (“RF”) Controller and a
disposable handpiece. By the late 1990’s, our development efforts led to the final design of our NovaSure
endometrial ablation system that received FDA
approval in 2001, and which Novacept then began to
sell commercially.

1

Throughout my report I refer to certain references. I have not
attached these references directly to this declaration, although I
do expressly incorporate them by reference. Each reference I cite
in this document has been produced in this litigation, and I
include a chart at the end of my declaration identifying the Bates
number for each.

139
I. THE
’348
AND
’989
TRANSPORT”) PATENTS

(“MOISTURE

A. The Moisture Transport Prototypes and
Patents
4. In the mid-to-late 1990s, my co-inventors and I
designed various prototypes for use in the ablation of
human tissue, including prototypes for an endometrial
ablation device. In that same timeframe we filed
a number of applications with the U.S. Patent &
Trademark Office (Patent Office) based on these
prototypes. Our initial prototype for use in the uterus
consisted of three basic components, as was common
at the time for such surgical devices, including: (i) a
handle; (ii) a slender tube used for inserting the device
into the uterus via the cervical canal; and (iii) an
applicator head (i.e., the distal end of the device)
designed to be inserted in a compressed state,
and then expanded into an uncompressed state that
approximates the roughly triangular shape of the
uterus. See e.g., U.S. Patent No. 5,443,470, (Ref. 2),
Figs. 1 and 12, disclosed in the “Background” section
of the ’348 and ’989 patents (i.e., the “Asserted
Moisture Transport patents”):

140
5. Our initial prototype for what evolved into the
NovaSure handpiece included the following features:


The exterior, tissue-contacting portion (which
I will refer to as the “external electrode array”)
of the applicator head was composed of a
liquid-permeable mesh designed to draw the
tissue in close contact with the bipolar electrodes to deliver RF energy to the targeted
tissue, and to permit moisture and steam
generated as a result of the RF tissue heating
process to be drawn into the interior of the
applicator head for subsequent evacuation
through a central tube;



Our prototype was Radio Frequency-only (i.e.,
an RF-only) ablation device with the electrodes
(both positive and negative) located on the
exterior surface of the external electrode array
because they had to contact the uterine tissue
in order to deliver energy and ablate the tissue;



We experimented with various patterns of
positive and negative electrodes on the surface
of the array, but in all cases the electrodes
were placed on the exterior surface of the array
so that they could contact the tissue;



By the mid-1990s, we understood that it was
detrimental to the operation of our prototype
device to allow a layer of moisture to build up
between the electrodes and the uterine tissue
for all the reasons we described and disclosed
in our patents and provisional identified
below; and



We also tried prototypes where the distal end
was made of an absorbent material (e.g., open
celled sponge) in order to draw moisture into

141
the distal end and away from the electrode/
tissue interface.
6. On April 12, 1996, based on our initial
prototyping efforts, my co-inventor, Dr. David Auth,
and I filed U.S. Patent Application No. 08/632,516.
The ’516 Application later issued as U.S. Patent No.
5,769,880 (the ’880 patent). Ref. 3. The ’880 patent
generally describes an endometrial ablation device
with a tissue-contacting surface composed of either a
permeable mesh or an absorbent material (e.g., open
cell sponge). By April 12, 1996, Dr. Auth and I had
realized that it was very important to the effective
operation of our device to actively or passively draw
the moisture into the external electrode array and
away from the uterine tissue during ablation. This
initial prototype, on which the disclosures in the ’880
patent were based, had a syringe-like handle with
finger grips.
7. Over approximately the next two years, we
continued to refine our initial prototype. In that
timeframe we came to realize that it was not just
important, but critical, to the effective operation of our
device to use suction to actively draw the moisture into
the applicator head using a permeable mesh array and
away from the uterine tissue during ablation. Basically, our experiments showed that the failure to
prevent the formation of a moisture layer between our
surface electrodes and the tissue would result in an
uncontrolled and uneven depth of ablation. We concluded that the failure to draw the moisture away from
the tissue and into the array during the ablation was
highly detrimental to the operation of our prototype of
the NovaSure for at least several reasons, the details
of which we disclosed to the Patent Office in the

142
specification of our patents as well as our May 8, 1998
provisional application.
8. To summarize, the presence of a moisture layer
would: (i) divert the current from flowing through the
target tissue; (ii) cause undesirable thermal ablation
by heating the moisture layer in an uncontrolled way;
(iii) interfere with how the system controlled the depth
of ablation; and (iv) draw more current than necessary
to perform the ablation. I believed at the time (as I still
do today) that it is highly undesirable to use more
electric current than necessary inside the human
body.
9. In the late 1990’s, I considered the mechanism I
describe above and used in our prototype for drawing
moisture into the applicator head and away from the
tissue to be the “moisture transport” system central to
the proper operation of all of our endometrial ablation
prototypes, as reflected by the title and content of our
various filed applications including the May 8, 1998
provisional I describe below.
10. Due to the importance of our moisture
transport system, our refined prototype used only a
permeable metallic mesh external electrode array (we
no longer considered a merely absorbent external
electrode array to be an option). Our refined design
also included the addition of holes along the outer
flexures (to better draw moisture across and into the
mesh array), as well as the non-optional use of suction
to actively draw moisture away from the tissue so that
it could be evacuated through a tube inside the array
(illustrated as item 122 of Fig. 23 below). We illustrated and described our moisture transport system—
including the permeable mesh and its advantages
over prior art non-permeable RF balloons and other

143
thermal techniques—in our various applications; see
e.g., Ref. 4, Figs. 23, 26A showing the mesh, and Fig.
28 showing the moisture being drawn into the array:

FIG. 23

FIG. 26A

144

FIG. 28
11. On May 8, 1998, based on our refined
prototype, Novacept filed U.S. Provisional Application
No. 60/084,791 (the “Moisture Transport” or “MT”
Provisional), titled, “Moisture Transport System for
Contact Electrocoagulation.” Ref. 5. The MT Provisional lists me and four other individuals (Russel
Sampson, Stephanie Squarcia, Alfonzo Ramirez, and
Estela Hilario) as inventors/applicants.
12. On June 23, 1998, shortly after filing the
MT Provisional, Novacept filed U.S. Application No.
09/103,072. The ’072 application issued as U.S. Patent
No. 6,813,520 (the ’520 patent). The ’520 patent is
titled, “Method For Ablating And/Or Coagulating
Tissue Using Moisture Transport,” and lists me and
four other individuals (Russel Sampson, Stephanie
Squarcia, Alfonzo Ramirez, and Estela Hilario) as
inventors. Ref. 4. The ’520 patent is a continuation-inpart of the ’880 and claims the benefit of U.S. Provisional Application No. 60/084,791. Our refined prototype, on which the disclosures in the MT Provisional
and ’072 application were based, used a handle with
distal and proximal grips pivotally attached at a pivot
point, rather than the earlier syringe-like handle.

145
13. The above filings with the Patent Office basically reflect the evolution of our endometrial ablation
prototypes during the mid-to-late 1990s. The final
design of the distal end of our NovaSure endometrial
ablation system, which received FDA approval in
2001, included a permeable metallic mesh external
electrode array as I show below:

14. Prior to May 8, 1998 (or even June 23, 1998),
the exterior, tissue-contacting surface of the applicator
head of our endometrial ablation system prototypes
(on which we based our patent applications) were
made of a fluid-permeable mesh or an absorbent material (I recall trying gray open cell urethane packaging
foam). At no time prior to May 8, 1998 (or even June
23, 1998) did our endometrial ablation system prototypes use a non-permeable external membrane (e.g., a
balloon), as that would have frustrated the entire
purpose of our moisture transport system.
15. At no time prior to May 8, 1998 (or even June
23, 1998) do I recall any of our prototypes for an
endometrial ablation device including an internal
electrode designed and/or intended to remain out of
contact with the tissue.

146
16. At no time prior to May 8, 1998 (or even June
23, 1998) do I recall any of our prototypes for an
endometrial ablation device including any sort of
plasma formation capability; nor do I recall my coinventors and I even discussing how to use plasma to
ablate uterine tissue, much less how to use an internal
electrode to ignite an inert noble gas to create an
ionized plasma for ablating uterine tissue through a
non-permeable, thin-walled, sealed silicone membrane.
17. Novacept was sold to Cytyc Corporation in
2004. In 2007, Cytyc Corp. was in turn acquired by
Hologic, Inc. Over time, the various owners filed a
series of applications all stemming directly from the
’520 patent, all listing me as a named inventor. I show
the sequence over time of filings that led to the
Asserted Moisture Transport patents (highlighted in
yellow) in the chart below. See also Ref. 37 (MT Family
Genealogy):
FILING DATE

APPLICATION

ISSUED AS

May 8, 1998

MT Provisional
Application No.
60/084,791

N/A

June 23, 1998

U.S. Application U.S. Patent No.
No. 09/103,072
6,813,520

October 6, 2004

U.S. Application U.S. Patent No.
No. 10/959,771
7,604,633

October 19, 2009

U.S. Application U.S. Patent No.
No. 12/581,506
8,506,563

August 8, 2013

U.S. Application U.S. Patent No.
No. 13/962,178
9,095,348

147
May 15, 2014

U.S. Application U.S. Patent No.
No. 14/278,741
8,998,898

March 2, 2015

U.S. Application U.S. Patent No.
No. 14/635,957
9,247,989

18. On August 8, 2013—five years after Minerva
was formed—Hologic filed the first of two applications
describing the moisture transport system now being
asserted against Minerva in this lawsuit. Specifically,
Hologic filed U.S. Patent Application No. 13/962,178,
which issued as U.S. Patent No. 9,095,348. Ref. 6.
19. On March 2, 2015—seven years after Minerva
was formed—Hologic filed U.S. Patent Application No.
14/635,957. In November 2015, Hologic sued Minerva
in this case. About three months later, the ’957 Application issued on February 2, 2016, as U.S. Patent No.
9,247,989 (the ’989 patent). Ref. 7 (highlighted in
yellow in chart above). The ’989 patent is the second of
the two moisture transport system patents now being
asserted against Minerva in this lawsuit.
20. Collectively, I will refer to the ’348 and ’989
patents as the “Asserted Moisture Transport” or
“Asserted MT” patents. I am aware from my experience with patents that because the Asserted MT
patents are direct descendants of the ’520 patent, they
share a common specification with the ’520 patent (i.e.,
basically only the claims of each patent starting with
the ’520 are different). See Ref. 37.
B. Minerva’s Accused Plasma Formation Array
(PFA) Technology
21. Minerva began the development of a plasmaformation array in 2008—ten years after we filed our
May 8, 1998 Moisture Transport Provisional.

148
22. Minerva refers to the distal end (i.e., the
portion that a surgeon deploys inside the uterus to
ablate the tissue) of its disposable handpiece as a
Plasma Formation Array (“PFA”). Unlike the NovaSure,
the exterior of Minerva’s PFA consists of a smooth,
non-permeable (i.e., fluid tight) sealed silicone
membrane carefully selected for its conductive properties. The non-permeable sealed silicone membrane is
designed to enclose an inert Argon gas that circulates
within the membrane. Both prior to and during an
ablation procedure, the Argon flows into, circulates,
and flows out of the membrane via a lumen in the
center of the Minerva device.
23. In the center of the PFA is, among other things,
an electrode of one polarity. That inner electrode is
enclosed within the non-permeable, sealed silicone
membrane, and thus does not contact the uterine
tissue. The inner electrode is used to ignite the Argon
gas and thereby create a plasma, which in turn,
creates filaments that strike the inner surface of the
membrane. See e.g., Ref. 33 (Video of PFA in action;
filaments appear as blue microbolts); see illustration
below:

149
24. As may be obvious, Minerva’s PFA simply
would not work if the external membrane was permeable for a number of reasons, including that the Argon
gas would escape into the uterine cavity, would not
circulate properly within the membrane, and would be
contaminated by moisture and thus could not be
ignited. Basically, if perforated, our PFA would not
function as intended. In fact, as I discuss below with
respect to our UIT, our Minerva system would alert
the physician if a perforation in the PFA were
detected.
25. The second “return” electrode of the opposite
polarity consists of two conductive strips located on
the exterior narrower sides of the PFA.
26. The Minerva PFA relies on three mechanisms
to ablate the uterine tissue: two thermal and one RF.
The primary mechanism used by Minerva’s PFA is
thermal. During the ablation procedure, plasma filaments strike the interior surface of the silicone
membrane (i.e., not the tissue). This action creates
heat along the interior surface of the membrane. That
heat is conducted through the membrane to its
exterior surface, where the heated exterior surface of
the PFA starts ablating the adjacent uterine tissue.
27. The second mechanism used by Minerva’s PFA
is also thermal. The uterine cavity is naturally moist
to some extent. However, as uterine tissue begins to
ablate, the cells of the endometrium begin to desiccate
and exude moisture (essentially saline). By design,
because Minerva’s PFA has a sealed, non-permeable
outer membrane, it purposely retains the moisture in
the uterine cavity as that moisture builds up during
the ablation. Because the exterior surface of the PFA
heats up, it also heats the retained moisture.

150
28. Importantly, uterine tissue is not flat. It is
composed of millions of tiny folds of tissue. The moisture heated by Minerva’s PFA flows into those folds
during the ablation, resulting in a more gentle and
even ablation of the uterine tissue than we were able
to achieve with the NovaSure design. Minerva’s PFA
thus relies on the presence of the heated moisture
within the cavity as a second thermal mechanism to
ablate the tissue. Minerva’s handpiece purposefully
does not use the older moisture transport mechanism
to draw fluid/steam away from the uterine tissue and
into the interior of the PFA.
29. The third mechanism used by Minerva’s PFA
is a radio frequency (RF) mechanism. A relatively
small amount of RF current (as compared to the
NovaSure) flows between the single internal electrode
and the second external “return” electrode on the
exterior of the PFA. During the ablation, a small
amount of RF current travels through the plasma, the
non-permeable silicone membrane and the uterine
tissue.
30. Also, as I describe further below, the results of
our electro-chemical testing during the R&D phase of
our PFA design revealed a surprising and nonpredictable benefit due to the physics of how the
plasma energy and RF current would very rapidly
seek out the low-impedance paths through the target
tissue (the “scanning” mechanism I describe in more
detail below). Due to the unique and novel physics of
Minerva’s design, the plasma energy and small
amount of RF current effectively seeks out the less
ablated tissue, thereby facilitating a more gentle and
even ablation while using roughly a quarter of the
power used by the NovaSure endometrial ablation
system.

151
C. The Development of Minerva’s Accused
Device
31. Starting in approximately March/April 2008,
my team and I began exploring an initial concept as a
first step in a multi-year process that eventually
culminated in the current Minerva PFA design, which
the FDA approved for use in July 2015. This initial
concept was to make a lab bench prototype that would
ablate tissue with ionized gas in fulguration mode
using a prototype bi-polar Argon gas coagulator
with a porous ceramic membrane, as well as an
isolation/insulating gas (other than Argon) to control
the plasma distribution contacting the tissue. Due to
the thickness and variable pore size of the ceramic
membrane, the results of this initial electro-chemical
testing were not predictable.
32. This initial non-routine development and
testing extended through approximately August 2008.
In approximately August 2008, my team and I also
conducted an important experiment. This experiment
took place when, using a sheet of silicone (a “dielectric”) instead of the ceramic membrane as part of a
fulguration chamber, we accidentally discovered during a fulguration experiment that the sheet of silicone
had created a barrier discharge plasma-forming prototype that could ablate/coagulate tissue.
33. In approximately August 2008 (shortly before
Minerva was formed) and based on the accidental
discovery noted above, my team and I redirected
our efforts and modified our initial concept into an
alternative design. This alternative design became a
lab bench prototype that would ablate tissue through
heating of an impermeable dielectric layer (the silicone sheet). The distal end of the prototype had to
create one or more a fluid-tight interior chambers to

152
hold the gas, which allowed formation of a barrier
discharge plasma. The use of this dielectric layer
allowed for a complete physical separation between
the tissue and the plasma. Moreover, we learned that
the use of a smooth silicone membrane had another
advantage in comparison to older technologies such as
the NovaSure disposable handpiece; namely, our
smooth silicone membrane prevented tissue charring
and/or sticking following the ablation (e.g., Ref. 8 at
p.3).
34. Our modified design used two impermeable
members that formed the two poles of the bipolar
system. The two impermeable members were separated by a third chamber that contained isolation/
insulating gas (other than Argon) to prevent arcing.
We faced numerous choices, setbacks and challenges
in coming up with a final distal configuration for our
PFA. For example, we experimented with different
thicknesses of the membrane, including having a
membrane with regions of different thicknesses in
order to alter the applied energy and depth of ablation
in each region (e.g., Ref. 8 at p.3). We experimented
with membranes having different dielectric constants
to affect the depth of ablation; as well as a membrane
with a gradient in dielectric constant to thereby
provide a gradient in depth of energy delivered to the
tissue (e.g., Ref. 8 at p.4). We experimented with
having multiple interior chambers for the gas, each
with its own interior electrode (e.g., Ref. 8, Fig. 5). We
also experimented with different shapes and configurations of the membrane (e.g., Ref. 8, Figures). At the
time, for a particular configuration, for example, we
thought that it was preferable to use a dielectric
constant of at least 5 (e.g., Ref. 8 at p.4).

153
35. Our experimentation continued through
approximately February 2009. The progression of our
prototyping efforts from roughly late summer 2008
through early 2009 is reflected in the following
sequence of videos and photos taken on or about this
time period by our team. See Exs. 17 to 22.
36. Starting in approximately March 2009,
Minerva conducted further experiments demonstrated
on the bench that showed that the design concept for
the PFA could be further reduced to a single impermeable (dielectric) membrane with a small nonheating electrode because of the unique electrical
characteristics of the ionized Argon gas. An important
breakthrough is that we came to understand what we
called the “scanning” mechanism we had developed
and how it led to a more controlled, rapid and even
ablation. Simply put, the high intensity electric field
that we were able to successfully generate inside the
membrane would convert the gas into a plasma. In
turn, this allowed plasma filaments (seen as tiny blueglowing filaments in our videos) to form within the
membrane. Those filaments appear to “jump” or “scan”
around the interior surface of the membrane in a
random fashion.
37. As I previously noted, as uterine tissue begins
to ablate, the cells of the endometrium begin to
desiccate. As they desiccate, they also become more
resistive to current flow (i.e., the impedance through
that tissue increases). Due to the novel physics of
our PFA technology, the filaments are, in effect, drawn
to the path of least resistance though the tissue—
which happens to be the tissue that requires further
ablation. As the target tissue becomes ablated, its
impedance increases and eventually reaches a threshold where the amount of power being delivered is then

154
reduced resulting in the desired depth of ablation.
E.g., Ref. 9 at 10:63 – 12:59 and Figs. 9A to 10.
38. In the course of our experimentation, we also
discovered that the external “return” electrode can
have a relatively small surface area and yet not be
subject to significant heating. Ref. 9 at 12:47-50. We
also continued to experiment with different shapes
including variants with sharp tips for ablation of a
tumor, electrosurgical jaw structures, as well as more
balloon-like membranes for cardiac and other uses.
One prototype had more of a cylindrical shape, while
another had several needle-like ablation elements
(e.g., Ref. 9 (Figures)). We also continued to experiment with different thicknesses of dielectric. Toward
the end of our experimentation with this revised
design, the tissue-contacting electrode of a single
polarity was moved to the exterior surface of the
impermeable membrane (e.g., Ref. 9 at 10:34-37).
39. The progression of our prototyping efforts from
roughly March 2009 through summer 2009 is reflected
in the following sequence of videos and photos taken
by our team during roughly this time period. See Exs.
23 to 32.
40. With this work completed, the next phase of
the project was to evolve the same concept into a
design that was incorporated into an actual medical
device circa June 2009. The design of our disposable
handpiece continued to evolve until Q1 2011, in
advance of Minerva’s clinical trials. We continued to
make a few modifications to the overall system
culminating in our final Generation 2 design, which is
FDA approved.
41. To summarize, my team and I had to perform
numerous experiments during the development

155
phases described above to eventually arrive at the
final, working design of Minerva’s PFA. As my filings
with the Patent Office show, our experiments during
these phases helped us determine, for example:


The novel use of plasma to ablate tissue (e.g.,
Ref. 9 at 7:51-67; Ref. 11 at 5:10-49);



How my novel “scanning” mechanism worked
(e.g., Ref. 9 at 10:63 – 12:59 and Figs. 9A to 10);



The right degree of plasma ionization needed
to create a “cold” plasma and how that degree
of ionization is related to temperature (e.g.,
Ref. 9 at 8:36-9:3);



The need to create a sealed, fluid-tight interior
chamber to hold the gas (e.g., Ref. 11 at 7:5963);



What type of gas to use within the fluid-tight
interior chambers of our various prototype
configurations (e.g., Ref. 9 at 3:41-43 (“Argon
or another noble gas)) and later in our PFA
(e.g., Ref. 11 at 2:54-59 (“Argon”));



The preference for the inert gas to have a gas
inflow channel and gas outflow channel so that
the gas can circulate and continuously flow
within the interior chamber to maintain plasma quality (e.g., Ref. 9 at 13:51-54; Ref. 11 at
2:8-12, 2:43-46, 3:25-28 and 6:10-11);



The appropriate shape, composition and thickness of the sealed thin-walled membrane (e.g.,
Ref. 11 at 2:28-31, 3:5-11, 4:12-13, 6:21-28 and
11:17-19);



How to ignite and control the gas within the
fluid-tight interior chamber (e.g., Ref. 9 at
7:25-39);



156
How to capacitively couple the ionized plasma
to the tissue via a thin-walled dielectric membrane to deliver RF current to ablate the target
tissue (e.g., Ref. 9 at 10:63-11:8);



How the use of a smooth silicone membrane
had the advantage that it prevented tissue
charring and/or sticking to the device following
the ablation (e.g., Ref. 8 at p.3);



The design of the internal electrode (e.g., Ref.
9 at 3:10-14);



The importance of the first polarity internal
electrode having exposure to all regions of the
neutral gas and plasma within the interior
chamber (e.g., Ref. 11 at 6:42-47);



The interaction and relative placement of the
internal electrode versus the external electrode (e.g., Ref. 11 at 3:56-60, 8:35-39 and 8:4851);



A preferred volume for the interior chamber
(e.g., Ref. 11 at 3:38-39);



The need for a low pressure in the interior
chamber (e.g., Ref. 11 at 6:36-42 and 11:21-25);



A practical degree of ionization for the membrane to provide feedback control of applied
power (e.g., Ref. 9 at 8:36-47);



A workable flow rate of the non-conductive gas
(e.g., Ref. 11 at 3:64-65 and 11:15 16);



The proper level of RF power and frequency
needed to be delivered to the PFA over the
duration of the procedure (e.g., Ref. 11 at
11:27-31);



157
The ranges of voltage, current and frequency
delivered by the RF power source to the PFA
(e.g., Ref. 11 at 2:47-53);



The dependence of the threshold voltage at
which the neutral gas becomes conductive on
various factors (e.g., Ref. 9 at 7:15-22 and
13:13-21);



An appropriate delay between the initial flow
of Argon gas and when the controller begins
delivery of RF power to allow circulatory gas
flow (e.g., Ref. 9 at 13:21-24);



Achievable ablation depths (e.g., Ref. 9 at 6:5762 and Ref. 11 at 11:2-5);



How to control the depth of the ablation (e.g.,
Ref. 9 at 16:44-48);



An appropriate time interval for the ablation
(e.g., Ref. 11 at 11:31-34);



The method (i.e., steps) of operation (e.g., Ref.
11 at 4:56-64, 9:50-57 and Fig. 8C); and



The design of the subsystem and its feedback
control systems for controlling operating parameters of the plasma (e.g., Ref. 11 at 9:14-48).
D. Minerva’s PFA Patents

42. On October 21, 2008, I filed U.S. Provisional
Application No. 61/196,870 (the “PFA Provisional”),
titled, “System for Tissue Ablation.” Ref. 8. I am the
named inventor on the PFA Provisional. The PFA
Provisional teaches the outcome and conclusions from
some of my early experimentation on the use of plasma
formation technology to ablate tissue.
43. U.S. Patent Application Nos. 12/541,043 and
12/541,050 were filed on August 13, 2009. These two

158
patent applications later issued as U.S. Patent Nos.
8,372,068 (the “PFA I” patent) and 8,382,753 (the
“PFA II” patent), respectively. Exs. 9 and 10. I am the
named inventor on these two Minerva patents.
44. My PFA I and PFA II patents reflect my
progress and illustrate some of my various prototypical configurations for electrosurgical devices and
methods for rapid, controlled ablation of tissue using
a current to ignite a plasma contained within a thin
dielectric layer. As the figures of the PFA I and II
patents show, at the time I was contemplating a
variety of different medical applications for the
plasma-based ablation technology, including a device
configured for ablation of various structures within
the human body, such as a tumor, pulmonary veins,
and cardiac applications, and of course endometrial
ablation, among others.
45. U.S. Patent Application No. 12/605,546 was
filed on October 26, 2009. This application later issued
as U.S. Patent No. 8,500,732 (the “PFA III” patent).
Ref. 11. Mr. Akos Toth and I are the named inventors
on this patent. I will refer to the PFA I, II and III
patents collectively as the “PFA Patents.” The specifications of Minerva’s PFA patents (which also incorporate the PFA Provisional by reference) collectively
disclose a significant amount of detail about the
findings my team and I made during our extensive
experiments with materials, configurations, and other
design elements in the time spent developing what is
now Minerva’s PFA.
46. I disclosed information about what we learned
from our many experiments to the U.S Patent &
Trademark Office in my PFA Provisional and PFA
patents since it has been my understanding that an
inventor should disclose sufficient information and

159
detail regarding his or her research, design and
experimentation to allow others in the field to make
and use the invention without having to “reinvent the
wheel,” so to speak.
47. As can be seen in the “References Cited”
sections of each of the three PFA Patents, during
prosecution Minerva (or Hermes) routinely disclosed
to the Examiner numerous patents including at least
several direct ancestors to the Asserted MT patents
(e.g., the 5,769,880 and 6,813,520 Truckai patents,
Exs. 3 and 4). See Ref. 9 at MSI00014351; Ref. 10
at MSI00013677 and Ref. 11 at MSI00013186. For
example, Minerva disclosed these older ’880 and ’520
Moisture Transport System patents to the Examiner
as prior art from the mid-to-late 1990s so that the
Patent Office would be fully aware of the nature of
these older prior art technologies, of which I was also
an inventor, in deciding whether to grant Minerva its
own patents covering its new plasma formation array
technology.
48. After these prior art disclosures, the Patent
Office granted all three of Minerva’s PFA Patents.
Therefore, since at least February 2013 when the
Patent Office granted Minerva’s PFA I and PFA II
patents, it continues to be my belief that the U.S.
Patent Office considered Minerva’s PFA Patents to
cover inventions that were not previously patented; in
other words, that described and claimed new and
useful inventions that were patentably distinct from
the invention of the older Moisture Transport System
patents.

160
II. THE ’183 PATENT VERSUS MINERVA’S
UTERINE INTEGRITY TEST (UIT)
A. The Pressure Sensor Family and Prototypes
49. On November 10, 1999, my co-inventors and I
filed U.S. Provisional Application No. 60/164,482. Ref.
12. One year later, on November 10, 2000, my coinventors and I filed U.S. Application No. 09/710,102,
which later issued as U.S. Patent No. 6,554,780 (the
’780 patent). Ref. 13. The ’780 patent and its direct
descendants—all continuations—are shown in the
chart of Ref. 38 (Pressure Sensor Family Genealogy).
50. On May 24, 2004, my co-inventors and I filed
U.S. Application No. 10/852,648, which issued on
March 29, 2005, as U.S. Patent No. 6,872,183 (the ’183
patent). Ref. 14. The ’183 patent lists me and three
other individuals (Russel Sampson, Mike O’Hara and
Dean Miller) as inventors. Hologic has asserted the
’183 patent against Minerva in this lawsuit. The ’183
* * *
diagram of Fig. 14 shows the step “CO2 Flow Check,”
representing the step of using our flow meter to check
the flow rate of CO2 gas to check for perforations in
the uterus.
76. Our UIT patents disclose information we
learned from our many experiments. I believe the
information we disclose in our UIT patents includes
information others in the field would need to make and
use our flow meter-based solution for determining if
there is a perforation in the uterus without having to
go through the same experimental process.
77. During prosecution of Minerva’s UIT patents,
Minerva disclosed to the Examiner both the’183
patent currently being asserted against Minerva, as

161
well as its parent, the ’780 patent. Ref. 15 at
MSI00003817 and Ref. 16 at MSI00003843.
78. Although fully aware of the asserted ’183
patent, the Examiner issued both Minerva’s UIT I and
UIT II patents and allowed Minerva to claim how to
determine the presence of a perforation in the uterus
using only a flow sensor. See e.g., Ref. 15 at
MSI00003841 (“a flow sensor for measuring a flow
rate”) and Ref. 16 at MSI00003867 (“measuring a flow
rate”). Minerva’s UIT flow sensor only detects a flow
rate (and not a pressure, whether directly or
indirectly) and sends a signal that corresponds to a
value of flow rate in units of ccm—and not a pressure
(i.e., force per unit area)—to the microprocessor.
III. SUPPORTING REFERENCES
REF

DESCRIPTION/NOTES

PROD.#

1

Csaba’s CV

MSI00299668 MSI00299669

2

U.S. Patent No. 5,443,470

MSI00171139 –
MSI00171159

3

U.S. Patent No. 5,769,880

MSI00013616 –
MSI00013639

4

U.S. Patent No. 8,813,520

MSI00013582 –
MSI00013615

5

6

U.S. Provisional Application
No. 60/084,791 (the
MSI00014937 –
“Moisture Transport” or
MSI00015029
“MT” Provisional)
U.S. Patent No. 9,095,348

MSI00013489 –
MSI00013520

162
7

8

U.S. Patent No. 9,247,989

MSI00144513 –
MSI00144544

U.S. Provisional Application
MSI00012999 –
No. 61/196,870 (the “PFA
MSI00013019
Provisional”)

9

U.S. Patent No. 8,372,068
(the “PFA I” patent)

MSI00014350 –
MSI00014407

10

U.S. Patent No. 8,382,753
(the “PFA II” patent)

MSI00013676 –
MSI00013733

11

U.S. Patent No. 8,500,732
(the “PFA III” patent)

MSI00013185 –
MSI00013207

12

U.S. Provisional Application MSI00013850 –
No. 60/164,482
MSI00013855

13

U.S. Patent No. 6,554,780

MSI00013084 –
MSI00013096

14

U.S. Patent No. 6,872,183

MSI00012930 –
MSI00012940

15

U.S. Patent No. 8,394,037
(UIT I)

MSI00003816 –
MSI00003841

16

U.S. Patent No. 8,343,078
(UIT II)

MSI00003842 –
MSI00003867

17

.wmv video file

MSI00148499

18

.wmv video file

MSI00148495

19

Picture

MSI00148494

20

.mov video file

MSI00148498

21

.mpg video file

MSI00148485

22

Picture

MSI00148493

163
23

.mov video file

MSI00148496

24

Picture

MSI00148487

25

.wmv video file

MSI00148492

26

Picture

MSI00148491

27

.mov video file

MSI00148484

28

Picture

MSI00148486

29

.wmv video file

MSI00148488

30

Picture

MSI00148489

31

.mov video file

MSI00148497

32

.wmv video file

MSI00148490

33

Minerva’s video of its PFA
(filaments appear as blue
micro-bolts)

MSI00002327

34

May 7, 2009 Draft Function
Requirements Specification
Minerva Controller

MSI00297528MSI00297535

35

June 8, 2009 Draft Product
Specifications – Minerva
Controller

MSI00297538MSI00297551

36

MNmain.c

MSI_SC_0056 MSI_SC_0074

37

Moisture Transport Family
Genealogy

MSI00299670

38

Pressure Sensor Family
Genealogy

MSI00299671

164
IV. CONCLUDING STATEMENTS
79. I declare under penalty of perjury of the laws
of the State of California and the United States that
each of the above statements is true and correct.
Executed on June 29, 2017, in Redwood City,
California.
/s/ Csaba Truckai
Csaba Truckai

165
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 15-1031-SLR-SRF
————
HOLOGIC, INC. and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
v.
MINERVA SURGICAL, INC.,
Defendant and Counterclaimant.
————
JURY TRIAL DEMANDED
————
EXPERT REPORT OF DR. ROBERT TUCKER,
M.D., Ph.D. REGARDING INVALIDITY OF
U.S. PATENT NOS. 6,872,183, 9,095,348
AND 9,247,989
————
* * *
32. As a separate basis for invalidity, in my
opinion each asserted claim of each of the patents-insuit is invalid in that each fails to meet the
enablement requirement, as I explain in detail below.
VII. CLAIM CONSTRUCTION
33. I understand the Court has issued a Claim
Construction Order in this case, dated April 24, 2017,
which sets forth the construction of certain disputed
claim terms, as well as claim terms that have been
agreed to by the parties. I attach a chart of these

166
constructions as Exhibit C. I have assumed and
applied these claim constructions for purposes of my
report. I reserve the right to supplement this report if
necessary or appropriate, including but not limited to,
in the event that any of the claim constructions
change.
VIII. GENERAL BACKGROUND
34. Millions of women suffer from a condition
known as menorrhagia, which is excessive and/or prolonged bleeding of the endometrium (i.e., the interior
lining of the uterus). This condition is often accompanied by debilitating cramping and other discomfort,
and in extreme cases can lead to fatalities due to
anemia/blood loss. Over the decades, there have been
numerous medical instruments designed to alleviate
this condition by “ablating” the tissue cells of the
endometrium.
35. Ablation of tissue is basically the process of
destroying the tissue cells. Ablation can be accomplished using various techniques and forms of energy,
including radio frequency (“RF”) energy that basically
runs an electric current through the tissue, and thermal ablation that employs heated liquid to destroy the
cells. Ablation of tissue is not unique to the uterus, but
has long been used to treat tissue in many parts,
organs and body cavities of the human body. Some
examples include the gallbladder, heart (e.g., to treat
atrial fibrillation) and tumors. The ablation devices at
issue are used for endometrial ablation.

167
IX. THE MOISTURE TRANSPORT
PATENTS3

SYSTEM

A. The “Applicator Head” and “Energy Applicator” Terms of the Asserted Moisture
Transport Claims
36. Claim 1 of the ’348 patent is the sole asserted
independent claim. The remaining asserted claims all
depend directly or indirectly on Claim 1, and thus
incorporate all of the elements of Claim 1 and any
intervening claim. One term at issue for purposes of
my invalidity analysis is the “applicator head” term
that first appears in Claim 1 below:
[A]n applicator head coupled to the distal portion,
the applicator head defining an interior volume
and having a contracted state and an expanded
state, the contracted state being configured for
transcervical insertion and the expanded state
being configured to conform to the shape of the
uterus, the applicator head including one or more
electrodes for ablating endometrial lining tissue of
the uterus;
37. The Court has construed the term “applicator
head” in the asserted claims of the ’348 patent as: “a
distal end portion of an ablation device that applies

3

The “Asserted Moisture Transport Claims” include all the
remaining asserted claims of the ’348 and ’989 patents. For the
sake of simplicity, throughout my report I will refer to the “Moisture Transport Patents” or the “Moisture Transport Family.” This
refers to the ’348 and ’989 Patents and, where applicable, to the
other patents in this family. For the sake of simplicity, in my
report I cite to the ’348 patent with the understanding that the
’348, ’989, and the other patents of the Moisture Transport family
all share one common specification.

168
energy to the uterine tissue.”4 Plaintiffs have asserted
that the “applicator head” term reads on Minerva’s
Plasma Formation Array, or PFA.5
* * *
description support for a Plasma Formation Array
(PFA) such as Minerva’s since Plaintiffs assert that
the full scope of the asserted claims encompasses
Minerva’s PFA. To look for this written description
support, I reviewed at least the following documents:
(i) the four corners of the Moisture Transport Patents’
common specification; (ii) the May 8, 1998, MT Provisional to which every Moisture Transport Patent
claims priority; (iii) the originally-filed claims of each
application in the chain of priority for the Asserted
Moisture Transport Patents; and (iv) for completeness,
the other limitations of the Asserted Moisture
Transport Patents.
C. State of the Art / Background Knowledge of
a POSITA
44. By 1998, a POSITA would have known and
understood that there were prior art surgical devices
with a distal end designed to be inserted into a
woman’s cervical canal in a compressed state, and
then subsequently expanded into an un-compressed
state within the uterus, in order to perform some
surgical procedure. These prior art devices generally
had three major components: (i) a distal end designed
to flare into a roughly triangular shape when in an
uncompressed state in order to perform the procedure;
(ii) a tubular main body designed to be inserted into
4

See Exhibit C to my report and D.I. 227.

5

See Plaintiffs’ April 12, 2017, Supplemental Claim Charts at

4-9.

169
the cervical canal; and (iii) a handle designed to hold
and manipulate the device. Because the cervical canal
is relatively narrow, the device is inserted into the
uterus with the distal end in a compressed state. Once
the device is fully inserted, the distal end is flared open
into an uncompressed state in order to perform the
surgical procedure. Unsurprisingly, the distal ends of
these prior art devices were designed to conform to the
substantially triangular shape of the uterus when in
the uncompressed state.
45. Ortiz ’496. For example, U.S. Pat. No.
5,358,496 to Ortiz et al. (“Ortiz ’496”) (MSI00043294)
filed on September 30, 1993, shows such an electrosurgical device with a main body and distal end that
deploys into a roughly triangular shape as shown in
several of the figures:9

9

See also Figures 1-4, 6-7, and 11-12; 3:3-24 (“The frame
includes a pair of expandable fingers each comprising a flexible
outer strip secured to the distal end of the actuator tube and a
flexible inner strip secured to the distal end of the support shaft.
The inner and outer strips are joined together at a distal finger
tip. The fingers are flexed laterally outward in opposite directions
by axial movement of the actuator tube relative to the shaft to
provide a spatula-like platform for engaging the tissue. The
fingers are selectively expandable into a tulip-shaped configuration with the finger tips spread apart and into a bulb-shaped
configuration with the finger tips together. The fingers are
expanded into the tulip-shaped configuration by movement of the
actuator tube proximally relative to the support shaft and into
the bulb-shaped configuration by movement of the actuator tube
distally relative to the support shaft.”) (emphasis added).

170

46. Yoon ’091. Several other such devices are
shown in U.S. Pat. No. 5,514,091 to Yoon (“Yoon ’091”)
(MSI00043480) filed on May 25, 1994. This patent
disclosed several expandable multifunctional manipulating instruments intended for various medical

171
procedures including the uterus.10 See Yoon ’091 at
Figures 1311 and 28A12:

10

See Yoon ’091 at 22:14-17 (“In the expanded position,
expandable portion 534a has a size and shape corresponding
substantially to the size and shape of the uterus U . . .”).
11

See also 19: 52-67 (“A further modification of a multifunctional instrument according to the present invention is illustrated in FIG. 13 at 410, only the body assembly 412 for the
instrument 410 being shown. Multifunctional instrument 410 is
similar to multifunctional instrument 10 except that middle
member 418 of instrument 410 is made of a non-elastic, nonstretchable, rigid material defining expandable portions 434
having a preformed predetermined shape. Multifunctional instrument 410 includes expandable portions 434a and 434b separated
by a collar 420a with a collar 420b disposed proximally of
expandable portion 434b, the collars 420a and 420b being similar
to collars 20. Middle member 418 along expandable portion 434a
has a preformed triangular or conical configuration particularly
useful for uterine use and along expandable portion 434b has a
preformed pear-shaped configuration. The middle member 418 is
made as a collapsible bag, balloon or membrane of elastic or
plastic material shaped to have the desired performed configurations along expandable portions 434a and 434b, and has connecting portions 419, which can be tubular, connecting expandable
portions 434 and disposed within collars 420. The middle member
418 can be folded, rolled, crumpled or collapsed in the nonexpanded position to facilitate introduction through a relatively
small size anatomical opening.”) (emphasis added).
12

See also 9:18-24 (“As illustrated in FIG. 28A, expandable
portion 1234 in the expanded position has a predetermined triangular or fan-shaped configuration in side view adjacent collar
1220. The triangular configuration of expandable portion 1234 is
advantageous for universal use and, in particular, for use in
uterine and kidney procedures and in the retroperitoneal
space.”); 9:53-61 (“FIGS. 29A-29E illustrate predetermined end
view configurations for any of the expandable portions of FIGS.
28A-28D in the expanded position. FIG. 29A illustrates expandable portion 1234 of FIG. 28A in end view wherein the expandable
portion 1234 has a relatively narrow oval predetermined

172

47. Nady-Mohamed ’784. Yet another such device
that deployed into a roughly triangular shape is shown
in U.S. Pat. No. 5,353,784 to Nady-Mohamed (“NadyMohamed ’784”) (MSI00043265) filed on April 2,
1993:13

configuration such that the overall configuration of the expandable portion is that of a flattened cone advantageous for universal
use, in uterine and kidney procedures and in the retroperitoneal
space.”)
13

See Claim 1 of Nady-Mohamed ’784 (“a tube, having a single
longitudinal bore, for insertion through a patient’s cervix into the
uterus; arm means for engaging the uterus, said arm means

173

Figure 5 of Nady-Mohamed ’784 discloses a hand grip.
48. Quint ’044. Another such device that deployed
into a roughly triangular shape is shown in U.S. Pat.
No. 5,084,044 to Quint (“Quint ’044”) (MSI00165917)
filed July 14, 1989. Quint ’044 is identified in the
“Background” section of the common specification of
the Moisture Transport Patents. The prior art device
taught by Quint ’044 is an “[a]pparatus for performing
thermal ablation of the endometrium of a uterus[.]”14The Abstract describes how the balloon on the
distal end (i.e., the “inflatable member”) is expanded
from its collapsed position (for insertion into the
uterus) into “an expanded position which approximates the shape and volume of a uterus.” The “Description of the Preferred Embodiment” describes the tubular main body as, “formed by a thin walled, elongated
including two opposing, flexible arms slidably disposed within the
distal end of said tube, said arms being curved such that they
diverge to attain a shape which generally conforms to the contours of the lumen of the uterus upon extension of said arms from
within said tube . . .) (emphasis added).
14

Abstract.

174
cylindrical shaped member 18[.]” A POSITA would
have understood that the device must also have had a
handle or holding means for the surgeon to using when
inserting or removing the device.15
49. In describing Figure 5 (shown below), the
specification describes the shape of the distal end, and
how it is designed to conform to the shape of the uterus
when in expanded:
The inflatable member 32 is selected to be formed
of an elastomeric material and conform to the
shape of the organ under pressure derived from
the fluid passed into the inflatable means. The
extended arms 66 may become long and thin as
shown in FIG. 5 in order to conform to the shape
of the uterus.16

15

This is true for all the devices I discuss in this section. A
POSITA would know that the state of the art before the May 1998
priority date of the Moisture Transport Patents included endoscopic devices used in the uterus with a handle and a distal end
that generally conformed to the shape of the uterus.
16

6:1-7; see also 6:39-41 (“wherein the inflatable means 32 is
capable of expanding when filled with a fluid 26 from a collapsed
position into an expanded position which approximates the shape
and volume of a uterus 40”).

175
50. Stern ’470. Yet another such prior art electrosurgical device that was designed to be inserted into
the cervical canal in a compressed state,17 and then
expanded into a substantially triangular shape in
order to conform to the shape of the uterus,18 is shown
in U.S. Pat. No. 5,443,470 to Stern et al. (“Stern ’470”)
(MSI00171139) filed April 14, 1993:

51. Figure 12 of Stern ’470 (below) shows all three
main components of the device, including the triangular distal end 190, which Stern ’470 describes as
“conforming to the inner surface of the endometrium
[i.e., the uterus].”19 Stern ’470 is identified in the
“Background” section of the common specification of
the Moisture Transport Patents.

17

E.g., Fig. 2 (the distal end is item 14).

18

E.g., Fig. 1 (the distal end, item 14, is shown as conforming
to the shape of uterus in its expanded state).
19

See also 4:3-5 (The device of “FIG. 1 expands to conform to
the endometrial surface to be treated”).

176

FIG. 12
52. In my opinion, a POSITA aware of even just
this prior art—so before even reading the common
specification of the Moisture Transport Patents—
would already have understood that a well-known,
basic and logical shape for an surgical instrument
intended to be inserted and deployed inside a body
cavity, such as a uterus, had three major components;
namely: (i) a triangular or tulip-shaped distal end for
applying energy to the uterine tissue; (ii) a tubular
main body; and (iii) a handle.
53. As a named inventor on several patents, it is
my understanding that a basic principle of patent law
is that you cannot patent something that was already
in the prior art. Therefore, a POSITA would have
understood that, certainly by May 1998, a surgical
device shaped to have (i) a roughly triangular distal
end designed to conform to the shape of the uterus
when in an uncompressed state; (ii) a tubular main
body; and (iii) a handle—in and of itself—was not
something that could be claimed as a new or patentable invention. Rather, the overall shape of a triangular
distal end intended to conform to the shape of the

177
uterus, along with a tubular main body and a handle—
i.e., this “basic shape”—was a well-known and logical
construct. Since the shape of the uterus is roughly
triangular, it would dictate the shape of the expanded
distal end, which necessarily had to collapse to a
smaller diameter for insertion/removal. The surgeon
also typically had to have a means of holding and
manipulating the device, ergo some sort of handle.
54. The state of the art by May 1998 reinforces my
opinion below that what the inventors were describing
as the invention in the common specification of the
Moisture Transport Patents was something more than
this basic shape; namely, a novel moisture transport
system where the RF applicator head had to draw
moisture away from the tissue and into a permeable
(or absorbent) array for subsequent evacuation.
55. In addition, a POSITA before May 1998 would
have understood that an RF ablation device worked by
applying radio frequency (“RF”) energy (essentially an
electrical current) to the target tissue by putting both
positive and negative electrodes in contact with the
tissue to be ablated. For example, the disclosures of
the Stern ’470 patent I discuss above specifically disclosed an RF endometrial ablation device with various
patterns of electrodes all on the surface of the distal
end.20 Such a POSITA would have understood that
applying a current in this manner was a form of
“resistive” heating, as opposed to “thermal” heating
that involves heating a liquid.21

20

E.g., Stern ’470 2:43-48.

21

See 1:54-2:19 of the common specification.

178
D. The Teachings and Disclosures of the Moisture Transport Patents
1. The Common Specification
56. As I previously noted, every utility application
in the Moisture Transport Family chain for the ’348
and ’989 patents (shown in the genealogy in Paragraph 116 below)—beginning in time with U.S. Patent
Application No. 09/103,072, which was filed on June
23, 1998, and continuing through to the application
that ultimately issued as the ’989 patent (the last in
the chain)—shares a common specification. Likewise
the patents that issued from each of these applications
in the chain also share the same common specification.
To remain consistent with my earlier declarations, I
will use the specification of the ’348 patent as the
representative and common specification for purposes
of my validity analysis of the Asserted Moisture
Transport Claims.
57. As a threshold matter, I note that in describing
both the “First” and “Second” Exemplary Embodiments (so all embodiments), the common specification
consistently refers to the working end of the ablation
device (i.e., the distal end that is inserted into the
uterus by a surgeon and that actually ablates the
uterine tissue) as the “RF applicator head.”22 Thus, my
discussion of what the common specification discloses
and teaches regarding the claim terms “applicator
head” and “energy applicator” will be in terms of the
“RF applicator head” of the common specification.

22

See 2:51; 2:55; 3:4-25; 4:57-58; 8:8-9; 8:58; 10:15-17; 11:4146; 11:60; and 12:1.

179
a. Overview of What a POSITA Would
Have Understood From the Common
Specification
58. In my opinion, a POSITA reading the common
specification would have understood that what the
inventors had possession of was a moisture transport
system for an endometrial ablation device that requires
the external electrode array of the RF applicator head
(basically the outer cover) to be formed of a permeable
or absorbent material in order to draw the moisture
that builds up during the ablation away from the
uterine tissue and into the array for evacuation. As the
specification states: “It is therefore desirable to provide an ablation device which eliminates the abovedescribed problem of steam and liquid buildup at the
ablation site.”
59. To start with, the common specification
describes a device with three basic components: (i) an
RF applicator head; (ii) a tubular main body; and (iii)
a handle.23
60. A POSITA would have understood that it is
the RF applicator head component that is the most
technologically significant in that it is the component
that actually performs the ablation. I note that the
RF applicator head of the common specification itself
has two main components: (i) an external tissuecontacting array that carries the electrodes on its
surface (i.e., the “array”); and (ii) an expansion means
for deploying the array into its uncompressed state.24
23
24

See, e.g., Figs. 1 and 2; 4:55-63.

See, e.g., 12:5-8 (Referring to Figure 23 and stating, “Applicator head 102 includes an external electrode array 102a and an
internal deflecting mechanism 102b used to expand and tension
the array for positioning into contact with the tissue.”).

180
It is the external array that the common specification
describes as either permeable or absorptive.
61. There are two embodiments described in the
common specification. The “First Exemplary Embodiment” (“1st Embodiment”) is described at 4:54-11:49
and by Figs. 1-20. The “Second Exemplary Embodiment” (“2nd Embodiment”) is described at 11:50 to
18:67 and by Figs. 21-37B. Both embodiments refer to
the distal end of the device as the “RF applicator
head.”25 However, I note that the two embodiments use
slightly different terminology when referring to the RF
applicator head’s external array (i.e., the tissuecontacting surface of the RF applicator head). The 1st
Embodiment refers to the outer array as the “electrode
carrying means 12,” while the 2nd Embodiment—
added roughly two years later in 199826—refers to the
tissue contacting surface of the RF applicator head as
the “external electrode array 102a.”27 A POSITA reading the common specification would understand the
inventors to be referring in each case to the outer array
that contacts the tissue surface and on the surface of
which the electrodes are formed. For simplicity, I will
refer to the tissue-contacting surface of the RF applicator head in this report as the “external electrode array”
or “array.”
62. The common specification overall describes
a particular solution to a particular problem that
existed in the prior art. As a matter of biology, when
uterine tissue is ablated, the tissue dehydrates and
exudes moisture (essentially saline). The greater the
amount of energy transferred to the tissue, the greater
25

4:57 and 11:60.

26

Truckai Decl., ¶ 12.

27

See, e.g., 4:59 and 12:5-6.

181
the extent of this dehydration and exuding of moisture. The resulting dehydration and exuding of moisture during the ablation procedure would thus cause a
layer of moisture to build up between the uterine tissue and the exterior of prior art non-permeable applicator heads. The common specification teaches that
the formation of this moisture layer is highly detrimental to the operation of the RF applicator head for
several reasons.
63. First, the common specification teaches that
the moisture layer is electrically conductive. Therefore, the RF energy (which manifests as electric
current) that is intended to flow into the target tissue
is instead diverted away from the tissue into the
moisture layer:
Moreover, in prior art RF devices the water drawn
from the tissue creates a path of conductivity
through which current traveling through the electrodes will flow. This can prevent the current from
traveling into the tissue to be ablated.28
64. Second, the common specification teaches that
another detrimental effect of the presence of a moisture layer is that the diversion of current into the
moisture layer caused prior art devices to use more
current than necessary to ablate the tissue. As the
common specification teaches, “[m]oreover, the presence of this current path around the electrodes causes
current to be continuously drawn from the electrodes.”29 A POSITA would have known that it was
undesirable to use more current than necessary inside
the human body.30
28
29
30

2:9-12.
2:12-14.
See also Truckai Decl., ¶ 8.

182
65. The common specification describes how yet
another detrimental effect of the moisture layer is that
heating the moisture layer turns the intended RF
ablation into an unintended thermal ablation. Thermal ablation relies on the presence of moisture (i.e.,
heated liquid) to ablate the tissue, which the common
specification describes in multiple places as undesirable and less subject to control:
The current heats the liquid drawn from the tissue and thus turns the ablation process into a
passive heating method in which the heated liquid
around the electrodes causes thermal ablation to
continue well beyond the desired ablation depths.31
66. A POSITA would understand the common
specification to be teaching away from the use of
thermal ablation techniques as less subject to control.
For example, the common specification describes how
the undesirable “passive heating” of the liquid can
result in either “too much or too little tissue” being
ablated.32 Thus, the inventors framed the problem
addressed by their invention as a need to “eliminate”
the formation of a moisture layer at the tissue/device
interface during the ablation procedure. As the
common specification states:
It is therefore desirable to provide an ablation
device which eliminates the above-described problem of steam and liquid buildup at the ablation
site.33

31

2:15-19; see also Exhibit F, (Websters Ninth, 1990) at 1224
(“thermal . . . of, relating to, or marked by the presence of hot
springs <~waters>”).
32

2:20-24.

33

2:25-27.

183
67. The common specification describes in detail
and in several places how to solve this problem of
steam and liquid buildup between the tissue and the
electrodes on the exterior of the device. Specifically,
the invention solves the problem by requiring the
exterior of the RF applicator head to be made of a
permeable fabric (a “mesh”) or absorbent material
(e.g., a “open cell sponge”) in order to draw the moisture away from the surface electrodes and into the RF
applicator head for subsequent evacuation (i.e., a
moisture transport system).34
68. Moisture Transport. Thus, a POSITA reading
the common specification would understand this moisture transport system using a permeable (or absorbent) array to be a fundamental characteristic of every
embodiment. A POSITA would understand that for an
RF ablation device, contact between the electrodes and
the tissue is necessary for the claimed invention to
operate. The removal of the moisture layer permits the
electrodes on the surface of the applicator head to
remain in contact with the tissue during the ablation
cycle. I discuss more detailed support for my opinions
below. In my opinion, some portion of both positive and
negative active electrodes would have to contact the
tissue in order for current to flow and ablate the
tissue.35

34

See, e.g., 5:52-61 and 12:1-64; Fig. 26A.

35

See my declarations at D.I. 205 ¶¶ 50-55 and D.I. 196 ¶¶ 36-

45.

184
b. The Titles Support My Opinions
Regarding What a POSITA Would
Have Understood From the Common
Specification
69. I observe that it is the May 8, 1998 MT
Provisional that the Plaintiffs—and both Asserted
Moisture Transport Patents—identify as the earliest
filed application on which they rely for priority.36 That
May 8, 1998 MT Provisional is titled: “A Moisture
Transport System For Contact Electrocoagulation.”37
This is consistent with my opinion that a POSITA
would have understood that an RF endometrial
ablation device relied on contact between external,
surface electrodes of the array and the uterine tissue
(i.e., the tissue/electrode interface). The title would
have reinforced for a POSITA that a fundamental
characteristic of the invention is to transport the
moisture away from the tissue so that the external
electrodes can better contact the tissue during the
ablation. The solution required a permeable (or absorbent) array.
70. It further supports my opinion that every
application in the MT family chain was titled
“Moisture Transport System for Contact Electrocoagulation,” with the exception of the ’520 application,
which was titled, “Method for Ablating and/or Coagulating Tissue Using Moisture Transport”—so even
that one emphasized moisture transport.

36

Plaintiffs’ Supplemental Responses and Objections to
Minerva’s Interrogatory No. 6; MSI00013511 (’348 patent,
“Related Applications”) and MSI00144535 (same).
37

MSI00014943.

185
c. The Abstract Supports My Opinion
Regarding What a POSITA Would
Have Understood From the Disclosures of the Common Specification
71. A POSITA would have understood the
importance and emphasis placed on the need for a
permeable or absorbent external electrode array, and
the need to prevent a moisture layer from forming,
from the “Abstract” of the common specification, which
states:
An apparatus . . . includes a metallized fabric
electrode array which is substantially absorbent
and/or permeable to moisture and gases such as
steam . . . As the current heats the tissue, moisture (such as steam or liquid) leaves the tissue
causing the tissue to dehydrate. Suction may be
applied to facilitate moisture removal. The moisture permeability and/or absorbency of the electrode carrying member allows the moisture to
leave the ablation site so as to prevent the
moisture from providing a path of conductivity for
the current.
d. The Figures Support My Opinion
Regarding What a POSITA Would
Have Understood From the Disclosures of the Common Specification
72. Next, a POSITA would have understood the
Figures of the common specification to show the
permeable nature of the external array, based both on

186
the drawing as well as the textual description of the
drawing.38 For example, see Figs. 23 and 26A below:

Figure 26A above shows an example of the permeable
mesh that forms the external electrode array.
73. Also, a POSITA would have understood that
Fig. 28 shows how the undesirable moisture is drawn
38

See, e.g., Figs. 23 (item 102a, the external electrode array),
26A-B, 27A-C, and 3:60-67 (describing the permeable “mesh” or
“knit” of the external array).

187
into the RF applicator head, and how the removal of
moisture is facilitated by means of holes in the outer
flexures 124, and evacuated via central hypotube 122:

e. The “Background of the Invention”
Supports My Opinions Regarding
What a POSITA Would Have Understood From the Disclosures of the
Common Specification
74. A POSITA reading the “Background” section of
the common specification would have understood that
the inventors were describing the problems and
drawbacks of prior art endometrial ablation devices in
order to better explain, later in specification, how their
invention overcomes those drawbacks. In other words,
the inventors were distinguishing their invention from
the prior art and thereby conveying to a POSITA what
not to do—what I understand in patent law is sometimes referred to as “teaching away from” or “disparaging” the prior art.
75. In general, the “Background of the Invention”
section disparages thermal ablation techniques that
relied on heated fluid to thermally ablate the uterine

188
tissue, describing thermal techniques as “very passive
and ineffective.”39
76. The “Background” provides an example of a
prior art endometrial ablation device (Quint ’044)
where the exterior of the applicator head is composed
of a thermal balloon (item 32). The “Background” section of the Moisture Transport Patents’ common
specification describes how Quint ’044’s balloon 32 is
expanded into contact with the endometrium and how
it then “thermally” ablates the endometrium, as can
be seen from Figure 5 from Quint ’044:40

A POSITA in May 1998 reading the common specification of the Moisture Transport Patents and Quint
’044’s disclosure would understand that Quint ’044’s
exterior balloon 32 is, by its nature, non-permeable.
Consequently, such a POSITA would understand that
39

See, e.g., 1:54-64 (“For example, the heated fluid method is
a very passive and ineffective heating process which relies on the
heat conductivity of the tissue.”); also 1:31-33 and 1:65-67.
40

See 1:33-38 of the Moisture Transport Patents’ common
specification.

189
Quint’s balloon would retain the moisture in the
uterine cavity—not remove it. As described in the
common specification, such a result was undesirable.
As previously noted, the primary motivation behind
the invention of the Moisture Transport Patents was
to “eliminate” that moisture layer.
77. The Moisture Transport Patents’ “Background” section also discusses Stern ’470, which is a
prior art radio frequency (RF) apparatus for endometrial ablation. According to the Moisture Transport
Patents’ specification, Stern ’470 teaches an RF applicator head whose exterior is composed of an expandable balloon (i.e., non-permeable) with electrodes on the
surface of the balloon:
U.S. Pat. No. 5,443,470 [Stern ’470] describes an
apparatus for endometrial ablation in which an
expandable bladder is provided with electrodes on
its outer surface. After the apparatus is positioned
inside the uterus, a non-conductive gas or liquid
is used to fill the balloon, causing the balloon to
push the electrodes into contact with the endometrial surface. RF energy is supplied to the electrodes to ablate the endometrial tissue using
resistive heating.41
Indeed, this can be seen from Figures 4a,b and 6 of
Stern ’470, which shows electrodes on the exterior of
Stern ’470’s expandable balloon:42
41

Moisture Transport Patents’ common specification at 1:37-

45.
42

See also Stern ’470 at 3:13-16 (“FIGS. 4a-b is a representation of an embodiment of an expandable member which uses a
plurality of surface segments with each surface segment having
a separate conductive surface and a temperature sensor”); and
Stern ’470 at 3:20-23 (“FIG. 6 illustrates an embodiment of the

190

78. After discussing these prior art devices, the
Moisture Transport Patents’ “Background” Section
then discusses the various shortcomings of these
prior art applicator heads—both of which were nonpermeable balloons—by relating:43


How they had trouble “controlling the
ablation depth, which could only be done by
“assumption”;



How “the heated fluid method [i.e., thermal
ablation] is a very passive and ineffective
heating process”;



How “[b]oth the heated fluid techniques and
the latest RF techniques must be performed
using great care to prevent over ablation”; and



How a disadvantage of the prior art balloon is
that “steam cannot escape” which could result
in unintended burning.

multi-segment element having perforated electrodes with illustrated power traces on the outside surface of the expandable
member”).
43

1:47-2:7.

191
79. The inventors go on to describe the fundamental problem with these prior art endometrial ablation
devices, which was their inability to draw moisture
away from the surface of the applicator head. This is
because the exterior of the applicator heads of those
prior art devices (both thermal and RF) were nonpermeable balloons with no moisture transport mechanism (i.e., no mechanism for drawing moisture away
from the tissue/electrode interface through a permeable array and into the applicator head).
80. As I have noted earlier in my report, a POSITA
would have understood that when tissue begins to
ablate, it exudes moisture (essentially saline).44 That
moisture creates a low-impedance path for electrical
current (i.e., the current will tend to seek out a lowimpedance path over a high-impedance path). The
problem the inventors describe with prior art nonpermeable RF applicator heads is that, once that
moisture layer forms, the RF current that is supposed
to travel through the uterine tissue to ablate it instead
gets diverted into that undesirable low-impedance
moisture layer (i.e., the “path of conductivity”):
Moreover, in prior art RF devices the water drawn
from the tissue creates a path of conductivity
through which current traveling through the
electrodes will flow. This can prevent the current
from traveling into the tissue to be ablated.45
81. A POSITA would understand the inventors to
then elaborate on how that undesirable moisture
layer, in turn, creates other problems. For example,
the presence of the moisture layer causes more current
44

10:59 (“As the endometrial tissue heats, moisture begins to
be released from the tissue.”).
45

2:9-13.

192
to be drawn from the electrodes than is necessary to
perform the ablation, resulting in excess current (and
therefore excess power) being used within the human
body:
Moreover, the presence of this current path
around the electrodes causes current to be continuously drawn from the electrodes.46
As I already noted, a POSITA would understand that
it is undesirable to use more current/power than
necessary inside a patient’s body.47
82. A POSITA would understand how the inventors next describe yet another drawback of nonpermeable, prior art RF applicator heads; namely, how
the current that is diverted into the undesirable moisture layer heats that liquid. Consequently, what
was intended to be a “resistive” RF ablation turns into
an unintended “thermal” ablation wherein again the
depth of the ablation cannot be controlled, thereby
causing “thermal ablation to continue well beyond the
desired ablation depths”:
The current heats the liquid drawn from the
tissue and thus turns the ablation process into a
passive heating method in which the heated liquid
around the electrodes causes thermal ablation to
continue well beyond the desired ablation depths.48
83. As the next paragraph in the “Background”
section describes, again with the prior art nonpermeable applicator heads, the liquid retained in the
cavity would heat up and there was no mechanism to
46

2:10-14.

47

See also Truckai Decl., ¶ 8.

48

2:15-19.

193
control the extent to which that heated liquid would
ablate the tissue (i.e., lack of control over the depth of
ablation). As a result, often either too much or too little
tissue would be ablated:
Another problem with prior art ablation devices is
that it is difficult for a physician to find out when
ablation has been carried out to a desired depth
within the tissue. Thus, it is often the case that too
much or too little tissue may be ablated during an
ablation procedure.49
84. A POSITA would understand that the inventors concluded the “Background” section by summarizing the goal and import of their invention, which was
to make the external electrode array of their RF
applicator head either permeable or absorbent in order
to draw moisture into the array (i.e., the “moisture
transport system”). In this manner, they eliminated
the core problem of a moisture layer building up
between the tissue and the electrodes on the surface of
the array during the ablation, and thereby preventing
current from being diverted from the tissue into that
undesirable moisture layer:
It is therefore desirable to provide an ablation
device which eliminates the above-described problem of steam and liquid buildup at the ablation
site.50

49

2:20-24.

50

2:25-27.

194
f. The “Summary of the Invention” Supports My Opinions Regarding What a
POSITA Would Have Understood
From the Disclosures of the Common
Specification
85. A POSITA reading the “Summary of the Invention” section of the common specification would have
understood that the inventors described their invention as an ablation device where moisture is drawn
into a permeable (or absorbent) array and away from
the tissue (i.e., the moisture transport system). In
part, this is because the Summary literally starts this
one-paragraph description by saying “[t]he present
invention is . . . .” In addition, the Summary emphasizes how the array “includes” a fluid permeable
elastic member, and how moisture “is” drawn into the
array and away from the tissue. I note that this
language does not say that the array “could be” or
“may be” permeable, or that moisture “could be” or
“may be” drawn into the array. In my opinion, this
phrasing would inform a POSITA that drawing
moisture into a permeable (or absorbent) array and
away from the tissue was not optional:
The present invention is an apparatus and method
of ablating and/or coagulating tissue, such as that
of the uterus or other organ. An ablation device is
provided which has an electrode array carried by
an elongate tubular member. The electrode array
includes a fluid permeable elastic member preferably formed of a metallized fabric having insulating regions and conductive regions thereon.
During use, the electrode array is positioned in
contact with tissue to be ablated, ablation energy
is delivered through the array to the tissue
to cause the tissue to dehydrate, and moisture

195
generated during dehydration is actively or passively drawn into the array and away from the
tissue.51
g. The “Detailed Description” Supports
My Opinions Regarding What a
POSITA Would Have Understood
From the Disclosures of the Common
Specification
86. A POSITA reading the Detailed Description
section would first see that it starts by describing the
invention in terms of two exemplary embodiments:
“The ablation apparatus according to the present
invention will be described with respect to two
exemplary embodiments.”52
87. The description of the 1st Embodiment teaches
how the external electrode array is “permeable to
moisture and/or which has a tendency to absorb moisture” and can be made of an absorptive “open cell
sponge,” or alternatively “a metallized fabric.”53 The
specification also describes the “flow pathway” where
moisture passes through the “permeable” array and is
evacuated by means of a central hypotube 17 from
within the array.54
88. The description of the 1st Embodiment also
teaches the importance of contact between the tissue
and the external electrodes of the array (i.e., with no

51

2:32-45.

52

4:59-61.

53

5:52-65.

54

8:19-35.

196
intervening moisture layer).55 As I noted above, a
POSITA would have understood that the RF ablation
apparatus being described worked by putting both
positive and negative surface electrodes in contact
with the target tissue.
89. A POSITA would also have understood other
passages in the specification to again reinforce how
the moisture transport system disclosed by the inventors was designed to draw moisture “away from the
electrodes” through a permeable external electrode
array:
As the endometrial tissue heats, moisture begins
to be released from the tissue. The moisture
permeates the electrode carrying member 12 and is
thereby drawn away from the electrodes. The
moisture may pass through the holes 17a in
the suction/installation tube 17 and leave the
suction/insufflation tube 17 at its proximal end
via port 38 as shown in FIG. 7. Moisture removal
from the ablation site may be further facilitated b5
the application of suction to the shaft 10 using the
suction/insufflation unit 40.56
90. At column 11, a POSITA would have understood the inventors to again be reinforcing why it was
important to use a permeable array to draw the moisture away from the tissue/electrode interface. Specifically, a POSITA would have understood that the
formation of the moisture layer would be detrimental
to the operation of the described ablation device
because it would interfere with the device’s ability to
control the depth of ablation. As discussed earlier
55

9:3-6 (“better contact”), 10:5-9 (“good electrode contact”) and
10:15-19.
56

10:59-67.

197
when describing the problems with the prior art
endometrial ablation devices in the “Background”
section, the inventors here add more detail about how
excess current diverted into that moisture layer would
heat the moisture, thereby transforming what was
intended to be an RF-only “resistive” heating of the
tissue into an undesirable and less predictable “thermal” ablation:
Removal of the moisture from the ablation site
prevents formation of a liquid layer around the
electrodes. As described above, liquid build-up at
the ablation site is detrimental in that [it] provides
a conductive layer that carries current from the
electrodes even when ablation has reached the
desired depth. This continued current flow heats
the liquid and surrounding tissue, and thus causes
ablation to continue by unpredictable thermal
conduction means.57
91. Next, a POSITA would understand the inventors to go on to describe how, by using a permeable
array to draw moisture away from the ablation site, a
physician could determine when the proper depth of
ablation has been reached by monitoring the flow of
current through the tissue (or put another way, by
monitoring the impedance through the tissue):
Tissue which has been ablated becomes dehydrated and thus decreases in conductivity. By
shunting moisture away from the ablation site
and thus preventing liquid build-up, there is no
liquid conductor at the ablation area during use
of the ablation device of the present invention.
Thus, when ablation has reached the desired
depth, the impedance at the tissue surface
57

11:1-8.

198
becomes sufficiently high to stop or nearly stop
the flow of current into the tissue. RF ablation
thereby stops and thermal ablation does not occur
in significant amounts. If the RF generator is
equipped with an impedance monitor, a physician
utilizing the ablation device can monitor the
impedance at the electrodes and will know that
ablation has self-terminated once the impedance
rises to a certain level and then remains fairly
constant.58
92. Stepping through some concepts in this passage at column 11, a POSITA would have understood
the inventors to be explaining that, as tissue becomes
dehydrated (i.e., as the ablation progresses), it
becomes less “conductive.” Less conductive tissue
means that it becomes harder for the current to flow
through the tissue. Thus, as tissue ablates, the “conductivity” decreases. The specification also describes
this effect in terms of “impedance,” which is another
way to think of this effect. In particular, as tissue
dehydrates it becomes denser and starts to “impede”
the flow of current. So a POSITA would have understood the inventors to be teaching that, as the tissue
ablates, its “impedance” increases. Thus, in the parlance of the common specification, if the tissue
conductivity decreases, then the impedance increases,
and vice versa.
93. The rest of the passage above informs a
POSITA that by “preventing liquid build-up” between
the tissue and the surface electrodes, the current will
flow through the tissue (instead of being diverted into
a moisture layer). In the absence of a moisture layer,
the physician can obtain an accurate reading of the
58

11:9-22.

199
impedance through the tissue. The impedance of the
tissue is related to the degree to which it has been
ablated. Thus, the absence of the moisture layer is a
prerequisite for the invention to be able to accurately
monitor and control the depth of ablation.
94. The drawing below graphically illustrates this
concept. In the absence of a moisture layer, the current
will flow as it should through the tissue, and therefore
the actual impedance of the tissue (represented by the
symbol) can be more accurately monitored.

95. A POSITA would understand that in the
disclosures of column 11, the inventors were providing
more detail regarding an advantage of their moisture
transport invention mentioned earlier in the “Background” section of the common specification, where
they stated:
It is further desirable to provide an ablation
method and device which allows the depth of
ablation to be controlled and which automatically

200
discontinues ablation once the desired ablation
depth has been reached.59
96. Further down in column 11, a POSITA would
understand that the inventors were again contrasting
the advantages of their moisture transport invention
with the drawbacks of prior art RF ablation devices
that failed to prevent the formation of a liquid layer at
the tissue/electrode interface:
By contrast, if a prior art bipolar RF ablation
device was used together with an impedance
monitor, the presence of liquid around the electrodes would cause the impedance monitor to give
a low impedance reading regardless of the depth
of ablation which had already been carried out,
since current would continue to travel through the
low-impedance liquid layer.60
A POSITA would understand the inventors to be
explaining how the presence of the liquid layer around
the surface electrodes would distort any impedance
reading, since the current would be diverted to that
low-impedance liquid layer instead of through the
tissue. Because the liquid layer is a low impedance
layer, the physician would get a false reading indicating that the tissue is not yet sufficiently ablated, when
in fact the correct depth of ablation may have been
reached. The drawing below graphically illustrates
this problem where the current flowing between
positive and negative electrodes is diverted through
the low-impedance liquid layer instead of through the
tissue:

59

2:25-31.

60

11:22-28.

201

97. Also, as the inventors describe in the “Background” section, the diversion of the current through
the liquid layer heats the liquid and turns what was
intended to be an RF ablation into an undesirable and
uncontrolled thermal ablation.
98. I understand that the inventors added the
subject matter of the 2nd Embodiment two years after
they disclosed the 1st Embodiment and after they had
continued to refine their prototype.61 In contrast to the
1st Embodiment, the 2nd Embodiment does not
describe the use of an “open cell sponge” or other
absorbent material as an option.62 Rather, the 2nd
Embodiment teaches that the external electrode array
“is formed” of a permeable “mesh” without the use of
optional language, such as “may be.”63 In addition, the
61

Truckai Decl., ¶ 12.

62

Compare 5:52-60.

63

See 12:9-11 (“the array 102a of applicator head 102 is formed
of a stretchable metallized fabric mesh”); 12:49-50 (“The mesh
may be configured in a variety of shapes, including . . .”); 12:9-64
(repeatedly describing the external electrode array as a

202
2nd Embodiment drops any mention of “passive”
moisture removal and instead describes the use of
suction (i.e., active moisture removal) to draw the
moisture into the array. The 2nd Embodiment also
adds additional holes along the outer flexures, as
illustrated in Figure 28 below:64

A POSITA would understand that these changes
allowed the device to even more efficiently draw moisture into the permeable external array and away from
the tissue.
99. The common specification also informs a
POSITA that the array must be permeable in other
ways. For example, it describes suction/insufflation
tube 17 as a dual-use tube. The common specification
teaches and illustrates that, at one point during the
operation of the device, the central tube 17 is used to
flow CO2 into the uterine cavity (see the arrow just
permeable “mesh” and preferably as a “knit”); 15:22-23
(describing “the porosity of the array fabric”); also for example
Fig. 26A.
64

See also, e.g., 13:15-18, 18:40-52; Figs. 23 (item 102a), 26AB, 27A-C, and 28.

203
below the fundus “F” in Fig. 6).65 Importantly, the
common specification teaches how suction/insufflation
tube 17 is located inside the RF applicator head:

A POSITA would understand that in order to flow CO2
in through tube 17 (which sits inside the array) and
have that gas flow out and into the uterine cavity, by
necessity the array must be permeable—and the specification so states:
65

See also 9:29-39 (“carbon dioxide gas is introduced into the
tube 17 via the port 38, and it enters the uterine cavity, thereby
expanding the uterine cavity”).

204
If insufflation of the uterine cavity is desired,
insufflation gas, such as carbon dioxide, may be
introduced into the suction/ insufflation tube 17
via the port 38. The insufflation gas travels
through the tube 17, through the holes 17a, and
into the uterine cavity through the permeable
electrode carrying member 12.66
100. The common specification also teaches a
POSITA that the other use of suction/insufflation tube
17 is to apply suction during the ablation itself to
improve the contact between the electrodes and the
uterine tissue:
As described above, the application of suction to
the RF applicator head 2 via the suction/insufflation tube 17 collapses the uterine cavity onto the
RF applicator head 2 and thus assures better contact between the electrodes and the endometrial
tissue.67
A POSITA would again have understood that the use
of suction through tube 17 to collapse the uterine
tissue onto the surface of the RF applicator head (and
thereby assure better contact between the tissue and
the electrodes on the surface of the array) only works
because the array is permeable. If the array were nonpermeable, it would not have the described effect of
collapsing the tissue into better contact with the
electrodes.
101. Turning to the “electrode”-related terms such
as “one or more electrodes,” a POSITA reading the
common specification would understand that what66
67

8:19-35.

10:14-19 and 18:40-43 (describing how vacuum/suction is
used to, “draw uterine tissue into contact with the array 102”).

205
ever the number or pattern of electrodes, in every
embodiment, all of the electrodes reside on the surface
of the external electrode array. All of the electrodes are
placed on the surface of the array in order to make
contact with the uterine tissue. Put another way, the
common specification does not disclose or describe any
embodiment where one or more electrodes reside
completely inside the array such that it (or they) do not
contact the tissue during the ablation.
102. My opinion is consistent with what I
described earlier; namely, that by the 1990s a POSITA
would have understood that RF ablation devices
designed for use in human body cavities were generally designed to have the electrodes contact the tissue
in order to ablate it. These RF devices used “resistive”
heating, as opposed to “thermal” heating of the tissue.
As I discuss above, a POSITA would have understood
that the focus of the invention described is to eliminate
the intervening moisture layer by drawing the liquid
into a permeable or absorbent external electrode
array. This “moisture transport” system allows better
contact between the electrodes on the surface of the
external electrode array and the uterine tissue. It is
the elimination of this undesirable moisture layer that
allows the unimpeded contact between the surface
electrodes and the tissue, thereby allowing a physician
to better monitor and control the depth of ablation.
103. Working again through the common specification, a POSITA would note that the title of the
common specification refers to the need for the electrodes to contact the tissue, (i.e., “. . . Contact
Electrocoagulation”).
104. The Abstract states, “[f]ollowing placement of
the ablation device into contact with the tissue to be
ablated[.]”

206
105. A POSITA would note that every Figure in
the common specification relating to the electrodes
shows the electrodes on the exterior surface of the RF
applicator head such that they can contact the tissue.
E.g., Figs. 2, 5A, 23 and 25A-B.
106. Although the common specification describes
different shapes and patterns of electrodes, Figures 18
and 19A-C illustrate how nevertheless all of the electrodes are shown in direct contact with the uterine
tissue.68 See e.g., Fig. 19C (the electrodes are labeled
“+” and “-”, while the Tissue is labeled “T” below):

107. Next, a POSITA would understand that the
“Background” section of the common specification
describes the problems caused when the moisture
layer creates an undesirable current path “around the
electrodes.” There is no language of exclusion or mention that this problem only relates to some subset of
the electrodes. Thus, a POSITA would understand
that not just one, but all of the electrodes are designed
to contact the tissue. The common specification reinforces the importance of drawing moisture away from

68

3:34-41 (Description of figures, “showing electrodes in
contact with the tissue surface”).

207
the electrodes, since otherwise the liquid build-up
around them would obstruct contact with the tissue.69
108. Again, the “Summary of the Invention,”
which is describing “[t]he present invention,” describes
how the “electrode array” has “conductive regions
thereon,” and unambiguously states that, “[d]uring
use, the electrode array is positioned in contact with
tissue to be ablated.”
109. A POSITA would take account of how the
“Detailed Description” of the common specification
teaches how “according to the present invention” the
RF applicator head includes an array of electrodes
“formed on the surface” of the array:
Referring to FIGS. 1 and 2, an ablation device
according to the present invention is comprised
generally of three major components: RF applicator head 2, main body 4, and handle 6. Main body
4 includes a shaft 10. The RF applicator head 2
includes an electrode carrying means 12 mounted
to the distal end of the shaft 10 and an array of
electrodes 14 formed on the surface of the electrode
carrying means 12.70
110. There is no statement to the contrary. There
is no description in the common specification of one or
more electrodes designed to reside only inside the
applicator head, or designed not to contact the tissue.
The clear statement put in terms of “the present
invention” about the electrodes being “formed on the
69

2:9-19 (“liquid around the electrodes”), 10:59-62, 11:1-8
(“Removal of the moisture from the ablation site prevents formation of a liquid layer around the electrodes.”) and 11:22-28
(disparaging prior art RF devices that allow for “the presence of
liquid around the electrodes”).
70

4:54-61.

208
surface” would inform the POSITA that indeed, all
electrodes relevant to the claimed invention are
formed on the surface (and not the interior) of the
array.71
111. The common specification goes on to describe
how the electrodes: (i) may have a variety of patterns,
(ii) can be made from a variety of materials, and (iii)
can be formed on the exterior surface of the RF applicator head in a variety of ways. However, in every
embodiment without exception the electrodes are
formed on the tissue-contacting surface of the RF
applicator head.72 The common specification describes
in detail how the electrodes can be formed on the
surface of the array by plating the outer surface with
gold or some other conductive material.73
112. The common specification goes on to reinforce
the importance of how, “during use it is most desirable
for the electrodes 14 on the surface of the electrode
carrying means 12 to be held in contact with the
interior surface of the organ to be ablated[.]”74It also
describes various alternative ways to improve contact
between the electrodes and the tissue by means of: (i)
“spring members”; (ii) “a pair of inflatable balloons . . .
71

See also Fig. 5A and 5:40-41.

72

5:52-6:11 and 12:53-13:7 (describing a four-electrode surface
pattern of the 2nd Embodiment).
73
74

12:9-48

2:40-41 (“During use, the electrode array is positioned in
contact with tissue to be ablated,”), 3:35 (“ablation electrodes in
contact with the tissue surface”), 3:39, 6:21, 8:47-49 (“Because
during use it is most desirable for the electrodes 14 on the surface
of the electrode carrying means 12 to be held in contact with the
interior surface of the organ to be ablated”), 11:61-67, 12:5-8 and
18:33-34 (“deflecting mechanism 102b has deployed the array
102a into contact with the uterine walls.”).

209
arranged inside the electrode carrying means 12;” or
(iii) “the application of suction” to “draw the organ
tissue towards the electrode carrying means 12 and
thus into better contact with the electrodes 14.”75
113. The common specification describes in detail
the operation of the ablation device “according to the
present invention.” For example, it describes in detail
the use of sensors to establish contact between the
electrodes and the endometrium.76 A POSITA would
also understand that “[t]he second embodiment differs
from the first embodiment primarily in its electrode
pattern”—but not in the fundamental need to make
contact with the tissue.77 As with the 1st Embodiment,
the RF applicator head is designed to “expand into
contact with body tissue.”78 A POSITA would also
understand that in describing the “Operation” of the
endometrial ablation device, the need for “contact”
between the electrodes and the tissue is never
described as optional. Rather, the specification repeatedly discusses alternate and/or more effective ways to
insure contact with the tissue.79 Ergo, it follows that
the electrodes are only being described as on the
surface or exterior of the RF applicator head. I see no
written description support for one or more electrodes

75

8:47-9:6.

76

9:18-21 and 9:59-10:25 (refers in various places to “sufficient
contact,” “good contact,” and “better contact”).
77

11:50-58 and 12:1-8.

78

11:59-67; 15:16-45 (describing the “adjacent electrodes” at
15:21); Figs. 25A, 25B and 33.
79

E.g., 18:33-34 (“deployed the array 102a into contact with
the uterine walls.”) and 18:41-43 (“Suction helps to draw uterine
tissue into contact with the array 102.”).

210
designed to reside on the interior of the RF applicator
head, or otherwise out of reach of the tissue.
E. Prosecution History of the Asserted Moisture Transport Claims
114. For purposes of my analysis, I was asked to
assume that the Asserted Moisture Transport Patents
have a May 8, 1998, date of invention, which
corresponds to the earliest application filed with the
Patent Office to which both asserted patents claim the
benefit (i.e., priority):
Asserted Patent
’348 Patent
’989 Patent

Asserted Date of Invention
May 8, 199880

115. I am informed that Plaintiffs have asserted
even earlier dates of conception, but that those dates
do not apply to this analysis regarding validity based
on the written description and enablement requirements, which focus on the applications actually filed
with the Patent Office and their respective actual
filing dates.
F. The Moisture Transport Family: Dates of
Applications and Patents
116. I understand that the Asserted Moisture
Transport Patents are related to U.S. Application No.
09/103,072 (“the ’072 Application”) through a string
of related patent filings. The ’072 Application was
filed on June 23, 1998, and issued as U.S. Patent No.
6,813,520. The ’072 Application, in turn, claims
the benefit of U.S. Provisional Application No.
80

’348 patent, 1:12-13; ’989 patent, 1:14-16.

211
60/084,791. The following diagram depicts the Moisture Transport Family:
81

Every utility application in the Moisture Transport
Family shares a common specification, as I have
previously indicated.
117. I note that all of the issued claims in the
moisture transport family chain, starting with the
issued claims of the ’072 Application through the ’506
Application included limitations regarding the permeable nature of the external array of the applicator
head, or the need for suction through the applicator
head (which necessarily requires the applicator head
to be permeable).

81

’348 patent, 1:1-13; ’989 patent, 1:1-16.

212
118. On August 8, 2013—15 years after the May 8,
1998 priority date—Plaintiffs filed the application
that issued as the ’348 Patent. The ’348 patent was the
first patent in the family chain to issue with claims
that no longer included any permeability-related limitations, and thus were broader and more generic with
respect to the nature of the “applicator head” element.
Likewise, the later ’989 patent also included broader
and more generic claims with respect to the nature of
the “energy applicator” element.
G. The NovaSure Product
119. Plaintiffs’ endometrial ablation system has
two basic components: a disposable handpiece and an
RF Controller. It is the handpiece—and in particular
the distal end—that is at issue for purposes of my
analysis, as it is the distal end that corresponds to the
“applicator head” and “electrode” elements of the
Asserted Moisture Transport Patents. The NovaSure
uses only RF energy to ablate tissue.
120. The NovaSure device includes an external
electrode array that is formed from a metalized,
porous fabric. All electrodes (both positive and negative) are formed on the exterior, tissue-contacting
surface of the array. Steam and moisture are continuously from the tissue as it dessicates by the use of
suction. This moisture is drawn into the applicator
head, and is then sucked out through a central hypotube.82 This use of a fluid-permeable fabric on the
exterior of the applicator head to draw moisture from
the interface between the fabric and the uterine tissue

82

See D.I. 87, Exhibit 11 (NovaSure Operator Manual) at
MSI00017165

213
during the ablation is fundamental to the NovaSure
design.83 84
121. During a procedure, the NovaSure device
delivers up to 180 watts of ablation energy to the
patient during a procedure.85 Consequently, ablated
tissue tends to stick to the NovaSure’s RF Applicator
head during a procedure.86
122. Also, I am aware that some physicians have
found the Minerva device to be easier to insert into a
uterus than the NovaSure device. On at least one
occasion, a physician made “many attempts” to insert
a NovaSure device but was “unable to gain access to
the cavity with the NovaSure device.” This physician
was able to complete the procedure with the Minerva
device.87
123. The following is an image of the RF applicator
head from a NovaSure device (see positive and negative electrodes in gold on one face of the RF applicator
head):

83

Id.; see also D.I. 29 (Redacted Evantash Decl.) at ¶ 11.

84

See also my previous descriptions of the NovaSure product
from my prior declarations in this case.
85

See D.I. 87, Exhibit 11 (NovaSure Operator Manual) at
MSI00017165
86

See the video at MSI00002329.

87

See HOL-MIN_005788

214
H. Minerva’s Plasma Formation Array (PFA)
124. Minerva’s Endometrial Ablation System
(“EAS”) has two basic components: a disposable handpiece and a Controller. It is the handpiece—and in
particular the distal end—that is at issue for purposes
of my analysis, since it is the distal end that Plaintiffs
assert falls within the scope of the “applicator head”and “electrode”-related elements of the Asserted
Moisture Transport Patents.
125. Minerva’s handpiece employs what is in my
experience a very unique Plasma Formation Array
(“PFA”) to ablate uterine tissue. Initially, I note that
Minerva’s Pre-Training Study Manual includes a relatively layman-friendly tutorial of the scientific and
technical concepts underlying Minerva’s technology
(such as a discussion of plasma, argon, ionization and
RF energy).88 I also note here the description in Mr.
Truckai’s declaration regarding the design, development, and technology built into Minerva’s PFA.89
126. The distal end of Minerva’s handpiece (a.k.a.
the PFA) deploys an external sealed silicone membrane into the uterine cavity—not a permeable fabric,
mesh, or other porous material as is used for the
exterior of the NovaSure’s applicator head.90 Minerva’s
sealed silicone membrane is fluid-tight and non-

88

D.I. 87, Ex. 10 at pages MSI00004508-13

89

Truckai Decl., ¶¶ 31-41.

90

D.I. 87, Ex. 10 at MSI00004500 (“The Minerva Endometrial
Ablation System uses bipolar RF electrical current . . . to ionize
argon (AR) gas, which is fully contained and circulating within a
sealed silicone membrane covering the plasma formation array
(“PFA”).”).)

215
permeable. Below is an image of Minerva’s working
end complete with the external sealed silicone
membrane:
91

Unlike the NovaSure’s/’348 patent’s moisture transport
system, Minerva’s EAS does not draw moisture
through an external permeable cover and away from
the uterine tissue. This is because Minerva’s external
membrane is sealed and fluid tight, as described in at
least in the following documents:


91

Pre-Training Study Manual at MSI00004500:
“During the ablation cycle, the Minerva system
does not proactively evacuate the liquid

D.I. 87, Ex. 12 (Minerva Operator Manual) at MSI00001987
(“Argon gas is fully contained within the Minerva Disposable
Handpiece silicone membrane and is not released into the uterine
cavity during the ablation procedure.”)

216
contents from the uterine cavity. These liquids
remain in the uterine cavity, are heated by the
membrane, and used to ablate the endometrial
tissue that is not in direct contact with the
membrane. This is especially helpful when the
cavity is distorted by small intracavitary or
intramural pathology or when the uterine
cavity lacks axial symmetry . . . the Minerva
Endometrial Ablation System uses bipolar RF
electrical current at a frequency of 480 kHz to
ionize argon (AR) gas, which is fully contained
and circulating within a sealed silicone membrane covering the plasma formation array
(PFA).”92


Minerva Operator Manual at MSI00001987:
“Intracavitary moisture is not removed during
the energy delivery process. Argon gas is fully
contained within the Minerva Disposable Handpiece silicone membrane and is not released
into the uterine cavity during the ablation
procedure.”93



HDD Pneumatics at MSI00002337: “The perforation detection subsystem . . . verifies that no
other cavity leak exists, such as a perforation
in the plasma membrane.”94

As I discuss further below, Minerva’s design operates
in a different way to exploit and benefit from the

92

D.I. 87, Ex. 10.

93

D.I. 87, Ex. 12.

94

D.I.87, Ex. 82.

217
presence of a moisture layer between the exterior of its
sealed silicone membrane and the uterine wall.95
127. Plasma Argon Gas. In Minerva’s design, there
is only a single return electrode (of a first polarity) on
the outer surface of the membrane.96 The other electrode (of opposite polarity) is located inside the nonpermeable silicone membrane.97 The inner electrode
never makes contact with the uterine tissue. Prior to
and during the ablation, the Minerva EAS pumps an
inert Argon gas into the sealed silicone membrane.
The inner electrode ignites the Argon within the
membrane, turning it into a glowing blue plasma:98

95

See also my previous declaration in this case describing the
operation of Minerva’s device.
96

D.I. 87, Ex. 12 (Minerva Operator Manual) at MSI00001986
(“A single tissue contacting electrode resides on the outer surface
of the membrane.”).
97

D.I. 87, Ex. 12 (“[T]he expanded frame acts as the internal
electrode inside the membrane.”).
98

D.I. 87, Ex. 12 at MSI00001986-87 (“Argon gas inside the
membrane is ionized by the RF energy delivered by the internal
electrode . . . The heat generated from the ionized argon plasma
allows for the controlled transfer of energy to the uterus for the
purpose of endometrial tissue ablation.”); also D.I.87, Ex. 10 (PreTraining Study Manual) at MSI00004508-09.

218
The plasma forms filaments of electricity that emanate a visible blue light. These filaments can be seen
by the naked eye in Minerva videos that show its PFA
in operation.99 Minerva’s EAS ablates tissue using hot
membrane tissue contact, hot cavity fluid tissue
contact, and also RF energy mechanisms of action as
illustrated below:100

128. Primary Thermal Mechanism. Due to the
physics of the Minerva device, once the plasma is
ignited, the filaments seek out and heat points along
the inside of the sealed silicone membrane that are
adjacent to tissue that requires additional ablation.101
That heat is conducted through the sealed silicone
99

MSI00001654 (D.I. 87, Ex. 7) (PFA in operation);
MSI00120135 (D.I. 87, Ex. 19) (PFA in saline); and MSI00002251
(D.I. 87, Ex. 15) (PFA in egg white).
100

D.I. 87, Ex. 10
MSI00004499 & 4507.
101

(Pre-Training

Truckai Decl., ¶¶ 21-30.

Study

Manual)

at

219
membrane and heats the adjacent uterine tissue. This
heating is demonstrated in the attached video of
the Minerva PFA in operation heating egg white.102
Minerva’s distal end uses a thermally-conductive silicone membrane to uniformly heat the uterine tissue.103
129. In my opinion, a POSITA would not understand the common specification to teach or disclose
any plasma formation mechanism. I am not aware of
any other endometrial ablation device (including the
NovaSure product) that uses anything like the plasma
formation mechanism used by Minerva’s EAS design.
130. Secondary Thermal Mechanism. In the process of ablating the tissue, the moisture layer builds
up along the exterior of Minerva’s sealed silicone
membrane and along the tissue/membrane interface
as described or illustrated by the documents below:


MSI00168258 (D.I. 24): video attached as
Exhibit 16 to the Cohn Declaration at 16-22
seconds.



D.I. 87, Ex. 10 (Pre-Training Study Manual) at
MSI00004500: Minerva’s system “does not proactively evacuate the liquid contents from the
uterine cavity. These liquids remain in the
uterine cavity, are heated by the membrane,
and used to ablate the endometrial tissue that
is not in direct contact with the membrane.
This is especially helpful when the cavity is
distorted by small intracavitary or intramural
pathology or when the uterine cavity lacks axial
symmetry.”

102

MSI00002251, (D.I. 87, Ex. 15)(egg white video).

103

D.I. 87, Ex. 10 (Pre-Training Study Manual) at MSI00004500.



220
D.I. 87, Ex. 12 (Minerva Operator Manual) at
MSI00001987: “Intracavitary moisture is not
removed during the energy delivery process.”)
and MSI00001989 (“The combination of the
heat conducted through the membrane wall
from the plasma to adjacent endometrial tissue, retained heated intra-cavitary moisture
that fills gaps around the surface of the array,
and a small amount of bipolar RF current
traveling through the target tissue (and resultant heat), results in the ablation endometrial
tissue.”).

131. Minerva’s PFA heats the moisture layer in
the interstices of the tissue, thereby facilitating a more
uniform ablation, and using roughly 40 Watts.104
132. In contrast to Minerva’s maximum output of
40 watts, the common specification describes how an:
EEPROM within the RF generator system converts the length and width to a set power level
according to the following relationship:
P=LxWx5.5
Where P is the power level in watts, L is the
length in centimeters, W is the width in centimeters, and 5.5 is a constant having units of watts
per square centimeter.105
Thus, for an ablation area of 6.5cm in length and
4.5cm in width (for example), the invention described

104

D.I. 87, Ex. 10 (Pre-Training Study Manual) at MSI00004500
(“creating a uniform and reproducible ablation”) and MSI00004517
(“system operates at a max power output of 40 watts”).
105

15:67-16:6.

221
in the common specification would require 160 watts
(6.5 x 4.5 x 5.5).
133. Tertiary Mechanism. Small amounts of RF
current from the filaments that emanate from the
internal electrode pass across the dielectric silicone
membrane by a phenomenon known as capacitative
coupling. These filaments are attracted to a low
impedance area where the tissue needs further ablation. While the energy is not large, it is important in
treating tissue needing further ablation and in adding
to the uniformity of the ablation. This is the “scanning”
phenomenon described in Minerva’s PFA patents that
contributes greatly to the uniformity of the ablation.
134. Because the Minerva device uses its patented
plasma formation technology to ablate the tissue and
also uses a relatively small amount of RF current to
control the depth of ablation, it also more evenly
ablates the tissue using only a quarter of the power of
the NovaSure device. Consequently, Minerva’s device
does not generate nearly the same level of steam as
the NovaSure product, and therefore (unlike the
NovaSure) steam does not need to be actively evacuated during the procedure. In other words, no moisture
transport system as described in the Moisture
Transport Patents is needed. This is illustrated in a
side-by-side video of both devices.106 With Minerva’s
PFA, the heated liquid layer is retained and used productively to gently ablate the millions of tiny internal
folds of uterine tissue.
I. Minerva’s Patented PFA Technology
135. Here I incorporate by reference the facts set
out by Mr. Truckai regarding Minerva’s PFA patents.
106

D.I. 87, Ex. 25

222
I have confirmed that during prosecution of its PFA
patents, Minerva’s disclosed the entire common specification by virtue of disclosing the ’520 patent to the
Patent Office.
136. Exhibit D to this Report includes claim charts
comparing a claim of each of the Minerva’s PFA
patents to Minerva’s EAS. In my opinion, Minerva’s
EAS practices the claims cited in Exhibit D.
137. In my opinion, Minerva’s EAS embodies each
of the three Minerva PFA patents included in Exhibit
D.
J. A POSITA Would Not Find Written Description Support For the Full Scope of the
Asserted Moisture Transport Claims In the
Common Specification
1. Lack of Written Description
138. In my opinion, a POSITA reading the common
specification would not find that the inventors were in
possession of the full scope of the Asserted Moisture
Transport Claims. The disclosures of the common
specification fail to reasonably convey to a POSITA
that the inventors had possession of the subject matter
that Plaintiffs’ assert falls within the scope of the
asserted claims, for all of the above reasons which I
summarize below, and therefore the Asserted Moisture Transport Claims are invalid.
139. A POSITA would understand the common
specification to disclose that the inventors had possession of only a species of RF applicator head with a
permeable or absorbent tissue contacting surface into
which moisture is drawn in order to prevent formation
of a moisture layer along the exterior surface of the
device (i.e., the moisture transport system). The

223
common specification describes in detail the numerous
reasons why the failure to “prevent” or “eliminate”
* * *
DEFINITIONS
Plasma. In general, this disclosure may use the
terms “plasma” and “ionized gas” interchangeably. A plasma consists of a state of matter in which
electrons in a neutral gas are stripped or “ionized”
from their molecules or atoms. Such plasmas can
be formed by application of an electrical field or by
high temperatures. In a neutral gas, electrical
conductivity is non-existent or very low. Neutral
gases act as a dielectric or insulator until the
electrical field reaches a breakdown value, freeing
the electrons from the atoms in an avalanche process thus forming a plasma. Such a plasma provides mobile electrons and positive ions, an acts
as a conductor which supports electrical currents
and can form spark or arc. Due to their lower
mass, the electrons in a plasma accelerate more
quickly in response to an electric field than the
heavier positive ions, and hence carry the bulk of
the current.
There is no equivalent disclosure of even a plasma in
the common specification of the Moisture Transport
Patents; much less any description or enabling disclosure for how to harness the use of such a plasma into
the distal end of an endometrial ablation device.
167. I further observe that Minerva’s accused PFA
design uses a non-permeable (i.e., fluid tight) balloon
to enclose the Argon gas. This use of a non-permeable
balloon designed to retain the moisture layer, and that
primarily relies on a thermal ablation, is not enabled
and is indeed contrary to the teachings of the common

224
specification. As I note above, the common specification repeatedly disparages and teaches away from
each of these features. Yet, due to the physics of its
plasma formation array (e.g., the “scanning” mechanism whereby the plasma filaments actually seek out
the less ablated tissue as described in Minerva’s PFA
patents), Minerva’s PFA is able to achieve what is in
my opinion a gentle, even and well-controlled delivery
of energy, which is customized to the patient’s uterus,
in contravention of the teaching in the common
specification that thermal techniques were less subject
to control. Thus, this further informs my opinion that
the common specification of the Moisture Transfer
Patents lacks an enabling disclosure.
3. A POSITA Would Understand That
Minerva’s “Scanning” Mechanism Was
Not Predictable.
168. The fact that Mr. Truckai was surprised by
the physics of how his plasma formation array was
able to achieve a more gentle and even ablation further supports my opinion that a POSITA would have
had to engage in undue experimentation to enable the
full scope of the Asserted Moisture Transport Claims.
As Mr. Truckai relates, the “scanning” mechanism
described in detail in his PFA Patents was an unpredictable benefit of how the plasma filaments would
very rapidly seek out the low-impedance paths
through the target tissue.126 I agree based on my experience that this would not have been a predictable
result at the time based on Mr. Truckai’s novel use of
plasma formation technology to ablate tissue through
a thin-walled dielectric membrane. I understand my
126

Truckai Decl., ¶¶ 30, 36, 41; see, e.g., columns 11-12 and
Figs. 9A-D of U.S. Pat. No. 8,372,068.

225
opinions in this regard relate to Wands factor number
7.
169. I further note that Mr. Truckai describes
other discoveries in the course his PFA development,
such as:127
In one aspect of the invention, FIG. 10 is a
circuit diagram representing the steps of the
method in FIGS. 9A-9D which explains the discovery that return electrode 205 can have a small
surface area and not be subject to significant
heating. In
* * **
O. Conclusions Regarding the Asserted Pressure Sensor Patent
262. Thus, the Asserted ’183 Patent Claims are
invalid because they (i) fail to meet the written
description requirement; and independently because
they (ii) fail to meet the enablement requirement.
XI. RESERVATIONS OF RIGHTS
263. Although I have cited particular evidence in
this report, I have done so to assist in understanding
my conclusions and the bases for them. This report
does not discuss every piece of evidence that could be
used to support by conclusions. Accordingly, 1 may
affirm, update, or modify my opinions based on such
other evidence as necessary.
264. I may make additions or modifications to my
conclusions in the future, based on new evidence that
is presented to me. For trial, I may prepare diagrams,

127

The ’068 Patent at 12:47-50.

226
charts, and other demonstratives to illustrate my
conclusions or the technology at issue.
Dated: June 30, 2017
/s/ Robert Tucker
Dr. Robert Tucker, Ph.D., M.D.

227
[1] IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 15-1031-JFB-SRF
————
HOLOGIC, INC. and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs and Counterdefendants,
vs.
MINERVA SURGICAL, INC.,
Defendant and Counterclaimant.
————
HIGHLY CONFIDENTIAL –
ATTORNEYS’ EYES ONLY
Videotaped Deposition of
CSABA TRUCKAI
Wednesday, October 25, 2017
1:02 p.m.
650 Page Mill Road
Palo Alto, California
Janis Jennings, CSR No. 3942, CCRR, CLR
[2] VIDEOTAPED DEPOSITION OF CSABA
TRUCKAI, taken on behalf of the Plaintiffs and
Counterdefendants, at WILSON, SONSINI, GOODRICH
& ROSATI, LLP, 650 Page Mill Road, Palo Alto,
California, beginning at 1:02 p.m. on Wednesday,
October 25, 2017, before Janis Jennings, Certified
Shorthand Reporter No. 3942, CLR, CCRR.

228
[3] APPEARANCES OF COUNSEL
For Plaintiffs and Counterdefendants:
ARNOLD & PORTER KAYE SCHOLER LLP
BY: ASSAD H. RAJANI, ESQ.
3000 El Camino Real
Five Palo Alto Square
Suite 500
Palo Alto, California 94306-2112
650.319.4560
assad.rajani@apks.com
For Defendant and Counterclaimant:
WILSON SONSINI GOODRICH & ROSATI LLP
BY: VERA ELSON, ESQ.
650 Page Mill Road
Palo Alto, California 94304-1050
650.493.9300
velson@wsgr.com
Also Present:
REYNALDO ABESAMIS JR., Videographer Esquire
Solutions
44 Montgomery Street, Suite 1100
San Francisco, California 94104
415.591.3333
[4] INDEX OF EXAMINATION
WITNESS: CSABA TRUCKAI
EXAMINATION
By Mr. Rajani

PAGE
9

229
QUESTIONS NOT ANSWERED
PAGE
12
12
13
14
18
19
21
21
21
23
23
24
24
25
25
26
26

LINE
3
19
12
4
18
2
9
17
23
12
16
16
21
2
12
8
16

[5] QUESTIONS NOT ANSWERED
PAGE
26
27
29
31
31
31
32
32
32
39
39
35

LINE
29
21
5
8
13
20
1
7
11
6
13
29

230
36
37
38
38
39
39
39
40
90
91

6
17
13
20
2
10
19
4
10
2

[6] QUESTIONS NOT ANSWERED
PAGE
91
99
95
95
61
61
62
62
62
62
66
67
116
129
132
132

LINE
6
19
2
7
17
23
4
10
15
21
23
13
29
16
6
18

231
[7] INDEX TO EXHIBITS
EXHIBITS

MARKED

Exhibit 1

Declaration of Csaba Truckai

29

Exhibit 2

Csaba Truckai Employment History;
M5100299668
46

Exhibit 3

PowerPoint Minerva Surgical Board of
Directors Meeting; M5100298766 298845
58

Exhibit 4

PowerPoint Minerva Surgical Board of
Directors Meeting; M510098846 2988953
58

Exhibit 5

USPTO Notice of Recordation of Assignment Document; HOL-MIN 145183 –
145190
74

Exhibit 6

United State Patent No. 9,095,348;
M5100013489 - 13520
100

Exhibit 7

Functional Requirements Specification
Minerva Controller; M5100297528 297535
127

Exhibit 8

Product
Specifications
Minerva
Controller; M5100297538 - 297551 131

Exhibit 9

Attachment B Device Design
Description; M5100052901 - 52958

Exhibit 10

Email thread dated 12/19/14 from Csaba
Truckai Subject: Re: Patent declaration;
M5100021744 - 21745
197

Exhibit 11

Email dated 1/8/15 from Csaba
Truckai Subject: Re: Hologic Signature
Request: Inventor Oath & Declaration;
M5100042873
197

and
191

232
[8] PALO ALTO, CALIFORNIA; WEDNESDAY,
OCTOBER 25, 2017; 1:02 A.M.
THE VIDEOGRAPHER: Good afternoon. We are on
the video record on October 25, 2017, and the time is
1:02. My name is Reynaldo Abesamis Jr.; I’m the legal
videographer. And the court reporter today is Janis
Jennings.
This is the beginning of disc labeled No. 1 for the
deposition of Csaba Truckai in the matter of Hologic,
Inc., versus Minerva Surgical. The case number is 151031-SLR-SRF. We are located today at I Wilson
Sonsini in Palo Alto, California, 94304.
Counsel, please identify yourself for the record,
beginning with the questioning attorney.
MR. RAJANI: Assad Rajani, Arnold & Porter Kaye
Scholer, on behalf of the plaintiffs.
MS. ELSON: Vera Elson of Wilson Sonsini Goodrich
& Rosati on behalf of defendant Minerva Surgical.
Also, in the caption, the initials of the judge you read
are incorrect. It’s no longer Sue Robinson. It’s Judge
Bataillon.
THE VIDEOGRAPHER: Will the court reporter
please swear in the witness.
* * *
[41] BY MR. RAJANI:
Q. How are you aware of that?
MS. ELSON: Instruction not to answer. Privileged.
BY MR. RAJANI:
Q. What do you understand is the current
challenge on the validity of the patents-in-suit?

233
MS. ELSON: Same objection. Instruction not to
answer. Privileged.
THE WITNESS: I’m taking my counsel advice.
MR. RAJANI: And I want to make clear: Your
objection is that what his understanding is of the
current attack on the validity of the patents-in-suit is
privileged?
MS. ELSON: If you can answer that question
without revealing the substance of any attorney-client
communication, you may do so.
Objection. Form. Legal conclusion.
THE WITNESS: Repeat the question, please, one
more time.
BY MR. RAJANI:
Q. What is your understanding of the current basis
for the challenge of the validity of Hologic’s patents-insuit?
MS. ELSON: Same instruction.
[42] THE WITNESS: I don’t think it very simply can
be answered. It’s a number of issues.
BY MR. RAJANI:
Q. What are those issues?
MS. ELSON: Overly broad. Objection. Form. Legal
conclusion.
THE WITNESS: Again, I’m not a legal expert.
That’s why I’m – it’s difficult, you know, to say without
you asking specific questions regarding what are those
items.
BY MR. RAJANI:
Q. You just said it was a number of issues; right?

234
MS. ELSON: Same objection.
THE WITNESS: That’s my understanding.
BY MR. RAJANI:
Q. What’s your understanding of what those issues
are?
A. I would have to make – sorry.
MS. ELSON: No. Go ahead. I was just going to give
the same objection.
If you can answer that question without revealing
the substance of any attorney-client communication,
you may do so.
THE WITNESS: I can’t answer.
[43] BY MR. RAJANI:
Q. Are you aware if Hologic’s patents-in-suit have
been challenged as not enabled?
MS. ELSON: Same objection.
THE WITNESS: Explain. What does it mean
“enabled”?
BY MR. RAJANI:
Q. You don’t know what it means to not enable?
MS. ELSON: Objection. Form. Legal conclusion.
THE WITNESS: It’s a legal term. I’m not a lawyer.
So if you explain to me what does it mean, then I will
answer.
BY MR. RAJANI:
Q. I’m asking if you have an understanding as to
what “enablement” is.
MS. ELSON: Objection. Legal conclusion.

235
THE WITNESS: I would just have to guess.
MS. ELSON: I have to ask for a pause. I’m suddenly
not getting the realtime. Can we go off the record a
moment?
MR. RAJANI: Sure.
THE VIDEOGRAPHER: We are going off the record,
and the time is 1:41.
(Off the record.)
[44] THE VIDEOGRAPHER: We are now going back
on the record, and the time is 1:43.
BY MR. RAJANI:
Q. Mr. Truckai, are you aware that your
declaration is being cited in support of Minerva’s
invalidity arguments in this case?
MS. ELSON: If you can answer that question
without revealing the substance of any attorney-client
communications, you may do so. Otherwise, I instruct
you not to answer.
THE WITNESS: Actually, I don’t know its use. I
don’t know how it is being used.
BY MR. RAJANI:
Q. You prepared Exhibit 1, your declaration, and
you’re not sure how its being used in the case?
MS. ELSON: Asked and answered.
BY MR. RAJANI:
Q. Go ahead and answer.
MS. ELSON: Same – same instruction. If you can
answer that question without revealing the substance
of any attorney-client communication, you may do so.
Otherwise, I instruct you not to answer.

236
THE WITNESS: I am taking my counsel advice.
///
[45] BY MR. RAJANI:
Q. You didn’t ask if your declaration was related to
the invalidity of the patents-in-suit?
MS. ELSON: Instruction not to answer.
THE WITNESS: I’m taking my counsel advice.
BY MR. RAJANI:
Q. Have you ever discussed the invalidity of
Hologic’s patents-in-suit with anyone?
MS. ELSON: Same instruction not to answer.
Privileged.
THE WITNESS: I’m taking my counsel advice.
BY MR. RAJANI:
Q. Let’s go to page 1 of your declaration, paragraph
2. The last sentence refers to a copy of your CV; right?
A. I’m sorry?
Q. The last sentence refers to your CV; correct?
A. Which part are you talking about? I’m sorry.
Q. Paragraph 2, the last sentence.
A.

Yes.

Q. “A copy of my CV.”
A. That’s right.
THE VIDEOGRAPHER: Counsel, I’m going to [46]
ask that you turn off your cell phone. It’s causing some
interference, some static.
MS. ELSON: Mine?

237
THE VIDEOGRAPHER: Both of you.
MS. ELSON: Mine was muted.
THE VIDEOGRAPHER: I’m going to turn off mine
too.
THE WITNESS: I could put on airplane mode
MR. RAJANI: I think he’s saying interference, so I’ll
just turn mine off.
I’m going to mark as Exhibit 2 a document titled
“Csaba Truckai,” and it’s Bates-labeled MSI00299668
through 669.
(Exhibit 2 marked for identification.)
BY MR. RAJANI:
Q. This is a copy of your CV; right?
A.

Yes.

Q. When Novacept was formed,
Novacept’s vice president of R&D; right?

you

were

A. Correct.
Q. In what year was Novacept formed?
A. It’s not a simple answer. So the company was
started in 1993 as Envision Surgical System. Envision
Surgical System.
Q. Envision?
[47] A.

E-n-v-i-s-i-o-n.

Then the company changed its name to Acuvasive.
Q. How do you spell that?
A.

A-c-u-v-a-s-i-v-e, I believe, but I have to check.

Q. Okay.

A.

238
I know we pronounce it “Acuvasive.”

Q. Do you know when you became Novacept’s vice
president of R&D?
A. When we changed the name to Novacept.
Q. And is it at the time of the name change you
became the vice president of R&D?
A.

Yes.

Q. Do you know approximately when that was?
A. I would have to guess. 1995, ’96, something like
that.
Q. You also became Novacept’s president; correct?
A.

Later on, yes.

Q. When was that?
A.

I don’t recall the precise date.

Q. Did you remain Novacept’s president until
2000?
A. Until 1999; December, I believe.
[48] Q. In March of 2000 you joined Novacept’s
board of directors?
A.

No. I was on the board prior to that.

Q. How much earlier were you on the board of
directors of Novacept?
A. Since Envision. So Envision, Acuvasive and
continuation of Novacept. So I was – if you’re looking
at the company, the company started as Envision
Surgical System. Through the name changes, I was
always on the board.
Q. Did you remain on Novacept’s board of directors
until it was acquired by Cytyc, C-y-t-y-c, in 2004?

239
A. I was.
Q. You’re a founder of Minerva; correct?
A.

Yes.

Q. You founded Minerva in 2008; correct?
A. I believe so.
Q. Who named it Minerva?
MS. ELSON: Objection. Form.
THE WITNESS: I think it was the CFO at the time
came up with the name.
BY MR. RAJANI:
Q. Do you know why the company was named
Minerva?
[49] A. Because Minerva is a goddess, you know, for
woman. So since the company purpose is to develop a
product which helps and improve woman healthcare,
that’s why we ended up having the name Minerva.
Q. Was there a particular type of product that
Minerva had in mind at its – strike that.
Was there a particular type of product that the
company had in mind at its founding?
MS. ELSON: Objection. Form.
THE WITNESS: Endometrial ablation product.
DEPOSITION REPORTER: One more time.
THE WITNESS: Endometrial ablation product.
BY MR. RAJANI:
Q. So is it fair to say that you began developing
Minerva’s endometrial ablation product as soon as it
was founded?

240
MS. ELSON: Objection. Form.
THE WITNESS: It’s not a simple answer to that.
BY MR. RAJANI:
Q. Explain it to me.
A. In 2006 we formed a company, and we were
looking at all kind of different technologies. The
company was Arqos, and – but that was just IP holding
company. So we were developing a orthopedic [50]
product, and part of the development was – I would
call it collateral damage. You know, we discovered –
DEPOSITION REPORTER: “I would call it –
THE WITNESS: Collateral. You know –
MR. RAJANI: Collateral damage.
DEPOSITION REPORTER: Oh.
THE WITNESS: – invention, collateral invention.
We realized that the technology has multiple
applications, including the endometrial ablation field.
BY MR. RAJANI:
Q. What was the name of the company formed in
2006 that you just mentioned?
A.

Argos.

Q. How do you spell that?
A.

A-r-q-o-s.

Q. Is Argos listed in Exhibit 2?
A. It was really – it had no employees, so it was an
IP holding company. And Argos split into multiple
companies. We split the IP into multiple fields. It was
a true IP holding company.
Q. Was it an LLC?

241
A. That’s correct.
MS. ELSON: Objection – objection. Form.
[51] THE WITNESS: That’s correct.
BY MR. RAJANI:
Q. Were there other members of Argos?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. Who?
A. John Shadduck, Bruno Strul. I have to look at
the names. The company is no longer in existence,
so . . .
Q. What was Bruno’s last name?
A. Strul.
Q. How do you spell that?
A.

S-t-u-r-l [verbatim].

Q. S-t-u-r-l? Okay.
So is it fair to say that you began developing
Minerva’s endometrial ablation product prior to
Minerva being formed?
A. No –
MS. ELSON: Objection. Form.
THE WITNESS: No, it’s not.
BY MR. RAJANI:
Q. Why do you say that?
A. Because we developed many technologies, and
the technology eventually which is Minerva has [52]

242
nothing got to do with Arqos technology, really. It
wasn’t part – you know, it was just us developing the
orthopedic product. We realized that, you know, there
are other things that are beyond Arqos.
Q. You were the president of Minerva at its
founding in 2008?
A.

Yes.

Q. You were the president of Minerva until May
2011; correct?
A.

It sounds about right.

Q. And that was when Mr. Clapper took over?
A. Correct.
Q. As the president of Minerva, what were your job
responsibilities at a high level?
MS. ELSON: Objection. Form.
THE WITNESS: Give general direction to the
company, put the management team in place, raise the
sufficient funds, and just like many startup company,
you know, do whatever it takes.
BY MR. RAJANI:
Q. With respect to the endometrial ablation
product that Minerva was working on, as the
president of Minerva, did you have any specific
responsibilities – strike that.
As the president of Minerva, did you have [53] any
specific job responsibilities with respect to its
endometrial ablation product?
MS. ELSON: Objection. Form.
THE WITNESS: The company is an endometrial
ablation company, so not precisely. I’m trying to –

243
what – I mean, I – I describe my function of the
company. It’s a single-product company, so its not like,
you know . . .
BY MR. RAJANI:
Q. Thanks for clarifying. So the job responsibilities
you just described earlier, all of those relate to
Minerva’s endometrial ablation product; correct?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. You were also the CEO of Minerva until May
2011; right?
A. Correct. So I have them the same time, the
president and the CEO.
Q. As the CEO what were your job responsibilities?
MS. ELSON: Objection. Form.
THE WITNESS: Same as the president.
///
[55] Q. So you were not an employee of Minerva at
its founding?
MS. ELSON: Objection. Form.
THE WITNESS: I was a consultant CEO.
BY MR. RAJANI:
Q. You have never been an employee of Minerva?
A. I was always a consultant CEO.
Q. Your understanding is you have never been an
employee of Minerva?

244
A. I have never received a salary from Minerva as
a normal employee.
Q. Did you consider yourself an employee of
Minerva at any time?
MS. ELSON: Objection. Form.
THE WITNESS: I was a consultant. Consultancy.
BY MR. RAJANI:
Q. You’re currently a member of Minerva’s board
of directors?
A. Yes, I am.
Q. How long have you been on Minerva’s board?
A. Since inception.
Q. And your title is currently director at Minerva?
A. Board –
[54] BY MR. RAJANI:
Q. Is it fair to say that your job as president and
CEO included managing the company?
MS. ELSON: Objection. Form.
THE WITNESS:
responsibility.

That

was

my

primary

BY MR. RAJANI:
Q. Is it fair to say that as president and CEO your
job included setting the strategic direction of the
company?
A.

Yeah. Somewhat. That is one of the functions.

Q. And as Minerva’s CEO and president, is it fair
to say that your job included implementing that
strategic direction?

245
MS. ELSON: Objection. Form.
THE WITNESS: My job was to execute the company
plan.
BY MR. RAJANI:
Q. Did you bill by the hour when you served as
president and CEO of Minerva?
A.

Yes.

Q. So you billed those hours through Hermes, H-er-m-e-s, Innovations, LLC?
A.

Correct.

[56] MS. ELSON: Objection. Form.
THE WITNESS: Board of directors, member of the
board of directors.
BY MR. RAJANI:
Q. Do you have any – excuse me – do you have any
written agreement with Minerva by which you have
agreed to serve on its board of directors?
A. I – actually, I am not sure. I don’t think so.
Q. Do you understand that one of your duties as a
member of the board is to hire and fire CEOs?
MS. ELSON: Objection. Form.
THE WITNESS: Yeah.
BY MR. RAJANI:
Q. Do you understand that one of your duties as a
member of the board is to assess the direction of
Minerva’s business?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.

246
BY MR. RAJANI:
Q. Do you understand that as a member of
Minerva’s board of directors you owe a fiduciary duty
to Minerva?
MS. ELSON: Objection. Form. Legal conclusion.
[57] THE WITNESS: Yes.
BY MR. RAJANI:
Q. How often does Minerva’s board of directors
meet?
A. Every two to three months.
Q. When the board of directors meets, do you
attend in person?
MS. ELSON: Objection. Form.
THE WITNESS: Not all the time.
BY MR. RAJANI:
Q. How often would you say you attend in person?
MS. ELSON: Same objection.
THE WITNESS: I would say most of the time, but I
don’t have a precise count.
BY MR. RAJANI:
Q. Who – who presents at these meetings?
A. The –
MS. ELSON: Objection. Form.
And I would just caution the witness not to reveal
any attorney-client communications. If you can
otherwise answer the question, go ahead.
THE WITNESS: Company management.

247
BY MR. RAJANI:
Q. Is it only the CEO who presents, or is
[58] there more than one person that presents?
A. Company –
MS. ELSON: Same – same instruction.
THE WITNESS: Company management.
BY MR. RAJANI:
Q. Is it more than one person from company
management that presents?
A.

Yes.

MR. RAJANI: I am going to mark as Truckai Exhibit
3 a document titled “Minerva Surgical Board of
Directors Meeting,” and it is labeled MSI00298766
through MSI00298845.
(Exhibit 3 marked for identification.)
MR. RAJANI: And I’ll also mark as Truckai Exhibit
4 another document titled “Minerva Surgical Board of
Directors Meeting,” and this one is labeled
MSI00298846 through MSI002- – 298953.
(Exhibit 4 marked for identification.)
MR. RAJANI: Here you go.
BY MR. RAJANI:
Q. Are Exhibits 3 and 4 examples of slides that are
presented during board of directors meetings?
A.

It appears so.

Q. Do you have any reason to believe that they [59]
are not the slides presented at board of directors
meetings?

248
MS. ELSON: Objection. Form.
THE WITNESS: I don’t know. I haven’t reviewed
them, so I can’t comment on them.
BY MR. RAJANI:
Q. Do you want to take some more time to look at
them?
A.

Sure.

MR. RAJANI: Oh, and I can represent to you that
these were produced by Minerva, as shown by the
Bates numbers at the bottom corner.
BY MR. RAJANI:
Q. And let me actually ask you to go to just the
cover of Exhibit 3. The document has a date of
Tuesday, April 18, 2017; right?
A. Correct.
Q. Do you specifically remember attending this
meeting?
A. I have to review the material.
Q. Go ahead.
A. I think so, but if you are looking at the board
and you have multiple board meetings and the subject
matter is pretty much the same, so very – very repeat
– very repeated information. So [60] probably I was. If
not, I called in.
Q. And we can speed this along. Do you remember
the specifics of what was said or wasn’t said at any –
at either the meeting on April 18th, 2017 or February
14th, 2017?
MS. ELSON: And I’m just instructing the witness –

249
Well, let me put it this way, Counsel. Would you care
to rephrase that question to exclude any privileged
communications?
BY MR. RAJANI:
Q. I will just start with – I am only asking for a
“yes” or “no,” whether you remember the specifics of
what was discussed at either of those meetings.
A. Somewhat. Not everything. I mean, I would
have to refresh, go back, look at the board meeting
minutes and . . .
Q. Let’s go to the second page of Exhibit 3. The
Bates number ends in 767 in the bottom corner, and
the title of the slide is “Agenda.”
Do you see that?
A. Yeah. Yes, I can.
Q. On what topics are board members briefed
when the board of directors meets?
[61] MS. ELSON: Objection. Form.
THE WITNESS: On all, but in various extent, so it
changes board meetings to board meetings. So even
though you have the agenda, this one doesn’t describe
how much time we spent on each subject.
BY MR. RAJANI:
Q. And just before when you said “On all,” you
were referring to all of the nine topics listed on the
agenda?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. Topic No. 3 reads, “IP Lawsuit Update.”

250
Do you see that?
A. Yes, I can.
Q. Without going into what the substance of that
update is, why is – why are members of the board
given an IP lawsuit update?
MS. ELSON: I’ll instruct the witness not to answer.
Privileged.
BY MR. RAJANI:
Q. Do you understand as a member of the board
why you would be given updates as to IP lawsuits?
MS. ELSON: Instruction not to answer. [62]
Privileged.
THE WITNESS: I’m taking my counsel advice.
BY MR. RAJANI:
Q. Who presents the legal updates at the Minerva
board meetings?
MS. ELSON: Same – same instruction. Privileged.
THE WITNESS: I’m taking my counsel advice.
BY MR. RAJANI:
Q. Does Mr. Clapper provide that update, or is it
someone else in management?
MS. ELSON: Same instruction. Privileged.
THE WITNESS: I’m taking my counsel advice.
BY MR. RAJANI:
Q. Has the board ever discussed Minerva’s legal
strategy in this case?
MS. ELSON: Same instruction. Privileged.

251
THE WITNESS: I’m taking my – my counsel legal
advice.
BY MR. RAJANI:
Q. As a member of the board, do you ever provide
any comments about this litigation?
MS. ELSON: Same instruction. Privileged.
THE WITNESS: I’m taking my counsel legal advice.
[63] BY MR. RAJANI:
Q. Do you currently have an ownership interest in
Minerva by virtue of owning company stock?
MS. ELSON: Objection. Form.
THE WITNESS: Yes, I do.
BY MR. RAJANI:
Q. You own approximately 6 percent of Minerva’s
stock?
MS. ELSON: Objection. Form.
THE WITNESS: Probably you know better than I
do. I don’t know.
BY MR. RAJANI:
Q. You’re not sure how much you own?
A.

No.

Q. Do you own any shares of Minerva where your
ownership interest has not yet vested?
MS. ELSON: Objection. Form.
THE WITNESS: I may have some warrants, so . . .
DEPOSITION REPORTER: “I may have some –
THE WITNESS: Warrants. Warrants.

252
BY MR. RAJANI:
Q. What is that?
MS. ELSON: Objection. Form.
THE WITNESS: It’s a stock where you have [64] the
right to buy it at a certain price.
BY MR. RAJANI:
Q. Like an option?
A.

It’s like a – it’s not an option. It’s a warrant.

Q. How do you spell that word?
A. W-a-r-r-a-n-t.
Q. And through – how did you come to – do you own
any warrants for Minerva stock?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. How did you come to own those?
MS. ELSON: Objection. Form.
THE WITNESS: That was a financing, and prior to
financing the company, they made some bridge funds,
and a note came with a warrant.
BY MR. RAJANI:
Q. So this is something you would have received at
the time when Minerva was founded?
A.

No.

MS. ELSON: Sorry. I didn’t get my objection in.
Objection. Form.
Go ahead.

253
///
[65] BY MR. RAJANI:
Q. When did you receive those warrants?
A. 2011, I would say.
Q. Do you invest in Minerva through any of your
other businesses?
MS. ELSON: Objection. Form.
THE WITNESS: No. It’s in my own money.
BY MR. RAJANI:
Q. Are you an investor in Vivo Capital?
A. No, I am not.
Q. You’re a founder and managing member of
Hermes, H-e-r-m-e-s, Innovations LLC; right?
A. Correct.
Q. Is it your company?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. How much of the company do you own?
MS. ELSON: Objection. Form.
THE WITNESS: It’s an LLC. It’s an equal
distribution to members.
BY MR. RAJANI:
Q. Did you say it was an equal distribution?
A. I don’t know precisely what the distribution
structure is, but, you know, the [66] members are equal.

254
Q. Has Hermes provided Minerva services regarding Minerva’s intellectual property?
A.

Yes.

MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. What kind of services has it provided?
MS. ELSON: And if you can answer that question
without revealing the substance of any attorney-client
communication, you can do so. Otherwise, I instruct
you not to answer.
THE WITNESS: We license certain patents to
Minerva.
BY MR. RAJANI:
Q. Is that the only work Hermes has done with
Minerva?
MS. ELSON: Same instruction.
THE WITNESS: Hermes also provided CFO service
and IP service, which comes with the – licensing the
patent to the company.
BY MR. RAJANI:
Q. Does Hermes provide any services regarding
whether any inventions are patentable?
MS. ELSON: I instruct you not to answer. [67]
Privileged.
THE WITNESS: I’m taking my counsel advice.

255
BY MR. RAJANI:
Q. That’s what you said at your last deposition, so
I would assume that the privilege is waived. What did
you mean in your prior testimony?
A. That we license –
MS. ELSON: Same instruction. You don’t have to
answer. Privilege.
BY MR. RAJANI:
Q. Are you going to answer?
A. I’m taking my counsel advice.
Q. Has Hermes provided any services to anyone
relating to Hologic’s patents-in-suit?
MS. ELSON: Same instruction not to answer.
Privilege.
THE WITNESS: I’m taking my counsel advice.
BY MR. RAJANI:
Q. Has Hermes provided any services to anyone
relating to the NovaSure device?
MS. ELSON: If you can answer that question
without revealing the substance of any attorney-client
communications, you may do so. Otherwise, I instruct
you not to answer.
THE WITNESS: No.
[68] BY MR. RAJANI:
Q. With respect to Hermes providing any services
to anyone regarding Hologic’s patents-in-suit, can you
answer that question without disclosing any attorneyclient communications?
MS. ELSON: I’m sorry.

256
MR. RAJANI: Let me ask the question again.
MS. ELSON: Yeah.
THE WITNESS: Yeah.
BY MR. RAJANI:
Q. Has Hermes provided any services to anyone
relating to Hologic’s patents-in-suit?
MS. ELSON: And if you can answer that question
without revealing the substance of any attorney-client
communications, you may answer that question.
Otherwise, I instruct you not to answer.
THE WITNESS: I can’t answer.
BY MR. RAJANI:
Q. Has Hermes provided any services to anyone
relating to this lawsuit?
MS. ELSON: Again, if you can answer that question
without revealing the substance of any attorney-client
communications, you may answer that question.
Otherwise, I instruct you not to answer.
* * *
[73] Am I pronouncing that correctly?
A. Correct.
Q. M-e-d-r-e-s.
Has Medres –
DEPOSITION REPORTER: I’m sorry.
MR. RAJANI: M-e-d-r-e-s.
DEPOSITION REPORTER: Thank you.

257
BY MR. RAJANI:
Q. Has Medres been involved in any way with the
design of any alternate Minerva handles?
MS. ELSON: Objection. Form.
THE WITNESS: First, I don’t know that there is an
alternate design, and I’m not aware if Medres, you
know, would do any of that.
BY MR. RAJANI:
Q. Okay. Let’s go to page 19 of your declaration,
which was Exhibit 1.
MS. ELSON: I’m sorry. Page 19 or paragraph 19?
MR. RAJANI: Page 19, paragraph 49.
MS. ELSON: Thank you.
BY MR. RAJANI:
Q. The second sentence of paragraph 49 reads:
“One year later, on November 10, 2000, my coinventors and I filed U.S. [74] Application No.
09/710,102, which was later issued as U.S. Patent No.
6,554,780 (the 780 patent).”
Do you see that sentence?
A. Yes, I can.
MR. RAJANI: I am going to mark as Truckai Exhibit
5 a document that’s Bates-labeled HOL-MIN_145183
through 145190.
(Exhibit 5 marked for identification.)
BY MR. RAJANI:
Q. And if you can take a look at it and tell me if you
recognize the document.

258
MS. ELSON: Thank you.
Sorry. This is Exhibit –
MR. RAJANI: 5.
MS. ELSON: 5.
BY MR. RAJANI:
Q. And if it helps you, the page in which I’m
interested is the one ending in 186 titled
“Assignment.”
Have you seen this assignment before?
MS. ELSON: Objection. Form.
THE WITNESS: I’m pretty sure I did, but I’m not –
I can’t recall. It’s been a long time.
///
[75] BY MR. RAJANI:
Q. Does your signature appear on the page ending
in 187?
A. Yes, that’s my statement. Probably I reviewed
it at the time.
Q. Did you sign this assignment in Exhibit 5 under
penalty of perjury?
A.

Yes.

MS. ELSON: Objection. Form. Legal conclusion.
THE WITNESS: I
understanding of the
assignment.

signed this with
declaration, yeah,

my
the

BY MR. RAJANI:
Q. You signed it knowing that it was under penalty
of perjury; right?

259
MS. ELSON: Objection. Form. Legal conclusion.
THE WITNESS: I’m assigned it as a assigner of the
patent, so I’m representing that I’m one of the coinventor of the patent.
BY MR. RAJANI:
Q. I’m trying to understand what your
understanding was when you signed the document.
Did you understand that by signing it you were
signing [76] it under penalty of perjury?
MS. ELSON: Objection. Form. Legal conclusion.
THE WITNESS: Again, I’m – the only thing I’m
saying is that I signed it because I was one of the coinventor.
MR. RAJANI: I’m going to object as nonresponsive.
BY MR. RAJANI:
Q. What did you do before signing this document?
MS. ELSON: Objection. Form.
THE WITNESS: Could you be more specific?
BY MR. RAJANI:
Q. Before you were ready to sign this assignment,
did you do anything to determine whether you would
or wouldn’t sign the document?
MS. ELSON: Objection. Form.
THE WITNESS: We reviewed the patent.
BY MR. RAJANI:
Q. And at this point it would have been a patent
application that you would have reviewed?
A. That’s what I meant.

260
DEPOSITION REPORTER: I’m sorry?
THE WITNESS: That’s what I meant.
[77] BY MR. RAJANI:
Q. And did you certify that you reviewed and
understood the contents of that application? Right?
MS. ELSON: Objection. Form.
THE WITNESS: Yes, I understood it.
BY MR. RAJANI:
Q. And the application number is listed here on the
page ending 186 as application number 09/710,102;
right?
MS. ELSON: Objection. Form.
THE WITNESS: That’s correct.
BY MR. RAJANI:
Q. Let’s go back to – let’s go to the first paragraph
of the assignment. It has the names of a number of the
inventors listed on the first line; right?
A. Correct.
MS. ELSON: Objection. Form.
THE WITNESS: Correct.
BY MR. RAJANI:
Q. And on the next line where it says “Assignors,”
in all capitals, do you see where it says, “have invented
certain new and useful improvements as described
and set forth in the below-identified application for
United States [78] Letters Patent.”
Do you see that part of the sentence?
A. Yes, I can.

261
Q. And you understood that as part of signing this
assignment you attested that you believed that you
invented the subject matter described in the
application?
A. Co-invented.
Q. Do you still believe your statements in Exhibit
5 to be true today?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. Okay. Let’s go back to your declaration, which
is Exhibit 1.
A. Okay.
Q. Page 1.
A. Page?
Q. Page 1.
All right. Do you see a section heading A titled “The
Moisture Transport Prototypes and Patents” towards
the bottom of the page?
A. Yes, I can.
Q. And just generally, in this section of your
declaration, are you describing your prototyping [79]
work at Novacept?
MS. ELSON: Objection. Form.
THE WITNESS: That’s what it describes.
BY MR. RAJANI:
Q. And you turned in your lab notebooks when you
left Novacept; right?

262
A.

Yes.

Q. Do you still have copies of any documents, like
lab notebooks or other documents, reflecting this
prototyping work that you did at Novacept?
A. No, I don’t.
Q. Is it fair to –
A. Everything I had, I provid- – I gave to the
company when I left as an employee.
Q. Is it fair to say that you haven’t seen any
documents reflecting the prototyping work that you
did at Novacept since you left Novacept?
MS. ELSON: Objection. Form.
THE WITNESS: It’s – that’s a correct assumption.
BY MR. RAJANI:
Q. Let’s turn to page 4 of your declaration,
paragraph 8. In the last sentence it says:
“I believed at the time (as I still do today) that it is
highly undesirable to [80] use more electric current
than necessary inside the human body.”
Do you see that sentence?
A. Yes, I can see it.
Q. At the time did you have in mind a certain
amount of electric current that you considered unsafe
in the human body?
MS. ELSON: Objection. Form.
THE WITNESS: There are general guidelines for
that, but you want to use as little as is humanly
possible.
DEPOSITION REPORTER: “Use” –

263
THE WITNESS: As little energy as is humanly
possible.
BY MR. RAJANI:
Q. Why?
MS. ELSON: Objection. Form.
THE WITNESS: If anything goes wrong, with more
energy, you do more damage. So you are trying to
minimize the potential damage can cause by, you
know, the device.
BY MR. RAJANI:
Q. But did you have in mind any particular
threshold of energy that you considered to be unsafe
at the time?
[81] MS. ELSON: Objection. Form.
THE WITNESS: Again, the guidance says that, you
know, you have to do less than 400 watts per second
delivered, so it’s a limit, you know, per the FDA, so –
DEPOSITION REPORTER: I need that again. The
guidance says that, you know, you have to do per
hundred watts per second” –
THE WITNESS: The FDA guidance is 400 watts per
second energy delivered or power delivered to the
patient. That’s a limit set by the FDA. So anything
below that is safe. Nevertheless, you want to use as
little as is humanly possible. You do less harm in
certain cases.
BY MR. RAJANI:
Q. At the time did you have in mind a particular
amount of electric current that was necessary to
perform ablation?

MS. ELSON:
ambiguous.

264
Objection.

Form.

Vague

and

THE WITNESS: Based on the experimentation and
product development at Novacept, we came up with
the energy requirement to perform the procedure.
DEPOSITION REPORTER: To –
THE WITNESS: Perform the procedure.
[82] BY MR. RAJANI:
Q. Let’s stay on page 4 of your declaration,
paragraph 8. It’s the one that begins, “To summarize.”
Do you see that?
A. I’m sorry?
Q. Do you see the paragraph that begins, “To
summarize”?
A.

Oh, yes.

Q. Okay. In the summary paragraph you’re noting
that the presence of a moisture layer would – and I’ll
direct you to iii – “interfere with how the system
controlled the depth of ablation.”
Do you see that?
A. Yes, I can.
Q. In your view, does the presence of a moisture
layer interfere with how the system controls depth of
ablation?
MS. ELSON: Objection. Form.
THE WITNESS: The way the NovaSure system, so
at the time I meant here very specifically a direct RF
device that the electrodes did actively conducting the
tissue, yes. So the answer is yes.

265
///
[83] BY MR. RAJANI:
Q. So the reference to the system –
A. Its a reference to the NovaSure system.
Q. Let’s just remind each other not to cut each
other off.
A. I’m sorry.
Q. It makes it a lot harder for the reporter.
So the problem regarding depth of ablation occurred
because the NovaSure system controlled depth of
ablation by monitoring impedence; right?
MS. ELSON:
ambiguous.

Objection.

Form.

Vague

and

THE WITNESS: Could you repeat that. I mean –
BY MR. RAJANI:
Q. Sure.
A. – you put too many things together there, and –
Q. Sure. I assure you its the fault of the question.
Did the NovaSure system control depth of ablation
by monitoring the impedence of the tissue?
MS. ELSON: Objection. Form.
THE WITNESS: It’s a partial. We monitor the
impedence, but together with the power density [84]
and with the moisture transport we control the depth
of ablation. If it didn’t have moisture transport, it
didn’t control it.

266
BY MR. RAJANI:
Q. Are there other ways in which you could
monitor or terminate ablation rather than monitoring
impedence of the tissue?
MS. ELSON: Objection. Form. Hypothetical.
THE WITNESS: I mean, its been known to the art
that people, for example, used temperature sensors in
the prior art or other means to see how far the tissue
– or just they just used time, depending – dependent
on the type of energy delivered. So its very hard to
answer just like that.
BY MR. RAJANI:
Q. Was it – strike that.
You mentioned temperature. Is it your understanding that it was possible to terminate the delivery of RF
energy when the temperature of the tissue reaches a
particular temperature?
MS. ELSON: Objection. Form. Hypothetical.
THE WITNESS: I can’t – I want to answer, [85] but
I can’t because you – it’s very vague, so it depends how
you doing it.
BY MR. RAJANI:
Q. What would you need to know to determine if
you could use temperature to dictate when the
delivery of RF energy would stop?
MS. ELSON: Objection. Form. Hypothetical.
THE WITNESS: I mean, it is many different ways,
and I – it’s been done in the prior art. I mean, they do
it in cardiac ablation and other areas. It depends on
the very specific procedure and conditions.

267
So, again, I’m – if you want me to explain how, for
example, cardiac ablation works, I can do that; or the
way they did liver ablation, I can do that. But, again,
it depends, you know, on the particular device. So it’s
device- and procedure- and condition-dependent.
BY MR. RAJANI:
Q. Did any of the prototypes that you worked on at
NovaSure use thermocouple or other temperature
sensors to monitor the depth of ablation?
A. Not as I recall. We tried to map, you know, the
ablation depth. So, again, your question, [86] it has to
be a little bit more specific, you know, in what regard.
Q. Do you recall ever using a temperature sensor
or thermocouple to monitor the depth of ablation when
you were developing the prototypes at Novacept?
MS. ELSON: Objection. Form.
THE WITNESS: Yes, but we able to only monitor
the temperature when we turned the RF off – off,
because the RF introduces noise, and you can’t measure – you couldn’t measure at that time temperature.
BY MR. RAJANI:
Q. So you were trying to measure temperature –
A. But we couldn’t in realtime. We couldn’t in
realtime.
Q. Who did that testing?
MS. ELSON: Objection. Form.
THE WITNESS: I was one of the person who did it.
I tried to do that too, but others.
BY MR. RAJANI:

268
Q. Why were you trying to use temperature – why
were you trying to monitor the temperature during the
time that RF energy was on?
[87] MS. ELSON: Objection. Form.
THE WITNESS: So during the ablation, could I
measure in realtime was the depth of heating –heated
zone within the tissue. So I assured that the temperature sensor was inserted into the tissue. It was not on
the surface. It was in the tissue in a certain depth.
DEPOSITION REPORTER: I’m sorry. “So during
the ablation could I measure in realtime was the depth
of heating – heat in zone within the tissues so I
assured that the temperature” –
THE WITNESS: So during the ablation, we were not
able to measure the temperature below the surface of
the tissue, what we try to treat, because of the radio
frequency noise is introduced into the radio – into the
thermocouple.
BY MR. RAJANI:
Q. Is that when you decided to use the monitor
impedence instead?
MS. ELSON: Objection. Form. Mischaracterizes.
THE WITNESS: No. It was a process of development, you know. We tried many things, so . . .
BY MR. RAJANI:
Q. How long would you say that you spent [88]
testing the temperature sensor?
MS. ELSON: Objection. Form.
THE WITNESS: I don’t remember. It was 20-some
– 20 years ago, so . . .

269
BY MR. RAJANI:
Q. Is it hard to recall something 20 years ago?
MS. ELSON: Objection. Form. Argumentative.
THE WITNESS: You do remember certain things.
In some respect, I will not. Precise dates, hours –
I mean, I don’t think you can expect anyone to
remember, you know, how many days, hours, you
know, twenty years ago spent on something. We spent
time on it.
BY MR. RAJANI:
Q. Let’s go to page 12 of your declaration.
Do you see the section heading C in the middle of the
page titled The Development of Minerva’s Accused
Device”?
A. Yes, I can see it.
Q. And is it fair to say that this section of your
declaration describes the development of Minerva’s
EAS? Right?
A. This describes the Minerva PFA, better to [89]
say, which is an integral part of the device.
Q. What you mean to say it doesn’t describe the
entire endometrial ablation system; it more specifically describes the development of Minerva’s PFA?
MS. ELSON: Objection. Form.
THE WITNESS: It described the device but more
focused on the PFA.
BY MR. RAJANI:
Q. Let’s go to page 14 of your declaration,
paragraph – actually, let’s go to page 15, paragraph
41. You write:

270
“To summarize, my team and I had to perform
numerous experiments during the development phases
described above to eventually arrive at the final,
working design of Minerva’s PFA.”
Do you see that?
A. Yes, I can.
Q. So the numerous experiments that you’re
referring to in this sentence refers to the development
of the Minerva PFA; right?
A. Minerva PFA and – yes.
Q. These aren’t the experiments that were necessary to create the NovaSure prototypes; right?
[90] MS. ELSON: Objection. Form.
THE WITNESS: Part – part of the NovaSure device.
I mean, this is the – the primary – the primary
experiments were to develop the plasma formation
within the Minerva device.
DEPOSITION REPORTER: “Within the” –
THE WITNESS: Plasma formation.
DEPOSITION REPORTER: “Within the” THE WITNESS: Within the – the Minerva PFA.
Plasma formation array.
BY MR. RAJANI:
Q. So these were – these were not the primary
experiments that were needed to develop the NovaSur
device; right?
MS. ELSON: Objection. Form.
THE WITNESS: The – again, the primary
experiments, you know, started, way back, you know,
when we were looking at the orthopedic device, and,

271
again, we just realized that, you know, this is
something very usable in other fields. So it’s a long
process. Many things have to be resolved. So if, you
know, you be – if you ask more specific, you know, I
can tell you what you’re looking for.
BY MR. RAJANI:
Q. Yeah. So let’s go back to paragraph 41. [91] In
the first line you are referring to performing numerous
experiments. Do you see that?
A.

Uh-huh.

Q. Are those experiments that you’re describing
related to the development of Minerva’s PFA or the
Novacept device?
A. This is –
MS. ELSON: Objection. Form.
THE WITNESS: This is Minerva device. Did I say
Novacept?
BY MR. RAJANI:
Q. I couldn’t quite tell, but you’ve clarified. Thank
you.
So, to be clear, you don’t believe that these are the
experiments that were necessary to create NovaSure;
right?
MS. ELSON: Objection. Form.
THE WITNESS: Just could you repeat it one more
time.
BY MR. RAJANI:
Q. Yeah.
A.

So these are –

272
Q. The numerous experiments that you referenced
in paragraph 41 –
A.

Yes.

[92] Q. – those are not the experiments that you
believed were necessary to create the NovaSure
prototypes; right?
A. These experiments that perform specifically for
the Minerva device.
Q. I see. Let’s go to page 23 of your declaration. I’ll
direct you to paragraph 60.
A. 21?
Q. Page 23, paragraph 60. The second sentence
of paragraph 60 reads, “Fully aware that the ’183
patent” –
A. I’m sorry. Could I have it one more time.
Q. Second sentence –
A.

Uh-huh.

Q. – reads:
“Fully aware that the ‘183 patent claims the use of
a ‘pressure sensor’ as its solution for monitoring for
perforations in the uterus, we at Minerva decided to
develop our own solution based on the use of a flow
meter.”
You see that; right?
A. Yes, I can.
Q. What do you mean when you say “fully aware”
in this sentence?
[93] A. Since I was a co-inventor, I was aware of the
existence of the NovaSure patent or Novacept at the
time in the company.

273
Q. So the sentence said that, you know, “fully
aware of the ‘183 patent”; the second half, it says, “we
at Minerva decided to develop our own solution.”
Did Minerva decide to use what you referred to here
as a flow meter because the ‘183 patent recited a
pressure sensor?
MS. ELSON: Objection. Form.
THE WITNESS: No. We were aware of the problems
using the pressure sensor. There is – there was lots of
issues with the pressure sensor, and those issues, you
know, created lots of problems in the field – you know,
failed treatments, etc., etc., so you know, to use –
DEPOSITION REPORTER: I’m sorry. “Lots of
problems in the field.”
THE WITNESS: In the field –
DEPOSITION REPORTER: And then –
THE WITNESS: – with physicians where they – its
called a failed treatment. They weren’t able to treat
the patient because the pressure sensor false- – falsely
detected a perforation, and there was no perforation.
[94] BY MR. RAJANI:
Q. So Minerva decided to develop its own solution
using what you call a “flow meter” because of problems
it was seeing in the field?
MS. ELSON: Objection. Form.
THE WITNESS: Because we were aware of the
shortcomings of other devices which is using pressure
sensor and, you know, our goal was to develop a new
technology which is more sensitive and provides the –
the user, the physician, a better method detecting
perforation.

274
BY MR. RAJANI:
Q. And so Minerva was fully aware that the ’183
patent claimed a pressure sensor; right?
MS. ELSON: Objection. Form.
THE WITNESS: I was aware and my co-workers,
yes.
BY MR. RAJANI:
Q. How were your co-workers aware of that?
A. Because I described to them the issues which is
in the field at the time, you know, with the – the
NovaSure product that, you know, many times they
are unable to repair from the ablation because the
pressure sensor faultly declares that you have a
perforation. And one of the goals and [95] what they
set is that we have to come up with a better, more
reliable method to detect perforation, which is very
important.
Q. Let’s turn to page 6 of your declaration,
paragraph 12. And the last sentence of paragraph 12
reads, Our refined prototype” –
DEPOSITION REPORTER: I’m sorry. Can you start
that again.
BY MR. RAJANI:
Q. “Our refined prototype, on which the disclosures
in the MT Provisional and the ’072 application were
based, used a handle with distal and proximal grips
pivotally attached at a pivot point rather than the
earlier syringe-like handle.”
You wrote this sentence?
A.

Yes.

275
Q. Did you use the phrase “pivotally attached at a
pivot point” when you were designing this prototype?
MS. ELSON: Objection. Form.
THE WITNESS: I mean, that was the device we
used. Actually, there was lots of issue with that one
too because the size of handle we ended up [96] with,
it was very uncomfortable for the female users.
MR. RAJANI: I am going to object as nonresponsive.
BY MR. RAJANI:
Q. My question is: Did you use the phrase
“pivotally attached at a pivot point” at the time when
you were designing the prototype?
MS. ELSON: Objection. Form.
THE WITNESS: At the time when I designed a
NovaSure device, I don’t know how I called it. But if I
describe it now, that’s the way I would describe it in
technical terms.
BY MR. RAJANI:
Q. Who was designing the handle, the NovaSure
handle, at the time?
MS. ELSON: Objection. Form.
THE WITNESS: It’s – it was a number of us.
BY MR. RAJANI:
Q. Who?
A. Russ Sampson, myself, Stephanie Squarcia. I
mean, there are a number of people who contributed.
Q. Do you see the phrase in the last line that [97] I
just read referring to “the earlier syringe-like handle”?
A.

Yes.

276
Q. Is it fair to say that the early NovaSure
prototype used a syringe-like handle to open and close
the applicator head?
A.

No.

Q. So what is this reference to “the earlier syringelike handle”?
A. We made a conceptual design, which actually
was put into the patent too. It’s just a potential
embodiment, but it never had the force, you know, to
open or close the device. So it was a conceptual version
which we made actual prototype of, but it was
unfunctional. And on that one, that was only me.
Nobody else.
Q. And do you consider that – strike that. What do
you mean by “conceptual version”? As opposed to
what?
A. I used to go and try to raise money to venture
capital companies, so, you know, we had to do
something, and the easiest version was, you know to
modify the existing syringe-type device. So we didn’t
have the funds to, you know, design very quickly,.
mold, et cetera. so it was a svrinae-tvoe
[99] MS. ELSON: Objection. Form.
THE WITNESS: Our invention really which we
were going for is the moisture transport. Any handle
could do it.
MR. RAJANI: I think we need to change the media,
so let’s go ahead and take a break.
THE VIDEOGRAPHER: This now marks the end of
disc labeled No. 1 of the video deposition of Csaba
Truckai. We are now going off the record. The time is
2:57.

277
(Off the record.)
THE VIDEOGRAPHER: This now marks the
beginning of disc labeled No. 2 in the video deposition
– deposition of Csaba Truckai. We are now going back
on the record, and the time is 3:07.
BY MR. RAJANI:
Q. Mr. Truckai, you understand that you’re still
under oath?
A. Yes, I do.
Q. When we just broke, we were speaking about
some of the early designs involving a syringe-like
handle. Do you recall that?
MS. ELSON: Objection. Form.
THE WITNESS: Yes, we talked about that.
MR. RAJANI: Let me mark as Truckai [98] device
which we took and we modified. But it was never
functional.
Q. So do you consider the earlier syringe-like
handle to be part of what you invented?
MS. ELSON: Objection. Form.
THE WITNESS: The handle is less important in the
early invention. The early invention, what we had is a
moisture transport. It’s not talking about – really
about the handle. The handle does- – it’s not
important.
MR. RAJANI: I’m going to object as nonresponsive.
BY MR. RAJANI:
Q. My question is whether you considered the
earlier – strike that.

278
Did you consider the conceptual embodiment with
the syringe-like handle to be one of your inventions?
MS. ELSON: Objection. Form. Asked and answered.
THE WITNESS: I mean, we never considered this
an invention, the handle.
BY MR. RAJANI:
Q. Okay. You never considered this to be a part of
the invention? [100] Exhibit 6 a copy of the ‘348 patent.
(Exhibit 6 marked for identification.)
BY MR. RAJANI:
Q. You’re familiar with this document?
A.

I’ve seen this document.

Q. Are you a named inventor on this patent?
A.

My name is on the patent.

Q. Can you turn to the drawings that start about
five pages in. The drawing has Figure 1 and Figure 2
side by side. Do you see those?
A. Yes, I can.
Q. What type of handle is depicted in Figures 1 and
2?
A. This drawing is a direct representation of the
syringe type of handle.
Q. And was it your testimony that you did try to
build this type of handle?
MS. ELSON: Objection. Form.
THE WITNESS: We built it, but it never really
performed.
BY MR. RAJANI:

279
Q. When you say “it never really performed,” what
do you mean by that?
A. It wasn’t really able to perform, you know, in a
device. You know, it – you know, it worked as [101] a
mockup device at the time. And the handle for us
wasn’t an important part of the invention. The
invention is the moisture transport array, so we
weren’t really focusing on the handle. It was just a
embodiment. It could have been five different types of
embodiment.
MR. RAJANI: I’m going to object to the last portion
of your response as nonresponsive.
BY MR. RAJANI:
Q. Do you consider this to be – strike that.
Do you consider the mockup that you made with the
syringe-like handle to be a prototype of the NovaSure
device?
MS. ELSON: Objection. Form.
THE WITNESS: No.
BY MR. RAJANI:
Q. Why not?
A. Because we never built one like this which
functioned.
Q. So the only prototypes that you are including
are the ones that have which function?
A. Which perform the moisture transport function.
Q. So if there was an earlier prototype you made
that didn’t perform a particular type of [102] moisture
transport, you don’t consider that to be a prototype of

280
the NovaSure device; right? MS. ELSON: Objection.
Form.
THE WITNESS: So for you to understand what we
had at the time, I mean – repeat, please, one more time
your question. I’m trying to answer it.
BY MR. RAJANI:
Q. I’m trying to understand what you’re defining
as a prototype. And earlier you mentioned that you
don’t consider the syringe-type handle -¬the mockup
that you made with the syringe-type handle to be a
prototype of the NovaSure device; is that fair?
MS. ELSON: Objection. Form.
THE WITNESS: No, because we didn’t care about
the handle. We really didn’t focus on the handle at all.
We didn’t even have a handle. All the prototypes we
built, you know, that was little screws and nuts which,
you know, moved the array open. That’s what we used.
We didn’t have a handle.
BY MR. RAJANI:
Q. Let’s turn to Figure 22 of the ’348 patent. Figure
22 depicts a different type of handle; right?
[103] A. Yes.
Q. And, in your view, is this the pivotally attached
handle?
A.

Yes.

Q. Why?
A. Point –
MS. ELSON: Objection. Form.
THE WITNESS: Sorry. Point 166 is the pivot point.

281
BY MR. RAJANI:
Q. Does Minerva’s handle have a proximal and a
distal handle too?
MS. ELSON: Objection. Form.
THE WITNESS: Could you –
MS. ELSON: Vague and ambiguous.
THE WITNESS: Could you define what’s proximal
and distal?
BY MR. RAJANI:
Q. Do you understand what a proximal and a distal
handle are?
MS. ELSON: Objection. Form. Vague and ambiguous.
THE WITNESS: In the Minerva device or in the
NovaSure device or –
///
[104] BY MR. RAJANI:
Q. Do you – I’ll clarify.
A. I’m sorry.
Q. I’ll clarify.
Do you understand what the terms “distal” and
“proximal” grips mean?
A. What my understanding is, proximal is closer to
me; distal is farther from me. But, you know, since,
you know, so many different types of handles out there
in the world, you know, I cannot give you more precise
information besides – I know the words, but I don’t
know what you’re referring to.
Q. Does Minerva’s EAS handpiece have grips?

282
MS. ELSON: Objection. Form.
THE WITNESS: It has members that you can hold
with your hand.
BY MR. RAJANI:
Q. And are there two grips?
MS. ELSON: Same objection.
THE WITNESS: One moving, one stationary.
BY MR. RAJANI:
Q. Which one do you consider to be stationary?
MS. ELSON: Objection. Form.
THE WITNESS: The one which, you know,
* * *
[129] describing very well, you know, how our UIT
systems work, so I think this has important relevant
information about it.
BY MR. RAJANI:
Q. Can you go to the page that ends in the Bates
number 5310.
A.

Which one? I’m sorry. What number?

Q. 531, the last three digits.
Do you see a comment in the margin?
A. “This need to be modified for real system
simplified diagram.”
Q. Did you author that comment?
A.

I’m not sure.

Q. Do you know who did?
A.

I’m not sure.

283
Q. Who first provided a copy of Exhibit 7 to you?
MS. ELSON: Object- – I’m going to instruct not to
answer. Privileged.
BY MR. RAJANI:
Q. Who first – strike that.
Do you specifically recall receiving this document in
2009?
A. No, yes. But if you asked me, you know, a couple
of years ago, I wouldn’t be able to [130] remember, so...
Q. I’m not sure I understood your answer. Let me
ask it again.
Do you specifically recall receiving this document in
2009?
MS. ELSON: Objection. Form.
THE WITNESS: I remember that – I remember that
I received it, but I didn’t remember precisely the time
until I looked.
BY MR. RAJANI:
Q. Do you specifically recall discussing this
document with anyone in 2009?
MS. ELSON: Assuming you can answer that without revealing attorney-client communications, you can
answer that question.
THE WITNESS: Mr. Akos Toth.
BY MR. RAJANI:
Q. And you specifically remember discussing this
document with Mr. Toth in 2009?
A. No, I don’t remember.

284
Q. How do you remember you discussed it with
him, then?
A. Because anything got to do with the UIT, it’s –
it was his invention, you know, his work platform, and
he, you know, did actly [verbatim].
[131] DEPOSITION REPORTER: It was his what
platform?
THE WITNESS: His invention.
DEPOSITION REPORTER: “His” –
THE WITNESS: That was his work.
BY MR. RAJANI:
Q. So you don’t remember specifically discussing
this document with Mr. Toth; right?
A. This document, it was discussed at the time
with multiple people, so I’m pretty sure it was more
than just Akos Toth. The entire R&D team, you know,
reviewed this. This is – this is a document not for one
person. But for fact, since he was there, the primary
inventor on the UIT, you know – for fact I can tell you
that he was involved with it.
He generated, you know, the diagram in this exhibit.
MR. RAJANI: I’m going to mark as Truckai Exhibit
8 a document –
MS. ELSON: 8 or 9?
MR. RAJANI: 8. Did I – I think it’s 8. The last one
was 7.
MS. ELSON: Oh, okay.
MR. RAJANI: It’s a document labeled MSI0029738
through 297551.
(Exhibit 8 marked for identification.)

285
[132] BY MR. RAJANI:
Q. Are you the author of Exhibit 8?
MS. ELSON: Objection. Form.
THE WITNESS: Nope.
BY MR. RAJANI:
Q. Was Exhibit 8 produced from your files?
MS. ELSON: Objection. Form.
And if the answer would reveal any attorney-client
privilege, I instruct you not to answer.
THE WITNESS: I can’t answer. I will take my
counsel advice on that.
BY MR. RAJANI:
Q. You’re telling me that whether this came from
your files is privileged?
MS. ELSON: That wasn’t the question.
BY MR. RAJANI:
Q. Was Exhibit 8 produced from your files?
MS. ELSON: To the extent you are asking about
production that involves attorney involvement, I
instruct him not to answer.
THE WITNESS: So on that level I am taking my
counsel advice.
MR. RAJANI: And your understanding is that if this
document, Counsel, was produced from his [133] files,
because it was in a production, it’s all of a sudden
privileged, whether or not it came from his files?
MS. ELSON: I’m not going to argue with you,
Counsel.

286
MR. RAJANI: I’m not trying to argue. I’m trying to
find the basis of these objections, which are so off-base,
but . . .
MS. ELSON: That’s your view.
BY MR. RAJANI:
Q. Who authored Exhibit 8?
A. As you can see, the first author, X1, it’s Akos
Toth. It says, “Initial Release.” Then you can see the –
the revisions, so you can see the first revision was Akos
Toth, and then X4 is Ron Hundertmark.
Q. You are reading from the first page of this
exhibit; right?
A. That’s right. It says, “Change Record.”
Q. And those names are under the column
“Responsible Person”; right?
A. That’s correct.
Q. Are you assuming the person that’s responsible
is also the author of the document? A. Because of the
quality system that’s [134] required. That’s the fact.
DEPOSITION REPORTER: Because of the what
system?
THE WITNESS: The quality system. The person
who responsible for the revision is the author of the
document.
BY MR. RAJANI:
Q. Do you recall – prior to your preparing for this
declaration, did you have an independent memory of
this particular document?
MS. ELSON: Objection. Form.

287
THE WITNESS: I can tell you every single document was sent to me, so, yes, product specification is a
very important document. And as you can see, there
are multiple revisions, so it’s not just one document.
This is the fourth revision of that document.
MR. RAJANI: I’m going to object as nonresponsive.
BY MR. RAJANI:
Q. Let me try and phrase it a different way.
Before you started preparing the declaration as
Exhibit 1, did you have an independent memory of this
particular document that’s marked as Exhibit 8?
MS. ELSON: Objection. Form. Asked and
answered.

[135]

THE WITNESS: Again, the only thing I can tell you,
that every single document which was product – was
product-specification-related was -¬ended up at me.
And this is the fourth edition, and I’m pretty sure
there are other editions, you know, on that, so...
BY MR. RAJANI:
Q. Did you see any of the other editions when you
were looking through your email to prepare for your
declaration?
MS. ELSON: Objection. Form.
THE WITNESS: I have to look again to be sure.
BY MR. RAJANI:
Q. Do you recall when you were looking through it
whether you saw any other versions, just sitting here
today?
MS. ELSON: Same objection.

288
THE WITNESS: I have to look and confirm. There
are a number of editions. So, you know, you asking me
which edition you talking about it, is very difficult for
me to say if, you know, X1, X- -¬yeah, as you can see.
///
[136] BY MR. RAJAN I :
Q. Do you recall seeing multiple versions of this
document when you were looking through your emails
to prepare for this declaration?
MS. ELSON: Objection. Form.
THE WITNESS: Yes.
BY MR. RAJANI:
Q. Can you go to the page ending in 547 in this
document. Do you know who authored the redlines on
that page?
A. This – this entire document, it was altered by
Ron Hundertmark.
Q. Do – is it your understanding that Mr.
Hundertmark is the one who drafted the redlines,
made the changes that are reflected?
A. So the way you have to read this document, it
says at the bottom here its X4. Then you can see here
– on the revision X4 you can see it was done by Ron
Hundertmark, and then you can see the changes,
which is described: various, format, clarity, edit,
additional –
DEPOSITION REPORTER: “Which is described” –
THE WITNESS: Which are described under the
“Description of Change.” It’s on the front page.
* * *

289
[173] DEPOSITION REPORTER: Oh.
BY MR. RAJANI:
Q. So in paragraph 29 you say:
“A relatively small amount of RF current (as
compared to the NovaSure) flows between the single
internal electrode and the second external ‘return’
electrode on the exterior of the PFA.”
Do you – do you believe that statement is accurate?
A.

It is accurate.

Q. Okay. Is that the only direction in which the RF
current can flow in the Minerva EAS?
A.

No.

Q. And I can be a little bit more specific.
Is there any RF energy being sent in the other
direction from the external electrode through – to the
internal electrode?
A. This is radio frequency. Just, you know, the
polarities changing all the time.
Q. Is that a function of it being an alternating
current?
A. It’s a function of an alternating current.
Q. So the internal electrode could also serve as the
return electrode?
[174] MS. ELSON: Objection. Form.
THE WITNESS: I mean, you can use terms, but we
are talking about two electrodes, period. One is on the
outside, and one is on the inside, the polarity of the
electrodes alternating.

290
BY MR. RAJANI:
Q. And are you aware that the parties in this case
are disputing what the term “pressure sensor” means?
MS. ELSON: Objection. Form.
Let me instruct – if you can exclude any –
MR. RAJANI: I can – let me withdraw the question.
MS. ELSON: Okay.
BY MR. RAJANI:
Q. I’m just asking for a “yes” or no as to whether
you are aware that the parties have proposed
competing constructions of what the term “pressure
sensor” means.
MS. ELSON: And objection. Form. Legal conclusion.
You can answer that question, but just I caution you
not to reveal the substance of any attorney-client
communication.
[175] THE WITNESS: I don’t know precisely what
the argument – the legal argument is.
BY MR. RAJANI:
Q. Let’s go to paragraph 57 of your declaration.
The last sentence of paragraph 57 reads:
“In 1999, I personally understood a pressure sensor
to be a device that directly detects a force per unit area
at its input.”
What do you mean by “directly detects a force per
unit”?
MS. ELSON: I’m sorry.
MR. RAJANI: Last sentence of paragraph 57.
MS. ELSON: I apologize. Go ahead.

291
BY MR. RAJANI:
Q. What do you mean in that sentence by “directly
detects a force per unit area”?
A. It means that the pressure you apply to the
pressure sensor measure the pressure.
Q. That’s what you mean by “directly detects a
force”?
A.

Yes.

Q. How do you recall what you personally
understood a pressure sensor to be in 1999?
[176] A.

How do – I’m sorry.

Q. How did you – how did you remember what you
personally understood a pressure sensor to mean in
1999?
A. Before 1999 – after ‘99 I used pressure sensor
for many applications. I know what’s pressure and
sensor is. It’s very common in the medical US industry
to measure pressure.
Q. Let’s go to paragraph 55 of your declaration.
The last sentence reads:
“That device was only a pressure sensor consistent
with my understanding of a pressure sensor (. . . a
device that detects a force per unit area at its input
and outputs a corresponding value).”
Is this consistent with your understanding of what
a pressure sensor was in 1999?
MS. ELSON: Objection. Form.
THE WITNESS: That’s correct. And that’s what I
referred before to.

292
BY MR. RAJANI:
Q. This reference in paragraph 55 doesn’t refer to
directly detecting a force per unit area, does it?
A.

No, but its stating that its a device
* * *

[201] I, JANIS JENNINGS, CSR No. 3942, Certified
Shorthand Reporter, certify:
That the foregoing proceedings were taken before
me at the time and place therein set forth, at which
time the witness was duly sworn by me;
That the testimony of the witness, the questions
propounded, and all objections and statements made
at the time of the examination were recorded stenographically by me and were thereafter transcribed;
That the foregoing pages contain a full, true and
accurate record of all proceedings and testimony.
Pursuant to F.R.C.P. 30(e) (2) before completion of
the proceedings, review of the transcript [ ] was [X]
was not requested.
I further certify that I am not a relative or employee
of any attorney of the parties, nor financially interested in the action.
I declare under penalty of perjury under the laws of
California that the foregoing is true and correct.
Dated this 2nd day of November 2017.
/s/ Janis Jennings
JANIS JENNINGS, CSR NO. 3942
CLR, CCRR

293
[202] DEPOSITION ERRATA SHEET
Esquire Litigation Services Assignment No. J0670065
Case Caption: HOLOGIC, INC., et al., vs. MINERVA
SURGICAL, INC.
DECLARATION UNDER PENALTY OF PERJURY
I declare under penalty of perjury that I have read
the entire transcript of my Deposition taken in the
captioned matter or the same has been read to me,
and the same is true and accurate, save and except for
changes and/or corrections, if any, as indicated by me
on the DEPOSITION ERRATA SHEET hereof, with
the understanding that I offer these changes as if still
under oath.
Signed on the __ day of ______, 20__.
CSABA TRUCKAI

294
[202] DEPOSITION ERRATA SHEET
Esquire Litigation Services Assignment No. J0670065
Case Caption: HOLOGIC, INC., et al., vs. MINERVA
SURGICAL, INC.
DECLARATION UNDER PENALTY OF PERJURY
I declare under penalty of perjury that I have read
the entire transcript of my Deposition taken in the
captioned matter or the same has been read to me, and
the same is true and accurate, save and except for
changes and/or corrections, if any, as indicated by me
on the DEPOSITION ERRATA SHEET hereof, with
the understanding that I offer these changes as if still
under oath.
Signed on the 07 day of November, 2017.
/s/ Csaba Truckai
CSABA TRUCKAI
[203] DEPOSITION ERRATA SHEET
Page No. 114 Line No. 23 Change to: specifically talk
about the flow control section
Reason for change: correct sentence
Page No. __ Line No. __ Change to:
Reason for change:
Page No. __ Line No. __ Change to:
Reason for change:
Page No. __ Line No. __ Change to:
Reason for change:
Page No. __ Line No. __ Change to:
Reason for change:
Page No. __ Line No. __ Change to:

295
Reason for change:
Page No. __ Line No. __ Change to:
Reason for change:
SIGNATURE:
Csaba Truckai

DATE:

From:
Sent:
To:
Cc:
Subject:

296
Michael Regan
Sunday, January 30, 2011 3:52 PM
Anderson, Ted L
Mary Edwards; Csaba Truckai; Eugene
Skalnyi
RE: cMinerva Case Update to MAB

Hi Dr Anderson:
Thanks for your comments on our peri-hysterectomy
series. The hysterectomy is typically done just
following the ablation treatment. The uterus is sent to
pathology within the hour. We have not done any 2-4
week post treatment hysterectomy. Discussions to
date with FDA indicate that we won’t he required to
do “delayed hysterectomy’ cases. Regarding the patent
position, we have been closely working with counsel on
this matter since the inception of the company and will
continue this approach on our design choices.
I appreciate your insights and the review of our
clinical protocol which you provided in a separate
email.
Take Care Mike
From:
Sent:
To:
Subject:

Anderson, Ted L
[mailto:ted.anderson@Vanderbilt.Edu]
Thursday, January 27, 2011 7:55 AM
Michael Regan
RE: Minerva Case Update to MAB

looks good.
How long after treatment is the hysterectomy done?
Have you looked at hysterectomy about 2-4 weeks
after treatment? There is going to be further tissue devitalization after the initial burn and it would be good
to examine at what that looks like.

297
I have one sort of global question. I envision major
“patent infringement” disputes for this device vs
Novasure. How is this being dealt with or how do you
plan you will be able to deal with it?
Ted L. Anderson, MD, PhD, FACOG, FACS
Director, Division of Gynecology and Gynecologic
Surgery
Department of Obstetrics and Gynecology
Vanderbilt University Medical Center
Nashville, TN 37232
tel: 615-343-6710
fax: 615-343-8881
ted.anderson@vanderbi lt.edu
The information transmitted within this email or in
any attached document(s) is intended solely for the
individual or entity to which it is addressed. That
information may contain confidential and/or privileged material, including Protected Health Information
(PHI). If you are not the intended recipient, be aware
that any disclosure, copying, distribution, or use of
this message or any attachment(s) is prohibited. Any
PHI that may be contained in this e-mail is intended
for the exclusive use of the addressee, and is to be used
only to aid in providing specific healthcare services to
this patient. Any other use is a violation of Federal
Law (HIPAA). If you believe you have received this email in error, please immediately contact the sender
and delete the material from your system.

From:
Sent:
To:

Cc:
Subject:

298
Michael Regan
[michaelr@minervasurgical.com]
Wednesday, January 26, 2011 7:01 PM
Andrew Brill; Anderson, Ted L; Donald
Galen MD (drgalen@drgalen.com); Adolf
Gallinat; Amy Garcia; Richard Gimpelson
MD (epabernathy@hotmail.com)
Csaba Truckai; Mary Edwards; Carol
Anne Yarbrough; Dominique Filloux
Minerva Case Update to MAB

Dear Drs. Brill, Anderson, Galen, Galinat, Garcia, and
Gimpleson
We just want to update you on our latest series of perihysterectomy cases last week. We are happy to report
that we completed 4 additional cases in Hungary at
two sites. This brings the cumulative peri-hysterectomy
experience to 7 cases. We hope to have the formal
pathology report within the next two weeks. In the
meantime, the attached files and gross pathology
observations noted below give an indication of the
results. We were fortunate to have Dr Gallinat proctor
these cases which helped tremendously with the new
user learning curve.
Procedural observations and potential future improvements:
-perforation detection system works well if we can
keep the blood out of the tubing (we need to install a
small blood capturing container)
-we are investigating methods to minimize tip profile
during insertion through the cervix
-auto inflation in device vs in controller may be
preferred because device can be removed multiple
times in a procedure

299
-length setup is cumbersome to know where the device
is set (investigating a number in “window” to make
reading the number easier)
-a suggestion was made to use “dot scale” for feedback
on cornu to cornu measurement additionally it might
be helpful to increase the resolution of the “reading”
scale
-we are looking into software to prompt the user to
reposition device if power is below 40W within the first
1-20 seconds of the ablation
Pathology Pictures and gross measurements:
D103
• Highest serosal temp was 36.72 (range 33.98 –
36.72)
• AnteriorTC came loose and did not record temp
appropriately
• Closest distance of thermal injury to serosa at
right cornu 15.5mm
• Depth of thermal injury (all maximum measurements)
1. Right cornu anterior – 4.9mm
2. Right cornu posterior – 4.5mm
3. Lt cornu anterior – 4.9mm
4. Lt cornu posterior – 4.3mm
5. Fundus – 5.0mm
6. Anterior Right Corpus – 5.0mm
7. Anterior Left Corpus – 4.3mm
8. Posterior Right Corpus – 4.1mm
9. Posterior Left Corpus – 3.8mm

300
10. Anterior LUS – 4.2mm
11. Posterior LUS – 3.6mm
12. Right Corpus sidewall – 4.1mm
13. Left Corpus side wall – 3.9mnn

301
From:
Sent:
To:
Subject:

Dave Clapper
Tuesday, November 10, 2015 6:10 PM
Glaser, Erik
Re: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report

Thanks. And by the way, Hologic filed a Complaint for
Patent Infringement (lawsuit) on Friday at 5 pm. I can
give you the details later. We anticipated something
along these lines, and have been working on a
response with an IP litigation group for the last 6
months. Our response is “In the can” so to speak. More
later.
Dave Clapper
President and CEO
Minerva Surgical
From:
Date:
To:
Subject:

<Glaser>, Erik Glaser <erik.glaser@smithnephew.com>
Tuesday, November 10, 2015 5:09 PM
Dave Clapper
<daveclapper@minervasurgical.com>
RE: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report

Ahh ..yes . . . that’s our code word . . . access code
3160290 . . . 1.888.858.6043

302
From:
Sent:
To:
Subject:

Dave Clapper
[mailto:daveclapper@minervasurgical.com]
Tuesday, November 10, 2015 8:07 PM
Glaser, Erik
Re: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report

Thank you. Two quick things: Is Athena interchangeable with Minerva. Two, can you provide a dialin #\pass code for the call? Couple of our people will
be calling in remotely.
Dave
Sent from my iPhone
On Nov 10, 2015, at 3:15 PM, Glaser, Erik
<Erik.Glaser@smith-nephew.com> wrote:
Dave . . . wanted to send along some questions to help
guide tomorrow’s call
?

Why is there a contraindication of hysteroscopic
myomectomy prior to the Minerva procedure?

?

Why are there variations in QOL results
between Athena Single Arm and Pivotal
studies?

?

We’ve reviewed AEs across both Minerva and
NovaSure . . . why are there difference in AE
data? Let’s review the nature and classification
of the AEs

These will naturally lead into other discussion points
but wanted to give you preliminary view of what the
team is thinking
Look forward to the call Erik

303
From:
Sent:
To:
Subject:

Dave Clapper
[mailto:daveclapper®minervasurgical.com]
Wednesday, November 04, 2015 4:10 PM
Glaser, Erik
Re: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report

Ok. I think we have this worked out. Eugene moved
his flight back to 5 pm eastern, which should give us
plenty of time. How does that sound?
Dave Clapper
President and CEO
Minerva Surgical
From:
Date:
To:
Subject:

<Glaser>, Erik Glaser <erik.glaser@smithnephew.com>
Wednesday, November 4, 2015 9:49 AM
Dave Clapper
<daveclapper@minervasurgical.com>
RE: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report

I am thinking that we should move the call from next
week for the convenience of everyone . . . our CMO is
completely out of pocket until 2 pm et and several
people are out next Friday.
So maybe at AAGL? I know Mira will have a suite that
should hold up to 8 . . . I think she’ll be there with 3 of
her team . . . sounds like up to 3-4 from the Minerva
team? Or we wait until after AAGL

304
From:
Sent:
To:
Subject:

Dave Clapper
[mailto:daveclapperminervasurgical.com]
Wednesday, November 04, 2015 12:45 PM
Glaser, Erik
Re: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report

Any amount of time we can move the meeting up, even
15 minutes will be valuable.
Sent from my iPhone
On Nov 4, 2015, at 8:32 AM, Glaser,
<Erik.Glaser@smith-nephew.com> wrote:

Erik

Dave . . . trying to figure out a way to make this work
on the 11t” . . . our CMO can’t make 12 pm et (he’s one
of the folks in Europe)
If we stick with 2 pm et on the 11th . . . and get Dr.
Skalnyi for-30 minutes . . . will he be in transit to the
airport? In other words, probably not the best
environment for a call?
From:
Sent:
To:
Subject:

Dave Clapper
[mailto:daveclapper@minervasurgical.com]
Tuesday, November 03, 2015 9:38 PM
Glaser, Erik
Re: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report

It will work, however Dr Skalnyi has a flight at 2:38,
so well only have him for 25 minutes or so.
Sent from my iPhone

305
On Nov 3, 2015, at 7:13 PM, Glaser,
<Erik.Glaser@smith-nephew.com> wrote:

Erik

Appreciate the follow up. . .any way to push the 2 pm
et slot? I know there’s a lot to line up. . .I should be
able to get everyone at 2
Sent from my iPhone
On Nov 3, 2015, at 7:35 PM, Dave Clapper
<daveclapper@minervasurgical.com> wrote:
Just heard back from the entire Minerva team. Noon
eastern time will allow all of us to be on the call for at
least an hour. Would this work?
Sent from my iPhone
On Nov 3, 2015, at 1:01 PM, Glaser,
<Erik.Glaser@smith-nephew.com> wrote:

Erik

Thanks Dave . . . let’s tentatively book 2 pm eastern
time on the 11th . . . I’m still checking calendars here
. . . some folks are in Europe and want to make sure
the time zones are accurate!
From:

Dave Clapper
[mailto:daveclapperminervasurgical.co m]
Sent:
Tuesday, November 03, 2015 1:59 PM
To:
Glaser, Erik
Subject: Re: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report
Hi Erik. I’m catching a flight from DC back to the west
coast today.
2pm Eastern on the 11th works.
I’ll double check on the AE lists tomorrow when I’m
back in the office. I’m 99% sure that we eliminated
Attachment 1. All of the AE’s are listed in the charts
or narrative that you have in the report. Virtually all

306
AE’s following Ablations occur within the first 30 days
and most in the first 24 hours. I’ll recheck tomorrow.
Depending on your list of questions, I’m anticipating
that I will be on the call, plus VP Med Affairs - Eugene
Skalnyi MD, CRO - Jan McComb PhD, and possibly
VP’s of Ops and RD.
We don’t have a rep in Boston yet, so I’m not planning
a visit there anytime soon.
Dave
Sent from my iPhone
On Nov 3, 2015, at 10:19 AM, Glaser, Erik
<Erik.Glaser@smith-nephew.com> wrote:
Thanks Dave . . . please see below
?

I’m looking into the 11th for potential times for
management call . . . would 2 pm et work for
you/your team? I’m still confirming internal
schedules but should know shortly . . . also
wanted to confirm who from your team would
participate . . . assume CMO and head of clinical
to participate? Anyone else (you of course)

?

Unfortunately, I won’t be at AAGL due to travel
conflicts

?

Wanted to get back to you on your funding
proposal . . . it sounds potentially intriguing but
obviously the devil is in the details . . . want to
try and catch up on that after AAGL? Are you
potentially in Boston in the near future? Would
be great to discuss F2F

Lastly, a couple follow on questions regarding the 1 yr.
pivotal report

?

?

307
Bottom of page 22 and top of page 23 . . . there
is a reference to an Attachment 1 (containing
listing of AEs) . . . we can’t seem to find the
attachment 1 . . . did we miss it?
Reference table VII.B.2. . . it shows post-op AEs
@ 4 weeks . . . do you also have AEs at 1 year?
Did we perhaps miss the 1 year AE data?

-----Original Message---From:
Sent:
To:
Subject:

Dave Clapper [mailto:daveclapper@
minervasurgical.com]
Monday, November 02, 2015 4:54 PM
Glaser, Erik
Re: Confidential “DRAFT” ¬Minerva
Pivotal Study One Year Report

The 11th would be best. We could meet at AAGL. Will
you be attending anyway? We have several other
meetings at AAGL which is par for the course, so I’m
not concerned about that. Let me know if anytime in
the 11th could possible work. If not, possibly early on
the 13th, like 10 am eastern might work.
Sent from my iPhone
> On Nov 2, 2015, at 3:46 PM, Glaser, Erik
<Erik.Glaser@smith-nephew.com> wrote:
>
>OK . . . let me see about schedules . . . would it make
sense to connect at
AAGL? Would need to find a suitable location that
would not raise eye brows.
>-----Original Message----->From:

Dave Clapper [mailto:daveclapper@
minervasurgical.com]

308
>Sent:
Monday, November 02, 2015 2:17 PM
>To:
Glaser, Erik
>Subject: Re: Confidential “DRAFT” - Minerva
Pivotal Study One Year Report
> Hi Erik. The 12 or 13th wont work. And AAGL is the
next week, 16, 17, & 18. Yikes!! Any chance of making
something work on the 11th??
> Sent from my iPhone
>>On Nov 2, 2015, at 1:31 PM, Glaser, Erik
<Erik.Glaser@smith-nephew.com> wrote:
>>
>>Dave,
>>
>>Waned to follow up regarding management call.
Unfortunately, due to some travel conflicts, I can’t get
our team together until next week . . . so could you
suggest some convenient dates/times for late next
week (12th or 13th) and into the week of the 16th for
a management call with your team?
>>
>>I figure an hour should be good? We’ll prepare a list
of questions to send to you beforehand in preparation
to run the call efficiently.
>>
>>Many thanks for your help.
>>Best,
>>
>>Erik
>>

309
>>-----Original Message---->>From:

Dave Clapper
[mailto:daveclapper@minervasurgical.com]
>>Sent: Wednesday, October 28, 2015 9:40 PM
>>To:
Glaser, Erik
>>Subject: Confidential “DRAFT” - Minerva Pivotal
Study One Year Report
>>
>>Erik, attached please find a Confidential “DRAFT”
copy of the Minerva Pivotal Study One Year Report. I
wanted to get this over to your team for review, while
we are still triple checking the data, running
statistical significance analysis, and proof reading proof reading - proof reading! There will very likely be
some minor changes and additions to this report before
we send it into the FDA. Happy reading, and I hope
your team likes the data as much as we do!!
>>Let me know if you have any questions.
>>Dave

310
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
C.A. No. 15-1031-JFB-SRF
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
EXHIBIT 1
JOINT STATEMENT OF UNCONTESTED FACTS
————
I.

PARTIES

1. Plaintiff Hologic, Inc. is a corporation organized
and existing under the laws of the State of Delaware
with a principal place of business at 250 Campus
Drive, Marlborough, Massachusetts, 01752.
2. Plaintiff Cytyc Surgical Products, LLC (“Cytyc”)
(together with Hologic, Inc., “Hologic”) is a limited
liability company organized and existing under the
laws of the Commonwealth of Massachusetts with a
principal place of business at 250 Campus Drive,
Marlborough, Massachusetts, 01752. Cytyc is a
wholly-owned subsidiary of Hologic, Inc.
3. Defendant Minerva Surgical, Inc. is a
corporation organized and existing under the laws of
the State of Delaware with a principal place of
business at 101 Saginaw Drive, Redwood City, CA,
94063.

311
II.
A.

PATENTS-IN-SUIT
U.S. Patent No. 6,872,183 (“the ’183 Patent”)

4. The ’183 Patent is entitled “System and Method
for Detecting Perforations in a Body Cavity.”
5. The ’183 Patent was issued by the United States
Patent and Trademark Office (“USPTO”) on March 29,
2005.
6.

The ’183 Patent expires on November 10, 2020.

7. The ’183 Patent claims priority to Provisional
Application No. 60/164,482, filed November 10, 1999
(i.e., the ’183 Priority Date). Original Utility
Application No. 09/710,102, filed November 10, 2000,
issued as U.S. Patent No. 6,554,780 (“the ’780
Patent”). Application No. 10/400,823, filed March 27,
2003, was a continuation of Application No.
09/710,102, and issued as U.S. Patent No. 6,743,184
(“the ’184 Patent”). Application No. 10/852,684, filed
May 24, 2004, was a continuation of Application No.
10/400,823, and issued as U.S. Patent No. 6,872,183
(“the ’183 Patent”). The ’780, ’184, and ’183 Patents all
share a common specification. Only the claims of each
are different.
8. Russel M. Sampson, Mike O’Hara, Csaba
Truckai, and Dean T. Miller are the named inventors
of the ’183 Patent.
9. Hologic, Inc. is the owner by assignment of the
’183 Patent.
10. Hologic, Inc. acquired the ’183 Patent from
Cytyc on January 15, 2016.
11. Csaba Truckai assigned his interest in the ’183
Patent to Novacept, Inc. on February 9, 2001.

312
12. In February 2001, Csaba Truckai assigned his
interest in U.S. Application No. 09/710,102, an
application to which the ’183 Patent claims priority, to
Novacept, Inc.
B.

U.S. Patent No. 9,095,348 (“the ’348 Patent”)

13. The ’348 Patent is
Transportation
System
Electrocoagulation.”

entitled
for

“Moisture
Contact

14. The ’348 Patent was issued by the USPTO on
August 4, 2015.
15. The ’348 Patent expires on November 19, 2018.
16. The ’348 Patent claims priority to Provisional
Application No. 60/084,791, filed May 8, 1998 (i.e., the
’348 Priority Date). Original Utility Application No.
09/103,072, filed June 23, 1998, issued as U.S. Patent
No. 6,813,520 (“the ’520 Patent”). Application No.
10/959,771, filed October 6, 2004 was a divisional of
Application No. 09/103,072, and issued as U.S. Patent
No. 7,604,633 (“the ’633 Patent”). Application No.
12/581,506, filed October 19, 2009, was a continuation
of Application No. 10/959,771, and issued as U.S.
Patent No. 8,506,563 (“the ’563 Patent”). Application
No. 13/962,178, filed August 8, 2013, was a
continuation of Application No. 12/581,506, and issued
as U.S. Patent No. 9,095,348 (“the ’348 Patent”). The
’520, ’633, ’563, and ’348 Patents all share a common
specification. Only the claims of each are different.
17. Cytyc listed Csaba Truckai, Russel Mahlon
Sampson, Stephanie Squarcia, Alfonso Lawrence
Ramirez, and Estela Hilario as named inventors on
the face of the ’348 Patent.
18. Hologic, Inc. is the owner by assignment of the
’348 Patent.

313
19. Hologic, Inc. acquired the ’348 Patent from
Cytyc on January 15, 2016.
20. Csaba Truckai assigned his interest in the ’348
Patent to Novacept, Inc. on August 5, 1998.
21. In August 1998, Csaba Truckai assigned his
interest in U.S. Application No. 09/103,072, an
application to which the ’348 Patent claims priority, to
Novacept, Inc.
22. Certain persons at Minerva had knowledge of
the ’348 Patent prior to the filing of the original
Complaint.
III. THE NOVASURE SYSTEM
23. Menorrhagia, also known as Abnormal Uterine
Bleeding or AUB, is menstrual bleeding that is
abnormally heavy in amount and/or duration.
24. Endometrial ablation is a transcervical surgical
technique in which the lining of the uterus is
destroyed with the goal of preventing further bleeding.
25. Mr. Truckai and others at Novacept, Inc.
developed the NovaSure system.
26. In 1993, Csaba Truckai co-founded Novacept,
Inc.
27. Novacept, Inc. received FDA premarket
approval for commercial distribution of the NovaSure
system on September 28, 2001.
28. Novacept, Inc. assigned to Cytyc Corp. its
patent rights including continuation applications.
29. Hologic markets and sells the NovaSure system
throughout the United States and in interstate
commerce.

314
IV. MINERVA AND THE MINERVA ENDOMETRIAL ABLATION SYSTEM (“MINERVA EAS”)
30. Both the Minerva EAS and the NovaSure
system are indicated for use on premenopausal women
with menorrhagia (excessive bleeding) due to benign
causes for whom childbearing is complete.
31. The Array Opening Indicator of the Minerva
EAS contains a Black Indicator Line that can move
relative to rows of black dots depending on the degree
of expansion of the Plasma Formation Array.
32. Csaba Truckai was involved in the development
of the Minerva EAS.
33. Csaba Truckai is a founder of Minerva.
34. Minerva was founded in 2008.
35. Minerva received FDA premarket approval for
commercial distribution of the Minerva EAS on July
27, 2015.
36. Minerva began commercial distribution of the
Minerva EAS in August 2015.
37. Minerva markets and sells the Minerva EAS
throughout the United States and in interstate
commerce.

315
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
1:15CV1031
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
ORDER
————
In conformity with the Memorandum Opinion
issued this date,
IT IS ORDERED:
1. The parties’ motions for oral argument (D.I.
354 and D.I. 359) are denied.
2.
Plaintiffs Hologic, Inc.’s and Cytyc Surgical
Products, LLC’s motion to strike argumentative
exhibits (D.I. 346) is denied.
3. Plaintiffs Hologic, Inc.’s and Cytyc Surgical
Products, LLC’s motion to bifurcate (D.I. 374) is
denied.
4. The parties’ motions to preclude or strike
expert testimony (D.I. 279, 290, and 317) are denied.
5. Defendant Minerva Surgical, Inc.’s motion to
dismiss (D.I. 275) is denied.
6. Defendant Minerva Surgical Inc.’s motion for
partial summary judgment (D.I. 277) is denied.

316
7. Plaintiffs Hologic, Inc.’s and Cytyc Surgical
Products, LLC’s motion for a summary judgment of
no invalidity (D.I. 287) is granted.
8. Plaintiffs Hologic, Inc.’s and Cytyc Surgical
Products, LLC’s motion for a summary judgment of
infringement (D.I. 288) is granted.
9. Plaintiffs Hologic, Inc.’s and Cytyc Surgical
Products, LLC’s motion for summary judgment with
respect to assignor estoppel (D.I. 289) is granted.
10. The action will proceed to trial for a
determination of damages and willfulness in
connection with the patent claim and for a
determination of the parties’ state-law claims and
counterclaims.
DATED this 28th day of June, 2018.
BY THE COURT:
s/ Joseph F. Bataillon
Senior United States District Judge

317
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
1:15CV1031
————
HOLOGIC, INC., and CYTYC SURGICAL PRODUCTS, LLC,
Plaintiffs,
v.
MINERVA SURGICAL, INC.,
Defendant.
————
VERDICT
————
We, the jury, find by a preponderance of evidence,
as follows:
I.


PATENT DAMAGES
As instructing in Instructions Nos. 13 to 22, we
find Hologic is entitled damages for: (answer YES
to only one)
○

X Lost profits (Answer question I.a)
OR

○

Only a Reasonable Royalty (Answer
question I.b)

I.a If you find that Hologic is entitled to lost
profits answer the following:
○ For lost profits of $4,200,529.75 and,
○ For royalties for sales not included in lost
profits $587,138.48, a royalty of 8 %
I.b If you find that Hologic is entitled to only a
Reasonable Royalty:

318
○ For a reasonable royalty $
of %.
II.


, a royalty

WILLFUL INFRINGEMENT
As instructed in Instruction No. 23, we find
Minerva’s infringement of the ’348 patent was
Willful
X Not willful

III. MINERVA’S COUNTERCLAIMS
A. Breach of Contract


On Minerva’s claim for breach of contract, as
instructed in Instruction No. 35, we find in favor of
Minerva

or

X Hologic

B. Lanham Act


On Minerva’s claim of false advertising under the
Lanham Act, as instructed in Instruction No. 33,
we find in favor of
Minerva

or

X Hologic

If you found in favor of Hologic your deliberations are
at an end.
If you found in favor of Minerva, answer the
following:
○ What is the amount of money required to
compensate Minerva for any actual injury?
$________________

319
○ What is the amount of additional profits
Hologic gained as a result of the false
advertising?
$________________
○ Was Hologic’s conduct willful?
____ Yes
____ No

Your deliberations are at an end. Please have your
foreperson sign and date this form .
DATED this 27 day of July, 2018.
XXXXXXXXXXXX
FOREPERSON
JURORS:
XXXXXXXXXXXX
XXXXXXXXXXX
XXXXXXXXXXX
XXXXXXXXX
XXXXXXXX
XXXXXXXXX
XXXXXXX

320

This page intentionally left blank.

